<html>
<title> - SECURING OUR COMMUNITIES: FEDERAL SUPPORT TO HIGH-RISK URBAN AREAS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
   SECURING OUR COMMUNITIES: FEDERAL SUPPORT TO HIGH-RISK URBAN AREAS

=======================================================================

                             FIELD HEARING

                               before the

                            SUBCOMMITTEE ON
                        EMERGENCY PREPAREDNESS,
                      RESPONSE, AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 23, 2018

                               __________

                           Serial No. 115-61

                               __________

       Printed for the use of the Committee on Homeland Security
       
       
                                     

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                     

        Available via the World Wide Web: http://www.govinfo.gov
        
        

                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
30-899 PDF                 WASHINGTON : 2018      
                               
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Sheila Jackson Lee, Texas
Mike Rogers, Alabama                 James R. Langevin, Rhode Island
Lou Barletta, Pennsylvania           Cedric L. Richmond, Louisiana
Scott Perry, Pennsylvania            William R. Keating, Massachusetts
John Katko, New York                 Donald M. Payne, Jr., New Jersey
Will Hurd, Texas                     Filemon Vela, Texas
Martha McSally, Arizona              Bonnie Watson Coleman, New Jersey
John Ratcliffe, Texas                Kathleen M. Rice, New York
Daniel M. Donovan, Jr., New York     J. Luis Correa, California
Mike Gallagher, Wisconsin            Val Butler Demings, Florida
Clay Higgins, Louisiana              Nanette Diaz Barragan, California
John H. Rutherford, Florida
Thomas A. Garrett, Jr., Virginia
Brian K. Fitzpatrick, Pennsylvania
Ron Estes, Kansas
Don Bacon, Nebraska
                   Brendan P. Shields, Staff Director
                   Steven S. Giaier, General Counsel
                    Michael S. Twinchek, Chief Clerk
                  Hope Goins, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

               Daniel M. Donovan, Jr., New York, Chairman
Peter T. King, New York              Donald M. Payne, Jr., New Jersey
Martha McSally, Arizona              James R. Langevin, Rhode Island
John H. Rutherford, Florida          Bonnie Watson Coleman, New Jersey
Thomas A. Garrett, Jr., Virginia     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
             Kerry A. Kinirons, Subcommittee Staff Director
       Moira Bergin, Minority Subcommittee Staff Director/Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Daniel M. Donovan, Jr., a Representative in 
  Congress From the State of New York, and Chairman, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Donald M. Payne, Jr., a Representative in Congress 
  From the State of New Jersey, and Ranking Member, Subcommittee 
  on Emergency Preparedness, Response, and Communications:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     6

                               WITNESSES
                                Panel I

Mr. William F. Sweeney, Jr., Assistant Director in Charge, New 
  York Field Office, Federal Bureau of Investigation, U.S. 
  Department of Justice:
  Oral Statement.................................................     7
  Prepared Statement.............................................     9
Mr. Brian Murphy, Acting Principal Deputy Under Secretary, Office 
  of Intelligence and Analysis, U.S. Department of Homeland 
  Security:
  Oral Statement.................................................    11
  Prepared Statement.............................................    12
Mr. Thomas DiNanno, Assistant Administrator, Grant Programs 
  Directorate, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16
Mr. Chris P. Currie, Director, Homeland Security and Justice 
  Team, U.S. Government Accountability Office:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22

                                Panel II

Mr. John Miller, Deputy Commissioner, Intelligence and 
  Counterterrorism, New York Police Department, City of New York, 
  New York:
  Oral Statement.................................................    40
  Joint Prepared Statement.......................................    37
  Prepared Statement.............................................    42
Mr. Joseph W. Pfeifer, Chief, Counterterrorism and Emergency 
  Preparedness, New York City Fire Department, City of New York, 
  New York:
  Oral Statement.................................................    45
  Joint Prepared Statement.......................................    37
  Prepared Statement.............................................    48
Mr. Joseph J. Esposito, Commissioner, New York City Emergency 
  Management Department, City of New York, New York:
  Oral Statement.................................................    50
  Joint Prepared Statement.......................................    37
  Prepared Statement.............................................    52
Mr. John Bilich, Chief Security Officer, The Port Authority of 
  New York and New Jersey:
  Oral Statement.................................................    53
  Prepared Statement.............................................    56
Mr. Jared M. Maples, Director, Office of Homeland Security and 
  Preparedness, State of New Jersey:
  Oral Statement.................................................    59
  Prepared Statement.............................................    61

                                APPENDIX

Questions From Ranking Member Donald M. Payne for Thomas DiNanno.    73


   SECURING OUR COMMUNITIES: FEDERAL SUPPORT TO HIGH-RISK URBAN AREAS

                              ----------                              


                         Monday, April 23, 2018

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                 Staten Island, NY.
    The subcommittee met, pursuant to notice, at 10:01 a.m., at 
the Recital Hall, Center for the Arts, College of Staten 
Island, 2800 Victory Blvd, Staten Island, NY, Hon. Daniel M. 
Donovan [Chairman of the subcommittee] presiding.
    Present: Representatives Donovan [presiding], King, and 
Payne.
    Mr. Donovan. The Committee on Homeland Security, 
Subcommittee on Emergency Preparedness, Response, and 
Communications, will come to order.
    The subcommittee is meeting today to examine Federal 
counterterrorism support to high-risk urban areas. I appreciate 
the effort taken on behalf of all those involved to have this 
important field hearing take place, and I want to thank the 
College of Staten Island for hosting us.
    This is an official Congressional hearing, so you must 
abide by certain rules of the Committee on Homeland Security 
and the House of Representatives. I kindly wish to remind our 
guests today that demonstrations from the audience, including 
applause and verbal outbursts, as well as any use of signs or 
placards, are in violation of the rules of the House of 
Representatives. It is important that we respect the decorum 
and the rules of this committee.
    I have also been requested to state that photography and 
cameras are limited to accredited press only.
    I now recognize myself for an opening statement.
    When I first met then-Speaker John Boehner as a newly-
elected Congressman in 2015, I made one request: I wanted a 
seat on the Homeland Security Committee. I wanted to serve on a 
committee that addressed so many topics near and dear to my 
constituents and my city. I was later honored when Chairman 
Michael McCaul approached me to become the Chairman of this 
subcommittee. Every day, I get to work on homeland security 
issues and advocate for resources to help our first responders 
and strengthen New York City's and our Nation's preparedness. 
It has been a challenging but fulfilling responsibility.
    My subcommittee has made great progress in giving our first 
responders a voice on Capitol Hill. But the work is never done, 
and that is why we are here today, to meet and discuss an 
important topic that not only affects our constituents, but the 
entire Nation, Federal support to high-risk metropolitan areas.
    On September 11, 2001, the Nation watched as al-Qaeda 
attacked New York City and Washington, DC by turning planes 
into weapons. Fast-forward to the present day and New York City 
and all that it represents remains the No. 1 terrorist target 
in the world, having experienced five additional attacks since 
that time. I would be remiss if I didn't mention the hard work 
of our Federal, State, and New York City officials who have 
thwarted over a dozen other serious plots against our city.
    Just last year, first responders acted bravely as 
terrorists attacked our city with a pipe bomb and a truck. We 
are forever grateful to the fine men and women at the New York 
City Police Department, FDNY, and the Port Authority Police 
that ran toward these situations without giving it a second 
thought and saved countless lives. It is because of them and 
the dedicated and tireless professionals of New York City's 
Emergency Management that New York City has become a stronger, 
more resilient, and secure place.
    New York City's finest and bravest, and other first 
responders across the Nation, arrive first at a disaster scene. 
Several Federal initiatives provide instrumental support to 
ensure our first responders can handle whatever threat they 
approach. The Department of Homeland Security and the Federal 
Bureau of Investigation, through grants, intelligence 
information sharing, and joint task forces, have become the 
primary Federal agencies that interact with first responders. 
We are thankful for both these agencies' work to help our first 
responders. In most cases, DHS and the FBI stand right behind 
our first responders during and after a terrorist incident.
    DHS, through the Office of Intelligence and Analysis, and 
the FBI have attempted to create an information-sharing 
environment in which authorities disseminate accurate 
information in a timely manner and to the appropriate Federal, 
State, and local partners. We have made great progress in 
breaking down the information-sharing stovepipes that existed 
and have haunted us after September 11, but there seems to be 
reoccurring challenges regarding terror-related information 
sharing.
    Information sharing is a two-way street, and I believe that 
the enhancements at both I&A and the FBI's Joint Terrorism Task 
Force have helped tremendously in creating a better flow of 
terrorism information between the Federal Government and State 
and local law enforcement. I am interested in learning from our 
witnesses more about what needs to be done to create a fully 
integrated information-sharing environment.
    Ensuring first responders have information on the most 
recent terrorist attacks and other intelligence is only one 
part of the equation in protecting our homeland. The Homeland 
Security Preparedness Grants allow first responders to enhance 
and sustain their capabilities to protect their communities 
from the evolving terrorist attacks that we face.
    Vital grant programs include the State Homeland Security 
Grant Program, Urban Area Security Initiative, Port Security 
Grant Program, and the Transit Security Grant Program. Our 
committee has repeatedly heard from first responders about the 
importance of these programs and the capabilities they have 
helped their jurisdictions attain. In fact, just last week, on 
the 5th anniversary of the Boston Marathon bombings, we held a 
hearing concerning those bombings and the recent Austin serial 
bombings. Law enforcement representatives from Boston and 
Austin repeatedly emphasized how Federal Homeland Security 
Grant Programs aided in their response efforts to these 
attacks, and I am certain we will hear similar sentiments from 
witnesses on our second panel today.
    This committee fully supports these programs, and the 
committee's DHS authorization bill includes provisions from my 
legislation, the PREPARE Act, which authorizes robust funding 
for these programs. I am pleased the House overwhelmingly 
passed this legislation last year, and I urge the Senate to 
take action on it without further delay.
    In the nearly 17 years since September 11, 2001, we have 
made great progress in hardening our defenses against 
terrorists who wish to do us harm. Unfortunately, they are not 
giving up, and neither can we.
    I want to thank all of the witnesses for coming to Staten 
Island, and I look forward to our discussion about how we can 
continue to secure our great Nation.
    [The statement of Chairman Donovan follows:]
                Statement of Chairman Daniel M. Donovan
                             April 23, 2018
    When I first met with then-Speaker John Boehner as a newly-elected 
Congressman in 2015, I made one request--I wanted a seat on the 
Homeland Security Committee. I wanted to serve on a committee that 
addressed so many topics near and dear to my constituents and my city. 
I later was honored when Chairman Michael McCaul approached me to 
become the Chairman of this subcommittee. Every day, I get to work on 
homeland security issues and advocate for resources to help our first 
responders and strengthen New York City's and our Nation's 
preparedness. It has been a challenging but fulfilling responsibility.
    My subcommittee has made great progress in giving our first 
responders a voice on Capitol Hill. But the work is never done and 
that's why we are here today to meet and discuss an important topic 
that not only affects our constituents, but the entire Nation--Federal 
support to high-risk metropolitan areas.
    On September 11, 2001, the Nation watched as al-Qaeda attacked New 
York City and Washington, DC by turning planes into weapons. Fast-
forward to the present day and New York City and all that it represents 
remains the No. 1 terrorist target in the world, experiencing 5 
additional attacks. And I would be remiss if I didn't mention the hard 
work of Federal, State, and New York city officials to thwart dozens of 
other serious plots.
    Just last year, first responders reacted bravely as terrorists 
attacked our city with a pipe bomb and a truck. We are forever grateful 
to the fine men and women at the NYPD, FDNY, and the Port Authority 
Police that ran toward these situations without giving it a second 
thought and saved countless lives. It is because of them and the 
dedicated and tireless professionals of NYC Emergency Management that 
New York City has become a stronger, more resilient, and secure place.
    New York City's finest and bravest, and other first responders 
across the Nation, arrive first to a disaster scene. Several Federal 
initiatives provide instrumental support to ensure our first responders 
can handle whatever threat they approach. The Department of Homeland 
Security and the Federal Bureau of Investigation, through grants, 
intelligence information sharing, and joint task forces, have become 
the primary Federal agencies that interact with first responders. We 
are thankful for both agencies' work to help our first responders. In 
most cases, DHS and the FBI stand right beside our first responders 
during and after a terrorist attack.
    DHS, through the Office of Intelligence and Analysis (I&A), and the 
FBI have attempted to create an information-sharing environment in 
which authorities disseminate accurate information in a timely manner 
and to the appropriate Federal, State, and local partners. We have made 
great progress in breaking down the information-sharing stovepipes that 
haunted us after 9/11, but there seem to be reoccurring challenges 
regarding terror-related information sharing.
    Information sharing is a two-way street, and I believe that the 
enhancements at both I&A and the FBI's Joint Terrorism Task Forces have 
helped tremendously in creating a better flow of terrorism information 
between the Federal Government and State and local law enforcement. I'm 
interested in learning from our witnesses more about what needs to be 
done to create a fully integrated information-sharing environment.
    Ensuring first responders have information on the most recent 
terrorist tactics and other intelligence is only one part of the 
equation in protecting our homeland. The homeland security preparedness 
grants allow first responders to enhance and sustain their capabilities 
to protect their communities from the evolving terrorist threats we 
face.
    I am disappointed that the fiscal year 2019 budget once again 
proposes to cut vital grant programs, including the State Homeland 
Security Grant Program, Urban Area Security Initiative, Port Security 
Grant Program, and Transit Security Grant Program. Our committee has 
repeatedly heard from first responders about the importance of these 
programs and the capabilities they have helped jurisdictions attain. In 
fact, just last week, the committee held a hearing on the 5th 
anniversary of the Boston Marathon bombings and the recent Austin 
serial bombings. Law enforcement representatives from Boston and Austin 
repeatedly emphasized how grant programs like SHSGP and UASI aided in 
their response efforts to these attacks. And I am certain we will hear 
similar sentiments from witnesses on our second panel today.
    This committee fully supports these programs, and the committee's 
DHS Authorization bill includes provisions from my legislation, the 
PREPARE Act, which authorize robust funding for these programs. I am 
pleased the House overwhelmingly passed this legislation last year and 
I urge the Senate to take action on it without further delay.
    In the nearly 17 years since 9/11, we have made great progress in 
hardening our defenses against terrorists who wish to do us harm. 
Unfortunately, they are not giving up and neither can we.
    I want to thank all of the witnesses for coming to Staten Island 
and I look forward to our discussion about how we can continue to 
secure our great Nation.

    Mr. Donovan. At this point, the Chair now recognizes the 
Ranking Member of this committee, my friend, the gentleman from 
New Jersey, Mr. Payne, for any opening remarks he may have.
    Mr. Payne. Good morning. I want to thank Chairman Donovan 
for holding today's hearing to examine the Federal support to 
high-risk urban areas.
    Everyone here understands that protecting the Nation from 
bad actors is of the utmost importance. September 11 and 
subsequent terrorist acts and thwarted plots have taught us 
that there are people who constantly look for ways to exploit 
our vulnerabilities. Those bad actors' methods of attack have 
evolved over time in an attempt to stay ahead of our security 
enhancements. It is more important than ever before to ensure 
our first responders have the proper resources to plan for, 
train, and respond to emerging threats effectively.
    In my district, the 10th Congressional District of New 
Jersey, we know very well the important role that FEMA's 
preparedness grants play in keeping our citizens safe and 
secure. My district is home to Newark Liberty International 
Airport, the New Jersey Transit Authority, the Port of Newark 
and Elizabeth Main Terminal, and a dense area of industrial 
facilities that have been referred to as the two most dangerous 
miles in America. In recent years, events such as the pipe 
bombs found in Elizabeth, New Jersey, which is a neighboring 
district, serve as a reminder that there are those with intent 
and means to do harm.
    Of course, we are also situated close to one of the most 
targeted cities in America, New York City. Time and time again, 
we have seen where investing in first responders has helped 
thwart a response to these attacks. Such incidents underscore 
the importance of FEMA's funding to State and locals. For these 
reasons, I have been troubled by the fact that the last two 
Trump administration budget proposals would make significant 
cuts to these critical funding streams.
    Fortunately, Congress has rejected these misguided cuts, 
and my hope is that we will continue to reject any proposals 
that will weaken preparedness and security for those on the 
ground protecting the public day in and day out. Moreover, 
Federal first responders funding should be robust and 
predictable so that our State and local governments can 
effectively plan for future investments. It is important that I 
point out that in 2011, we saw FEMA grant funding fall 
significantly. It is my hope that we can see those funding 
levels restored. That is what Democrats on the House Homeland 
Security Committee have worked to do. I intend to continue to 
fight for preparedness funding as I know that it has been a 
lifeline to the State and local governments who are already 
struggling to stretch their budgets.
    I thank the witnesses for being here today. I look forward 
to hearing from them about the importance of the Federal 
funding to their respective organizations and how we can help 
support them in their vital missions.
    With that, Mr. Chairman, I yield back.
    [The statement of Ranking Member Payne follows:]
            Statement of Ranking Member Donald M. Payne, Jr.
                             April 23, 2018
    Everyone here understands that protecting the Nation from bad 
actors is of the utmost importance. September 11 and subsequent 
terrorist acts and thwarted plots have taught us that there are people 
who constantly look for ways to exploit our vulnerabilities. Those bad 
actors' methods of attack have evolved over time in an attempt to stay 
ahead of our security enhancements.
    It is more important than ever before to ensure our first 
responders have the proper resources to plan, train, and respond to 
emerging threats effectively. In my district, the 10th Congressional 
District of New Jersey, we know very well the important role that 
FEMA's preparedness grants play in keeping our citizens safe and 
secure.
    My district is home to Newark Liberty International Airport, the 
New Jersey Transit Authority, the Port Newark-Elizabeth Marine 
Terminal, and a dense area of industrial facilities that has been 
referred to as ``the most dangerous two miles in America.''
    In recent years, events such as the pipe bombs found Elizabeth, New 
Jersey, which is a neighboring district, serve as a reminder that there 
are those with intent and means to do harm. Of course, we are also 
situated close to one of the most targeted cities in America, New York 
City.
    Time and time again, we have seen where investing in first 
responders have helped thwart or respond to these attacks. Such 
instances underscore how important FEMA's funding is to State and 
locals.
    For these reasons, I have been troubled by the fact that the last 
two Trump administration budget proposals would make significant cuts 
to these critical funding streams.
    Fortunately, Congress has rejected these misguided cuts, and my 
hope is that we continue to reject any proposals that will weaken 
preparedness and security for those on the ground protecting the public 
day in and day out.
    Moreover, Federal first responder funding should be robust and 
predictable, so that our State and local governments can effectively 
plan for future investments.
    In 2011, we saw FEMA grant funding fall significantly. It is my 
hope that we can see those funding levels restored, and that is what 
Democrats on the House Homeland Security Committee have worked to do.
    I intend to continue to fight for preparedness funding, as I know 
that it has been a lifeline to State and local governments, who are 
already struggling to stretch their budgets.

    Mr. Donovan. The gentleman yields.
    The Chair now recognizes the gentleman from Long Island who 
was an original Member of the Homeland Security Committee when 
this was formed back in 2002, served as the distinguished 
Chairman of the entire Homeland Security Committee, my good 
friend from Long Island, Mr. Pete King.
    Mr. King. Thank you, Mr. Chairman. I really appreciate the 
fact that you are holding this hearing. It is absolutely vital 
because there is no doubt in my mind that New York, northern 
New Jersey, and Long Island are the No. 1 terrorist targets in 
the country. The combined Federal, State, and local efforts are 
absolutely essential if we are going to remain safe, because we 
have an enemy that will never stop coming at us. Also, it is 
essential that we receive the funding that we need.
    It is a full-time process here in this entire region to 
protect ourselves, and like Mr. Payne, I have real issues with 
the cuts by the Trump administration. But before that, I had 
just as much concern with the cuts proposed by the Obama 
administration. It appears that too often the administration, 
no matter who is in power, doesn't quite realize how 
significant this is. Under the Obama administration, Congress 
restored the cuts. Under the Trump administration, Congress has 
as well. I am confident we will do it again this year.
    But I also want to make it clear that the men and women of 
the Department of Homeland Security do an outstanding job, and 
I look forward again to working with them as we go forward.
    Dan, I just want to thank you for the work you have done 
with this subcommittee. There is probably no subcommittee and 
no part of the Homeland Security Committee that is more 
important to the security of New York than Emergency 
Preparedness. You deal on a day-to-day basis with those who are 
on the front lines, those who have to protect us while the rest 
of us are home sleeping. It is the men and women of the NYPD, 
FDNY, Port Authority Police, and also working with departments 
of the Federal Government, especially the FBI and Homeland 
Security, that keep all of us safe.
    So I want to thank you for holding this hearing, and I look 
forward to the witnesses, two expert panels of witnesses. I 
look forward to it, and I yield back.
    Mr. Donovan. The gentleman yields. Other Members are 
reminded they may submit statements for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             April 23, 2018
    Like all Americans, I remember the shock and horror of September 
11, 2001, as we watched the tragedy unfold.
    As a Member of Congress, I knew that we had to do everything in our 
power to provide first responders and State and local governments with 
resources to respond to the threat of terrorism around the Nation.
    Congress established the Department of Homeland Security and 
charged it with administering new homeland security grant programs, 
also commonly referred to as preparedness grants, to provide critical 
resources to help protect communities from threats.
    While New York City has long been a terrorist target, the threat of 
terrorism is not exclusive to any one type of town or city, 
unfortunately.
    In June of last year, then-Secretary John Kelly testified before 
the committee that the threat of terrorism ``has metastasized around 
the country, whether it's New York City, the largest municipality in 
the country, or some little town in the middle of Arkansas, the 
potential is about the same in my view for a lone-wolf attack.''
    Whether it is a truck bomb in Times Square or ISIS threats on a 
college campus in Mississippi, State, and local agencies need Federal 
assistance to detect and disrupt those who would seek to do us harm.
    Therefore, we must continue to help these agencies build the 
capacity to respond to threats.
    Given the variety and complexity of threats to our Nation, one 
would think that the Trump administration would understand that Federal 
spending on preparedness grants needs to be increased or at a very 
minimum maintained.
    Unfortunately, President Trump's fiscal year 2018 and 2019 proposed 
budgets recommended cutting more than $900 million in preparedness 
grant funding.
    The proposed drastic cuts, if enacted, would have devastated the 
progress made to address capability gaps in our preparedness.
    Further, cuts to preparedness grants would have created tremendous 
hardship for many towns and cities across the country who would 
struggle to find the resources to prevent and respond to threats.
    Congress has flatly rejected the Trump proposals and, in the case 
of many preparedness grants, increased funding in the recent omnibus 
appropriations bill.
    As Ranking Member of the Committee on Homeland Security, I have 
always done my part to make sure State and locals have the resources 
they need to prepare for and respond to threats.
    Ensuring that investments made by the Federal Government in 
developing response capabilities are not undermined by misguided budget 
priorities has never been more important, and you will continue to have 
my strong support in that effort.

    Mr. Donovan. We are now pleased to have two distinguished 
panels with us this morning, witnesses who will testify about 
this important topic.
    Our first panel consists of Mr. William Sweeney, Jr., 
assistant director in charge of the Federal Bureau of 
Investigations' New York field office. Welcome, Bill.
    Mr. Brian Murphy is the acting principal deputy under 
secretary for intelligence and analysis for the Department of 
Homeland Security's Office of Intelligence and Analysis. Brian, 
thank you for attending today.
    Mr. Thomas DiNanno is the assistant administrator for 
FEMA's Grant Programs Directorate. Thank you very much, Tom, 
for appearing today before us.
    Mr. Christopher Currie is the director of homeland security 
and justice issues at the Government Accountability Office.
    I thank you all for being here. The witnesses' full 
testimony and their statements will appear in the record.
    The Chair now recognizes Mr. Sweeney for any opening 
remarks he may have.

  STATEMENT OF WILLIAM F. SWEENEY, JR., ASSISTANT DIRECTOR IN 
CHARGE, NEW YORK FIELD OFFICE, FEDERAL BUREAU OF INVESTIGATION, 
                   U.S. DEPARTMENT OF JUSTICE

    Mr. Sweeney. Good morning, Chairman Donovan, Ranking Member 
Payne, and Representative King. Thank you for the opportunity 
to discuss the FBI's efforts to secure our communities.
    The FBI's mission is to protect and defend the United 
States against terrorist and foreign intelligence threats, to 
uphold and enforce the criminal laws of the United States, and 
to provide leadership and criminal justice services to Federal, 
State, municipal, and international agencies and partners.
    The area of responsibility for the FBI's New York Field 
Office covers nearly 5,000 square miles, with a population of 
more than 13 million people. We also have an extra-territorial 
responsibility in the New York office where we cover issues 
from Canada, the United Kingdom, Europe, Western Europe, and 
all of Africa. We have over 2,000 employees here in New York, 
with almost an equal percentage of special agents and 
professional staff on board.
    In order to address the threats we face, we know one of the 
most significant factors that will drive our success is the 
emphasis we have placed on developing relationships and 
information-sharing abilities. In a city and region as large as 
New York, we could not expect to thrive without the support of 
our local, State, and Federal agency partners. The leadership 
of those agencies and the men and women that make up the 
agencies in this region are second to none, from the NYPD, the 
New York State Police, the Port Authority Police Department, 
the FDNY, the New Jersey State Police, to name a few. Almost 
everything we do in the FBI is in partnership with another 
agency.
    Perhaps one of the best examples of that is the FBI's Joint 
Terrorism Task Force. The first JTTF was established here in 
New York City in 1980, and the second was formed shortly 
thereafter in Newark, New Jersey. Prior to 9/11, there were 
about 1,000 members of JTTFs Nation-wide. Today, there are over 
4,000. The total number of JTTFs Nation-wide has also increased 
since 9/11, to 184.
    The mission of the New York JTTF is to enhance 
communications, coordination, and cooperation between Federal, 
State, and local government agencies representing the law 
enforcement, intelligence, defense, diplomatic, public safety, 
and homeland security communities by providing a point of 
fusion for terrorism investigations and National security 
matters.
    Thanks to our extensive list of partner agencies and the 
relationships we share, the JTTFs in New York and in New Jersey 
are uniquely situated to respond to critical incidents without 
immediate assistance from other FBI field offices. As the 
terrorism threat continues to evolve, it is crucial that we 
maintain this level of capability.
    Should a critical incident occur within our area of 
responsibility, myself or one of my designees is responsible 
for initiating an appropriate crisis response plan. In most 
cases, including the recent truck attack carried about by 
Sayfullo Saipov along Manhattan's West Side Highway in October 
2017, executive management can be on scene within minutes. We 
will begin communicating almost immediately with first 
responders--in most cases in the city, that is the NYPD and the 
FDNY--to determine our next steps.
    In addition to our 24/7 operations command center, our 
Joint Operations Center will become operational almost 
immediately. Here we pool together our resources and 
partnership abilities made possible through the JTTF, as 
described above, and we remain in constant communication with 
FBI headquarters by way of secure video teleconferencing 
capability.
    Components of the FBI's specialized crisis response team 
will surge resources where necessary to mitigate any immediate 
threat to the public as we work together with our law 
enforcement partners to determine what information is necessary 
to disseminate to the community in the interest of public 
safety.
    In summary, the FBI continues to effectively engage with 
our local, State, Federal, and international law enforcement 
partners and intelligence partners to confront the threats we 
face and protect the communities we serve. Combatting terrorism 
in all forms remains our No. 1 priority. For this reason, we 
will continue to draw upon the relationships we have 
established with our partners, both here at home and abroad, to 
understand the threats we face, disrupt plots to harm our 
homeland, and dismantle the potential networks behind them.
    Chairman Donovan, Ranking Member Payne, Representative 
King, thank you again for the opportunity to discuss our 
efforts to secure our communities. Mr. Chairman, we are 
grateful for the leadership that you and this committee have 
provided to the FBI, and we thank you for your continuing 
support. I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Sweeney follows:]
              Prepared Statement of William F. Sweeney Jr.
                             April 23, 2018
    Good morning. Chairman Donovan, Ranking Member Payne, and Members 
of the committee, thank you for this opportunity to discuss the FBI's 
efforts to secure our communities.
    The FBI's mission is to protect and defend the United States 
against terrorist and foreign intelligence threats, to uphold and 
enforce the criminal laws of the United States, and to provide 
leadership and criminal justice services to Federal, State, Tribal, 
municipal, and international agencies and partners.
    There are 56 field offices in cities across the United States and 
Puerto Rico; about 380 smaller offices, called resident agencies, in 
cities and towns across the Nation; and more than 60 international 
offices, called legal attaches, in U.S. embassies world-wide.
    The area of responsibility for the FBI's New York Field Office 
covers nearly 5,000 square miles with a population of more than 13 
million people. We have over 2,000 employees here in New York, with an 
almost equal percentage of special agents and professional staff.
    After the 9/11 attacks, the FBI, overall, had to improve the way we 
analyzed and shared intelligence, and we had to use intelligence to 
drive our investigations, not the other way around.
    We hired hundreds of new translators and surveillance specialists, 
and we nearly tripled the number of new intelligence analysts.
    We integrated our intelligence program with other agencies in the 
intelligence community, under the director of national intelligence. We 
stood up the FBI's National Security Branch, the Directorate of 
Intelligence, and the Weapons of Mass Destruction Directorate. In 
short, we improved the Bureau's National security capabilities across 
the board.
    Before the September 11 attacks, we collected intelligence 
principally for the purpose of prosecution. Today, we are collecting 
intelligence to better understand all threats--those we know about, and 
those that have not yet become evident. Our mission is not merely to 
disrupt an isolated plot, but to dismantle the potential network behind 
it.
    Director Wray has recently stated that the FBI currently has 
approximately 1,000 open ISIS-related investigations, approximately 
1,000 open investigations of suspected home-grown violent extremists 
inspired by various global jihadist movements, and approximately 1,000 
open investigations into domestic terrorism.
    In order to address these threats, and others, we know one of the 
most significant factors that will drive our success is the emphasis we 
have placed on developing relationships and information-sharing 
abilities. In a city as large as New York, we could not expect to 
thrive without the support of our local, State, and Federal agencies. 
No one agency, working alone, can defeat terrorism or any other of 
today's threats.
    We continue to strengthen relationships with our international law 
enforcement partners as well. Today, we have 64 legal attache offices--
commonly known as legats--and more than a dozen smaller sub-offices in 
key cities around the globe, providing coverage for more than 200 
countries, territories, and islands.
    Each office is established through mutual agreement with the host 
country and is situated in the U.S. embassy or consulate in that 
nation.
    We work with a host of intelligence community agencies at the 
National Counterterrorism Center and other fusion centers around the 
country.
    We have also expanded our Joint Terrorism Task Forces, or JTTFs, 
which were first established here in New York City in 1980. Prior to 9/
11, there were about 1,000 members of JTTFs Nation-wide; today there 
are over 4,000. The total number of JTTFs Nation-wide has also 
increased since 9/11 to 184.
    The mission of the New York JTTF is to enhance communications, 
coordination, and cooperation between Federal, State, and local 
government agencies representing the law enforcement, intelligence, 
defense, diplomatic, public safety, and homeland security communities 
by providing point of fusion for terrorism investigations and National 
security matters and efforts.
    Currently, the New York JTTF is composed of over 450 personnel, to 
include law enforcement, analysts, and professional staff, representing 
over 40 member agencies, and 16 non-member liaison agencies. The NY 
JTTF area of responsibility encompasses metropolitan New York and 
extends internationally to Africa, Western Europe, the United Kingdom, 
and Canada. Thanks to our extensive list of partner agencies and the 
relationships we share, the JTTF in New York is uniquely situated to 
respond to critical incidents without immediate assistance from other 
field offices. As the terrorism threat continues to evolve, it's 
crucial that we maintain this level of capability.
    Additionally, as part of the JTTF, New York has a dedicated Weapons 
of Mass Destruction (``WMD'') investigative squad, which is composed of 
special agent subject-matter experts in WMD, special agent bomb 
technicians, and a special agent Hazardous Evidence Response Team 
leader. The squad is supplemented by several task force officers with 
WMD expertise, and they're tasked with emergency response, 
investigation, and WMD preparedness to include training, exercises, 
liaison outreach, and tripwire development and implementation. All 
components of the squad actively train and respond with subject-matter 
experts from our local partner agencies.
    It is through partnerships like this that we continue to explore a 
comprehensive approach to fighting crime. By collaborating on joint 
investigations and sharing resources and information, we are seeing 
successes in spite of the threat that remains a top priority for all of 
us.
                            crisis response
    Should a critical incident occur within our area of responsibility, 
the assistant director in charge, or equivalent designee, is 
responsible for initiating an appropriate crisis response plan. In most 
cases, including the recent truck attack carried about by Sayfullo 
Saipov along Manhattan's West Side Highway in October 2017, executive 
management can be on scene within minutes. We will begin communicating 
almost immediately with first responders, in most cases the New York 
City Police Department (``NYPD''), to determine our next steps. In 
addition to our 24/7 operations command center, our Joint Operations 
Center (``JOC'') will become operational almost immediately. Here we 
will pool together our resources and partnership abilities made 
possible through our JTTF, as described in detail above, as we remain 
in constant communication with FBI Headquarters by way of secure video 
teleconferencing capabilities. Components of the FBI's specialized 
crisis response team will surge resources where necessary to mitigate 
any immediate threat to the public as we work together with our law 
enforcement partners to determine what information is necessary to 
disseminate to the community in the interest of public safety.
    In summary, the FBI continues to effectively engage with our local, 
State, Federal, Tribal, and international law enforcement partners to 
confront the threats we face and protect the communities we serve. 
Combatting terrorism, in all its forms, remains our top priority. For 
this reason, we will continue to draw upon the relationships we've 
established with our partners, both at home and abroad, to understand 
the threats we face, disrupt plots to harm our homeland, and dismantle 
the potential networks behind them.
    Chairman Donovan, Ranking Member Payne, and Members of the 
committee, thank you again for this opportunity to discuss the FBI's 
efforts to secure our communities. Mr. Chairman, we are grateful for 
the leadership that you and this committee have provided to the FBI, 
and we thank you for your continuing support. I look forward to 
answering any questions you may have.

    Mr. Donovan. Thank you for your remarks, Mr. Sweeney.
    The Chair now recognizes Mr. Murphy for any remarks he may 
have.

   STATEMENT OF BRIAN MURPHY, ACTING PRINCIPAL DEPUTY UNDER 
SECRETARY, OFFICE OF INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Murphy. Thank you, Chairman Donovan, Ranking Member 
Payne, Representative King. Thank you for the opportunity to 
testify today along with my colleagues from the FBI, FEMA, and 
GAO. In my testimony today, I will describe the current threat 
environment and how I&A shares intelligence with our State and 
local partners to support their important work of keeping our 
local communities safe.
    Each year, I&A works with FEMA's Grant Programs Directorate 
to support the Department's annual Homeland Security Grant 
Programs' counterterrorism grant programs to provide threat 
analysis and data to inform their homeland counterterrorism 
risk assessments. I&A reviews shared intelligence reporting 
produced by the intelligence community along with State and 
local threat reporting and other sources to provide FEMA with a 
relative threat ranking for the top 100 Metropolitan 
Statistical Areas and States and territories in the homeland. 
This threat ranking allows FEMA to ensure limited funds are 
allocated to the cities with the highest risk and informs the 
Secretary's decisions regarding funding allocations.
    The State Homeland Security Program Grants are important 
components in supporting State and local efforts to prevent 
terrorist attacks and other catastrophic events, and helps our 
State and local partners prepare for and respond to significant 
threats to our Nation.
    The threats we face from terrorism today are much more 
diverse than in the time immediately following the September 11 
attacks. We face a serious, persistent, and varied terror 
threat which will not diminish in the near future. While we 
have made it harder for terrorists to execute complex, large-
scale attacks, changes in technology have made it easier for 
our adversaries to plot attacks generally, to radicalize new 
followers to commit acts of violence, and to recruit beyond our 
borders. The problem is further compounded by the use of 
simple, do-it-yourself terrorist tactics conveyed via highly 
sophisticated terrorist marketing campaigns to a global 
audience.
    Similarly, the threat from transnational criminal 
organizations has and continues to grow. These organizations 
are highly mobile, maintain sophisticated cross-border 
networks, and are involved in a wide range of criminal 
activities including human smuggling and the trafficking of 
drugs and firearms. These criminal organizations will likely 
continue to employ and improve their intelligence capabilities 
through a variety of methods including human, technical, and 
cyber means. These activities all have a significant impact on 
the safety, security, and health of citizens in our homeland.
    The Department is overhauling its approach to integrating 
intelligence with operations, changing how we proactively 
address threats. Success in proactively addressing threats 
depends on support between and collaboration with our partners, 
which is the lifeblood of all DHS components.
    One of the Department's top priorities to address this 
evolving threat environment is to more effectively integrate 
intelligence equities into our operational mission. DHS is 
utilizing valuable information uncovered by the intelligence 
community and our law enforcement professionals to adapt 
quickly to an ever-evolving threat at home and abroad. Driving 
multi-directional information exchanges with our State and 
local partners to fill credible information and intelligence 
gaps is a unique part of I&A's mission. We are the only member 
of the IC explicitly charged in statute to share intelligence 
and threat information with State and local partners, and are 
also responsible for developing intelligence from those 
partners for DHS and the IC.
    In support of this mission, we work closely with all of our 
components within DHS. I&A deploys intelligence professionals 
dedicated to providing intelligence and information sharing to 
our partners. These professionals in the field are one of our 
most unique and valuable assets. We deploy them across the 
country to enable regular, direct engagement with our State and 
local partners, producing timely and actionable intelligence. 
Their involvement spans the spectrum of activities, from the 
development of joint intelligence products and reporting 
locally generated information that we share with the IC. For 
example, our intelligence professionals covering the New York 
City area work closely with the NYPD and the New York Fire 
Department to provide intelligence related to the IC. At least 
bi-weekly, our intelligence officers brief the NYPD on cyber 
threats and threats specific to New York.
    The collaboration I have discussed is enhanced through 
FEMA's Homeland Security Grants Program. While only a portion 
of fusion centers' budgets and other State and local entities 
are supported through homeland security grants, this grant 
program plays a crucial role. In fact, those receiving the 
funds from either the grants program or other areas received a 
total of $300 million over the past 5 years. The Homeland 
Security Grants Program has also been an instrumental tool in 
driving consistency and standardization in the way in which we 
share intelligence.
    Chairman Donovan, Ranking Member Payne, Representative 
King, thank you for this opportunity to speak in front of you 
today.
    [The prepared statement of Mr. Murphy follows:]
                   Prepared Statement of Brian Murphy
                             April 23, 2018
                              introduction
    Chairman Donovan, Ranking Member Payne, distinguished Members of 
the committee, thank you for the opportunity to testify today--along 
with my colleagues from the Federal Emergency Management Agency and the 
Federal Bureau of Investigation. The men and women of the Department of 
Homeland Security's (DHS) Office of Intelligence and Analysis (I&A) 
work diligently to produce timely, actionable intelligence and 
information to help keep the homeland safe, secure, and resilient, and 
I am proud to speak to you on their behalf.
    In my testimony today, I will describe the current threat 
environment and how I&A shares intelligence with our State and local 
partners to support their important work of keeping local communities 
safe. Each year, I&A works with FEMA's Grant Programs Directorate to 
support the Department's annual Homeland Security Grant Programs (HSGP) 
counterterrorism grant programs to provide threat analysis and data to 
inform their homeland counterterrorism risk assessments. I&A reviews 
shared intelligence reporting produced by the intelligence community 
(IC) along with State and local threat reporting and other sources to 
provide FEMA with a relative threat ranking for the top 100 
Metropolitan Statistical Areas and States and territories in the 
homeland. This threat ranking allows FEMA to ensure limited funds are 
allocated to the cities with the highest risk and informs the 
Secretary's decisions regarding funding allocations. The State Homeland 
Security Program (SHSP) and Urban Area Security Initiative (UASI), 
grant programs within HSGP, are important components in supporting 
State and local efforts to prevent terrorist attacks and other 
catastrophic events, and helps our State and local partners prepare for 
and response to significant threats to our Nation.
        protecting the nation in an evolving threat environment
    The threats we face from terrorism today are much more diverse than 
in the time immediately following the September 11 attacks. We face a 
serious, persistent, and varied terror threat, which will not diminish 
in the near future.
    While we have made it harder for terrorists to execute complex, 
large-scale attacks, changes in technology have made it easier for our 
adversaries to plot attacks generally, to radicalize new followers to 
commit acts of violence, and to recruit beyond our borders. The problem 
is further compounded by the use of simple, ``do-it-yourself'' 
terrorist tactics conveyed via highly-sophisticated terrorist marketing 
campaigns to a global audience.
    Similarly, the threat from transnational criminal organizations has 
and continues to grow. These organizations are highly mobile, maintain 
sophisticated cross-border networks, and are involved in a wide range 
of criminal activities including human smuggling, and the trafficking 
of drugs and firearms. These criminal organizations will likely 
continue to employ and improve their intelligence capabilities through 
a variety of methods including human, technical, and cyber means. These 
activities all have a significant impact on the safety, security, and 
health of citizens in our homeland.
    The dangers we face as a people are becoming more dispersed with 
threat networks proliferating across borders. This shifting landscape 
constantly challenges our security; as such, we must move past 
traditional defense and non-defense mindsets. For this reason, the 
Department is overhauling its approach to integrating intelligence with 
operations--changing how we proactively address threats. Success in 
proactively addressing threats depends on support between and 
collaboration with our partners, which is the lifeblood of successful 
intelligence efforts.
    One of the Department's top priorities to address this evolving 
threat environment is to more effectively integrate intelligence 
equities into our operational mission. DHS is utilizing valuable 
information uncovered by our warfighters, the IC, and law enforcement 
professionals to adapt quickly to an ever-evolving threat at home and 
abroad. Driving multi-directional information exchanges with our State, 
local, Tribal, and territorial (SLTT) partners to fill critical 
information and intelligence gaps is a unique part of I&A's mission. We 
are the only member of the IC explicitly charged in statute to share 
intelligence and threat information with SLTT partners, and are also 
responsible for developing intelligence from those partners for DHS and 
the IC. In support of this mission, we work closely with our DHS 
operational components, including the Countering Weapons of Mass 
Destruction (CWMD) Office, U.S. Immigration and Customs Enforcement 
(ICE), and U.S. Customs and Border Protection (CBP); as well as 
interagency partners, including the Federal Bureau of Investigation and 
the National Counterterrorism Center to support the integration of SLTT 
partners into the overall National capability. We also share 
intelligence that helps front-line operators identify, disrupt, and 
respond to known and unknown threats. We are committed to continuing 
our efforts, along with our colleagues in the intelligence community, 
to ensure that our partners have the threat information they need to 
protect our communities.
    I&A deploys intelligence professionals dedicated to providing 
intelligence and information sharing support to SLTT partners. These 
professionals in the field are one of our most unique and valuable 
assets. We deploy them across the country to enable regular, direct 
engagement with SLTT partners for collaboration, production, and 
dissemination of timely, actionable intelligence. Their involvement 
spans the spectrum of activities, from the development of joint 
intelligence products with SLTT partners, to the collection and 
reporting of locally-generated information that we share with Federal 
partners and the IC. For example, our intelligence professionals 
covering the New York City (NYC) area work closely with the New York 
City Police and Fire Departments to provide timely intelligence and 
access to IC capabilities. At least bi-weekly, our intelligence officer 
briefs the NYPD on cyber threats and threats specific to New York.
    The collaboration I have discussed is enhanced through FEMA's 
Homeland Security Grants Program. While only a portion of fusion 
centers' budgets are supported through homeland security grants, the 
HSGP plays a critical role in helping build and sustain fusion centers 
and our decentralized information sharing capability. In fact, Fusion 
Center investments from the UASI and SHSP have totaled more than $300 
million over the past 5 years. The HSGP has also been an instrumental 
tool in helping drive consistency and standardization in the way in 
which fusion centers operate. For example, the annual HSGP guidance 
identifies a suite of requirements for fusion centers as a requirement 
for receiving funding. This criteria-based approach allows DHS to 
influence the operations of the fusion centers, which are owned and 
operated by State and local entities. Driving toward common and 
consistent operation of fusion centers across the country will provide 
long-term, and sustainable benefits, to our collective homeland 
security efforts.
                               conclusion
    Chairman Donovan, Ranking Member Payne, distinguished Members of 
the committee, thank you again for your continued oversight, support, 
and the opportunity to testify today. In collaboration with our State 
and local partners, we will continue to adapt to meet the current 
threat environment and prepare for the future. I look forward to your 
questions.

    Mr. Donovan. Thank you, Mr. Murphy.
    The Chair recognizes Mr. DiNanno for any remarks that he 
may have.

 STATEMENT OF THOMAS DI NANNO, ASSISTANT ADMINISTRATOR, GRANT 
PROGRAMS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. DiNanno. Thank you, Mr. Chairman. Good morning, 
Chairman Donovan, Ranking Member Payne, and Representative 
King. My name is Thomas DiNanno. I am the assistant 
administrator for grant programs at FEMA in the Department of 
Homeland Security.
    Thank you for the opportunity to discuss how the 
Department's Preparedness Grant Programs support the Nation's 
high-risk urban areas.
    In recent years, Americans have been called upon to respond 
to and recover from a number of devastating events ranging from 
natural disasters to terrorist attacks. In 2017, Americans 
withstood several unprecedented acts of violence and terrorism. 
Here in New York, the October 2017 truck attack at the Hudson 
River Greenway left 8 dead and 11 injured. The 2017 attack at 
the New York Port Authority's bus terminal is the first known 
terrorist attack on the U.S. transit system. Both events were 
supported by DHS-funded assets.
    These attacks also indicate a new and emerging threat that 
we must prepare for and confront. In New York, as in Las Vegas 
in 2017 and Paris in 2016, public gatherings and crowded places 
have become a target of terrorism and extreme violence. Also, 
as recent history has shown, cyber threats are a clear and 
present danger to our Nation's security. This past month, a 
ransomware attack against Atlanta virtually paralyzed the 
city's municipal functions for over a week. Also in March, a 
similar attack temporarily shut down Baltimore's 9-1-1 system.
    Since 2002, DHS has provided more than $50 billion in 
preparedness grant funding to State and local partners. In 
2017, $580 million in Urban Area Security Initiative funds 
funded 33 high-risk urban areas.
    Today we sit between two of the Nation's major UASIs, the 
New York City UASI and the Newark/Jersey City UASI. Both are 
examples of Federal support provided to high-risk urban areas 
through DHS.
    Since 2002, the New York City urban area has received over 
$2.3 billion in UASI funds, while Newark has received over $400 
million in UASI funds. High-risk urban areas also benefit from 
funding allocated to mass transit systems under the Transit 
Security Grant Program, managed at FEMA, in partnership with 
the Transportation Security Administration. In 2017, the 
Transit Security Grant Program provided $88 million to 26 urban 
transit systems Nation-wide. This included over $38 million to 
transit systems in the New York and New Jersey urban areas.
    Also providing essential resources to the New York and New 
Jersey urban areas is the Port Security Grant Program. In 2017, 
the New York and New Jersey port area received over $20 million 
through the Port Security Grant Program, and over $145 million 
in funds over the last 10 years.
    FEMA also manages the Non-Profit Security Grant Program. 
From 2007 through 2017, over $182 million were awarded to over 
2,500 non-profit organizations Nation-wide. Over that same 
period more than $20 million was awarded to non-profit 
organizations within Newark. Similarly, over $45 million was 
awarded to non-profits in the New York City urban area.
    To ensure limited UASI funds are allocated to the cities 
with the highest risk, DHS conducts a yearly risk assessment of 
the Nation's 100 most populous metropolitan statistical areas, 
with the support of our colleagues from I&A and the FBI here 
with us today.
    Over the past year the Department, recognizing that threats 
shift and evolve, has conducted a comprehensive review of the 
risk assessment process and has instituted several 
modifications which will take effect this coming grant cycle. 
Intelligence community analysis of the current threat has 
highlighted the interests of terrorists to strike soft targets 
including public events and mass gatherings. Analysis also 
indicates the use of simple tactics and an increasingly 
disperse threat.
    Based on this information, as well as the lessons learned 
following recent attacks, the Department will continue to 
emphasize efforts to enhance security at soft targets and mass 
gatherings. Our programs must evolve and be flexible as our 
adversaries continue to try to exploit our weaknesses.
    Mr. Chairman, Ranking Member Payne, Members of the 
committee, thank you again for this opportunity to discuss the 
Homeland Security Grant Programs. I am happy to respond to any 
questions you may have.
    [The prepared statement of Mr. DiNanno follows:]
                  Prepared Statement of Thomas DiNanno
                             April 23, 2018
                              introduction
    Good morning, Chairman Donovan, Ranking Member Payne, and Members 
of the subcommittee. I am Thomas DiNanno, and I serve as the assistant 
administrator for grant programs at the Department of Homeland 
Security's (DHS) Federal Emergency Management Agency (FEMA). On behalf 
of Secretary Nielsen and Administrator Long, thank you for the 
opportunity to discuss the critical role of the Department's homeland 
security grant programs in assisting the Nation, particularly the 
Nation's high-risk urban areas, in preventing, preparing for, and 
responding to terrorist attacks.
    Over the past 10 years, the American people have been called upon 
to respond to and recover from a number of devastating, if not 
catastrophic, natural disasters and terrorist attacks: Hurricane Sandy 
in 2012, which affected much of New Jersey, New York City, and Staten 
Island; the 2013 Boston Marathon Bombing; the 2015 shooting in San 
Bernardino, California; and the 2016 pipe bomb attacks in New York 
City's Chelsea neighborhood and Seaside Park, New Jersey.
    More recently, Americans have endured the natural devastation of 
Hurricanes Harvey, Irma, and Maria, and man-made acts of violence, 
including the October 2017 Las Vegas shooting; this year's recent 
school shootings in Parkland, Florida and St. Mary's County, Maryland; 
the October 2017 truck attack in New York City's Hudson River Greenway; 
and the December 2017 detonation of a pipe bomb in New York's Port 
Authority Bus Terminal. Out of deference and respect, we must also 
acknowledge that we are only a few miles from the site of the September 
11, 2001 attacks on the World Trade Center.
    Last December, the President released his ``National Security 
Strategy,'' which provides a road map to better protect the homeland, 
including guidance on responding to the needs of the American people in 
the event of a natural disaster or terrorist attack. The Strategy aims 
to build a national culture of preparedness and resilience in 
conjunction with State, local, Tribal, and territorial partners and 
jurisdictions to enable them to prepare and respond to whatever hazards 
they may encounter. Fostering preparedness and building resilience is 
also at the heart of FEMA's 2018-2022 Strategic Plan.
    During any type of incident, State and local first responders play 
critical roles in keeping our communities safe. In the face of various 
hazards and threats, FEMA is committed to ensuring that our communities 
have the resources needed to prevent, prepare for, mitigate, and 
respond to a wide range of incidents.
    Since its inception, DHS, through the Preparedness Grant Programs, 
has provided funding to State, local, Tribal, and territorial 
governments, as well as transportation authorities, nonprofit 
organizations, and the private sector, to improve the Nation's 
readiness in preventing, protecting against, and responding to 
terrorist attacks. These grant funds address the Nation's immediate 
security needs, enhance public safety, and protect lives and property.
             homeland security preparedness grant programs
    Since 2002, DHS has provided more than $50 billion in preparedness 
grant funding to State, local, Tribal, and territorial governments, 
non-profits, and other community organizations. In fiscal year 2017 
alone DHS distributed over $1.6 billion in preparedness grant funds--
with more than $1 billion in funding provided under the Homeland 
Security Grant Program (HSGP), which includes the State Homeland 
Security Program (SHSP), the Urban Area Security Initiative (UASI), and 
Operation Stonegarden (OPSG).
    In addition to the HSGP, other FEMA preparedness grant programs, 
including the Transit Security Grant Program (TSGP), the Port Security 
Grant Program (PSGP), Intercity Passenger Rail (Amtrak) Program, and 
the Intercity Bus Security Grant Program (IBSGP) support efforts to 
protect the traveling public, secure critical infrastructure and key 
resources and enhance the security of transportation routes, transit 
systems, and port facilities.
    Together, these programs support the development, sustainment, and 
delivery of core capabilities essential to achieving the National 
Preparedness Goal of a secure and resilient Nation.
    Among these preparedness grant programs, several have provided 
significant assistance to high-risk urban areas. These include:
  <bullet> The Homeland Security Grant Program (HSGP), which includes 
        both the State Homeland Security Program (SHSP) and the Urban 
        Area Security Initiative (UASI). Since fiscal year 2002, the 
        SHSP has provided over $11.2 billion to the various States and 
        territories to build and enhance preparedness and response 
        capabilities. Similarly, since fiscal year 2002, UASI has 
        provided more than $9.4 billion to designated high-risk urban 
        areas.
  <bullet> The Transit Security Grant Program (TSGP) which, since 
        fiscal year 2002, has provided over $2.1 billion to the 
        Nation's largest urban mass transit systems to enhance the 
        security of these systems and better protect the traveling 
        public.
  <bullet> The Port Security Grant Program (PSGP) which, since fiscal 
        year 2002, has provided more than $2.6 billion to enhance the 
        security of the Nation's major ports and maritime trading and 
        commercial centers.
  <bullet> The Nonprofit Security Grant Program (NSGP) which, since 
        fiscal year 2007 (the first year in which the program was 
        funded), has provided over $182 million to individual nonprofit 
        organizations located in designated urban areas and determined 
        to be at particular risk of terrorist attack. This funding is 
        used to enhance the security of their facilities and their 
        members.
                 urban area security initiative (uasi)
    Although the Nation's high-risk urban areas may benefit from a 
number of the preparedness grant programs, the principal preparedness 
grant program supporting high-risk urban areas is the Urban Area 
Security Initiative (UASI). Under UASI, funds are provided to address 
the unique planning, organization, equipment, training, and exercise 
needs of high-threat, high-density urban areas. UASI funds assist in 
building an enhanced and sustainable capacity to prevent, protect 
against, mitigate, respond to, and recover from acts of terrorism. In 
fiscal year 2017, $580 million in UASI funds were allocated to the 33 
metropolitan statistical areas (MSAs) identified as high-threat, high-
density urban areas.
    As mandated by the Homeland Security Act of 2002, as amended, and 
to ensure limited UASI funds are allocated to the cities with the 
highest risk, the Department conducts yearly risk assessments of the 
Nations' 100 most populous MSAs. These risk assessments are based on 
three major factors: The relative threat, vulnerability, and 
consequences from acts of terrorism faced by each MSA. Threat scores 
are derived from intelligence data compiled by the DHS Office of 
Intelligence and Analysis. Vulnerability scores take into consideration 
information regarding targeted infrastructure that terrorists are 
deemed more likely to attack, as well as border crossings by air, land, 
and sea. Finally, consequence scores consider an MSA's population, 
economic, National infrastructure, and National security indices. The 
results of these risk assessments, including the scores and relative 
ranking, inform UASI eligibility and the Secretary's funding allocation 
decisions.
    Over the past year, the Department has conducted a comprehensive 
review of this risk assessment process to ensure it is keeping pace 
with evolving threats. Of note, the intelligence community has 
highlighted the interest and intent of terrorists, including Homegrown 
Violent Extremists (HVEs), to strike soft targets, including public 
events, mass gatherings, and other locations where large crowds 
congregate. The intelligence community assesses that the threat is more 
dispersed and not necessarily limited to large urban areas. To address 
the current threat to soft targets, including crowded places and large 
public gatherings, FEMA has worked with the Department's Office of 
Operations Coordination to better incorporate Special Events Assessment 
Rating (SEAR) data, which is processed to attribute events to each 
participating State, territory, and MSA, into the vulnerability 
component of the methodology. The modifications to the fiscal year 2018 
risk assessment methodology are driven by the emerging threat 
environment, as identified by the intelligence community, and from 
extensive stakeholder feedback, to ensure that the resulting risk 
scores most accurately reflect a State or urban area's relative risk.
    Today, we are situated in the midst of two of the Nation's major 
UASIs. New York City, along with Westchester, Nassau, and Suffolk 
Counties in New York, comprise the New York City Urban Area. Newark and 
Jersey City, along with Bergen, Essex, Hudson, Middlesex, Morris, 
Passaic and Union Counties in New Jersey, comprise the Newark-Jersey 
City Urban Area. Since fiscal year 2002, the New York City Urban Area 
has received over $2.3 billion in UASI funds. And, since fiscal year 
2002, the Newark-Jersey City Urban Area has received over $404 million 
in UASI funds.
    Both of these urban areas have used these funds to secure and 
protect their citizens, as well as critical assets and resources. Using 
UASI funds, the Newark-Jersey City urban area has undertaken the 
Newark-Jersey City Business District Infrastructure Protection 
Initiative. This initiative is securing critical areas of Newark's and 
Jersey City's business and downtown districts through increased 
monitoring and surveillance, enhanced lighting and security fencing at 
critical sites, and bollards to regulate traffic and protect 
structures. Similarly, the New York City urban area has used UASI funds 
to initiate a Domain Awareness System, which utilizes a variety of 
means, including physical barriers and enhanced surveillance, to better 
secure key areas of Manhattan, including the financial district, Times 
Square, Grand Central Station and Penn Station.
    The Newark-Jersey City urban area has also used UASI funds to 
secure and protect the region's drinking water and water treatment 
facilities. In 2016, the Newark-Jersey City urban area embarked on and 
completed a project to harden 13 water treatment and 12 wastewater 
treatment facilities located within the UASI region against attack. 
Many of these facilities lacked basic physical protective equipment and 
were therefore vulnerable. Utilizing UASI funds, all 25 sites have 
received funding to harden their facilities, including fencing, video 
assessment systems, and access card systems.
    Further, New York City deployed numerous UASI-funded assets in 
response to the October 31, 2017, terrorist attack in Manhattan's 
Hudson River Greenway, including a Bell 429 helicopter utilized by the 
New York Police Department's Special Operations Division to provide 
aerial video surveillance. This asset enabled real-time assessments 
that assisted command-and-control coordination. Other UASI-funded 
assets deployed in the Hudson River Greenway response included cameras, 
sensor equipment, mapping systems, and aviation life support equipment 
worn by responding aircrews.
    During the December 11, 2017, pipe bomb attack at New York's Port 
Authority Bus Terminal, preparedness grant funds contributed to the 
successful response and apprehension of the suspected bomber. The Port 
Authority Police Department's counterterrorism teams, as well as 
members of the New York National Guard's Task Force Empire Shield 
apprehended the suspect and quickly controlled the situation. Both 
units, as well as their patrol activities, were supported with UASI 
funds, as well as funds from the SHSP.
                 transit security grant program (tsgp)
    High-risk urban areas also benefit from funding allocated to mass 
transit systems under the Transit Security Grant Program (TSGP). Under 
the TSGP, funds are used to enhance the physical security of transit 
systems as well as provide ``on the ground'' law enforcement patrols. 
TSGP funds are awarded on a competitive basis directly to the Nation's 
highest-risk transit systems.
    In fiscal year 2017, the TSGP provided $88 million to 26 urban 
transit systems. This included over $16 million to New Jersey Transit, 
$2.3 million to the Port Authority of New York and New Jersey, and 
$20.9 million to New York's Metropolitan Transportation Authority.
    In the New York and New Jersey urban areas, TSGP funds have been 
well-used. Using $2 million of fiscal year 2014 TSGP funds, the Port 
Authority of New York and New Jersey upgraded security at New York's 
Port Authority Bus Terminal by installing 35 surveillance cameras. This 
camera installation was the second phase of a larger, multi-year TSGP 
funded project that enhanced the terminal's security by, among other 
things, upgrading the Port Authority Bus Terminal's Operations Center 
with enhanced video monitoring systems and state of the art video 
management systems.
    Using $1.8 million in fiscal year 2013 TSGP funds, the New Jersey 
Transit Corporation established and continued directed law enforcement 
patrols, including canine units, throughout the system. TSGP funding 
enabled New Jersey Transit to continue proactive efforts in advancing 
its terrorism prevention and detection programs, which are critical to 
the protection of the mass transit systems serving the New York/New 
Jersey metropolitan region.
    Also providing critical support to the New York and New Jersey 
urban areas is the Port Security Grant Program (PSGP). The Port of New 
York-New Jersey is the largest port on the east coast of the United 
States and receives 12 percent of the international goods arriving into 
the United States, which equates to 85 million metric tons of general 
cargo that ultimately reaches an estimated 35 percent of the American 
population. The Port of New York-New Jersey consists of 240 miles of 
shipping channels as well as numerous anchorages and port facilities. 
Maintaining the security of the Port of New York-New Jersey is an 
essential part of maintaining the overall security of the New York-New 
Jersey urban area.
    In fiscal year 2017, the New York-New Jersey port area received 
over $20 million in PSGP funding. From fiscal year 2010 through fiscal 
year 2017, over $145 million in PSGP funds have supported security 
enhancements throughout the port area. These security enhancements have 
included increased surveillance systems, installation of security 
barriers such as fencing and traffic and entry control devices, and 
specialized training in security awareness and specialized response, 
including response to incidents involving improvised explosive devices 
and suicide bombers. In fiscal year 2017, the New York City Police 
Department utilized PSGP funds to establish a Unified Command Center to 
serve port facilities and deployed six specialized Radiation Detection 
Launches for port patrols.
                    nonprofit security grant program
    A smaller, but nonetheless significant program for its recipients, 
is the Nonprofit Security Grant Program (NSGP). The NSGP competitively 
awards grant funding to assist nonprofit organizations that are 
considered to be at high risk of terrorist attack and located within 
one of the specific UASI-designated urban areas. NSGP provides up to 
$75,000 to nonprofit organizations for training and physical security 
enhancements, including fencing, surveillance systems, security 
systems, and lighting. It is also designed to promote coordination and 
collaboration in emergency preparedness activities among public and 
private community representatives, as well as State and local 
government agencies.
    From fiscal year 2007 through fiscal year 2017, over $182 million 
in NSGP funds was awarded to 2,591 nonprofit organizations across the 
Nation. Over that same period, more than $20 million has been awarded 
under the NSGP to 291 nonprofit organizations within the Newark-Jersey 
City urban area. Similarly, from fiscal year 2007 through fiscal year 
2017, over $45 million has been awarded under the NSGP to nonprofit 
organizations within the New York City urban area.
    A prime example of NSGP funding put to use locally is the fiscal 
year 2017 grant awarded to the Beth Rachel School for Girls, located in 
Brooklyn, New York. The Beth Rachel School is a day school with an 
enrollment of nearly 1,000 students. NSGP funds enabled the school to 
improve its overall security by enhancing its surveillance system with 
upgraded closed circuit television capabilities, and new motion 
sensors, facial recognition software, and automatic alarms. The School 
also utilized NSGP funds to replace windows with shatter-resistant 
glass and reinforced frames.
    Also in fiscal year 2017, NSGP-funded security enhancements at Beth 
Medrash Govaha in Lakewood Township, New Jersey. Unfortunately, 
Lakewood Township was the site of several acts of anti-Semitic 
vandalism in 2017, including the defacing of a holocaust memorial. With 
an enrollment of over 6,000, Beth Medrash Govaha is one of the Nation's 
largest Yeshivas. The installation of a NSGP-funded surveillance system 
not only enhanced the facility's overall security, but led to the 
identification of an intruder who was observed committing an act of 
vandalism.
law enforcement and terrorism prevention and support for fusion centers
    Per Section 2006 of the Homeland Security Act, FEMA ensures that at 
least 25 percent of grant funding appropriated for State Homeland 
Security Programs and UASI is used for law enforcement terrorism 
prevention activities, including support for State and local fusion 
centers.
    Fusion centers, a critical component of our Nation's homeland 
security and counterterrorism architecture, provides grassroots 
intelligence and analytic capabilities within the State and local 
environment. Fusion center investments represent approximately 7 
percent of the total annual funding made available under UASI and SHSP. 
Fusion center funding is reported by the States, and based on recent 
reporting over $60 million dollars in UASI and SHSP funds were 
dedicated to fusion center support Nation-wide in fiscal year 2016. For 
the fiscal years 2012 through 2016, this total amounts to more than 
$309 million.
    Under both the SHSP and the UASI, States and urban areas are 
required to invest preparedness grant dollars into activities 
supporting their designated fusion centers. States and urban areas must 
submit a consolidated investment justification describing the 
performance areas the funding is intended to support based on the 
Fusion Center Assessment administered annually by the Department's 
Office of Intelligence and Analysis (I&A). Each proposed project 
included in the fusion center investment justification must align to, 
and reference, specific performance areas of the Assessment that the 
funding is intended to support. In working with States and urban areas 
on fusion center support, FEMA maintains a collaborative relationship 
with I&A. I&A is the Government's executive agent for coordinating 
engagement with and support to fusion centers and serves as the 
subject-matter experts on fusion center-related priorities and 
activities. In turn, FEMA administers and manages preparedness grant 
programs that make funding available to State and local authorities to 
increase and sustain the operational capabilities and performance of 
their designated fusion centers.
                          strategic priorities
    The most important lesson from the challenging disasters of 2017 is 
that the most successful system is Federally-supported, State-managed, 
and locally-executed. Particularly over the past year, grantees have 
tested many practices, programs, and ideas that are more appropriately 
implemented at the State and local level. These experiences have 
informed FEMA's 2018-2022 Strategic Plan, which seeks to: (1) Build a 
Culture of Preparedness; (2) Ready the Nation for Catastrophic 
Disasters; and (3) Reduce the Complexity of FEMA.
    Each of these goals represents a major undertaking, and FEMA will 
not be able to accomplish them without the help of the entire 
community. While FEMA plays an essential role in achieving this vision 
of a prepared and resilient Nation, meaningful improvements will occur 
only when we work in concert across Federal departments and agencies, 
as well as with leaders from State, local, Tribal, and territorial 
governments, non-governmental organizations, and the private sector.
Build a Culture of Preparedness
    Resilience is the backbone of emergency management, and the most 
successful way to achieve disaster resiliency is through preparedness. 
Building a ``Culture of Preparedness'' within our communities and our 
governments will support a National effort to be ready for the worst 
disasters--at the individual, family, community, State, local, Tribal, 
territorial, and Federal levels.
    Everyone should be prepared when disaster strikes. To be prepared, 
however, we must all understand our local and community risks, reflect 
the diversity of those we serve, and foster partnerships that allow us 
to connect with a diverse Nation. People who are prepared will be able 
to act quickly and decisively in the face of disasters, thereby 
preventing death and injuries, minimizing loss of property, and 
allowing for a more rapid and efficient recovery.
Ready the Nation for Catastrophic Disasters
    Catastrophic disasters, including low- and no-notice incidents, can 
overwhelm Government at all levels and threaten National security. They 
are life-altering incidents for those affected, causing a number of 
fatalities and wide-spread destruction. Catastrophic disasters, whether 
natural or man-made, disrupt lives and hurt our communities, both 
economically and socially. Readiness is critical for FEMA and our 
partners to ensure that the response and recovery missions are 
appropriately executed and successful.
    This goal builds on preparedness and focuses us on enhancing our 
collective readiness, which is dependent on emergency managers who 
execute the mission on behalf of Federal and State, local, Tribal, and 
territorial governments. This requires a scalable and capable National 
incident workforce that can adapt to a changing risk landscape, 
integrate with our partners at all levels, and communicate and 
coordinate effectively in every situation.
Reduce the Complexity of FEMA
    FEMA must be a modern agency that can adapt to public and 
governmental priorities, while creating and using innovative solutions 
for the emergency management mission. A simplified FEMA streamlines 
survivor experiences, simplifies processes and policies for disaster 
staff, and improves stewardship of Federal taxpayer dollars.
    Connecting with a wide array of experts and stakeholders including 
academia, religious leaders, and representatives of all types of whole 
community partners is key to this effort. FEMA will focus on 
identifying ways to weave preparedness into people's everyday lives, 
connecting with individuals at places they frequent, and incentivizing 
positive behavior change using tools like grants, training, and 
exercises. Furthermore, the agency will continue to encourage programs 
that train and empower responders. FEMA will continue to work with its 
Federal, State, local, Tribal, territorial, and other community 
partners, as well as with Congress, in furtherance of these goals.
                               conclusion
    Mr. Chairman, Ranking Member Payne, Members of the subcommittee, 
thank you again for this opportunity to discuss the assistance provided 
through the preparedness grant programs, especially assistance that 
supports the Nation's high-risk urban areas. It is the local responders 
who are first on the scene that are the most critical partners in 
preparing for and responding to attacks. FEMA is honored to support 
first responders through the implementation of these programs, and I am 
happy to respond to any questions you may have.

    Mr. Donovan. Thank you, Mr. DiNanno.
    The Chair now recognizes Mr. Currie for any remarks that he 
may have.

 STATEMENT OF CHRIS P. CURRIE, DIRECTOR, HOMELAND SECURITY AND 
      JUSTICE TEAM, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Currie. Thank you, Mr. Chairman, Ranking Member Payne, 
Congressman King. I appreciate the opportunity to be here 
today. It is great to be here in New York. I can't think of a 
better place to talk about this topic than right here.
    Since DHS was created, as was already mentioned, it has 
provided about $50 billion to State and local governments and 
Tribes to strengthen preparedness. Billions more have also come 
from the Justice Department as well, to strengthen our law 
enforcement functions. To be clear, this support has made a 
huge impact. It has been used to purchase better radio systems, 
response vehicles, better surveillance, and other tools to help 
communities prepare for bad things to happen.
    It is also clear the support has been used in real-life 
events, some of which have already been discussed today. Also, 
the Boston Marathon bombing and numerous active-shooter events 
around the country. So in our view, the question isn't if this 
support is useful. It is more about are we investing it year in 
and year out in what is needed most?
    Also, these programs need to evolve as the world evolves. 
For example, right after 9/11 we focused a lot on investing in 
radio systems for first responders because it was a huge 
capability gap. However, threats and technologies have evolved. 
As we build one capability, we have to assess other 
capabilities where we may fall short. For example, now, how do 
we adapt this support to better secure our IT systems, or our 
local election systems?
    This brings me to the focus of our work, which really falls 
into two main areas: No. 1, how do we better assess capability 
gaps Nation-wide and target our support; and No. 2, how can DHS 
better manage their grants and oversee how they are used?
    First, assessing gaps and targeting funding accordingly has 
been a long-standing challenge for DHS and a concern for you 
all in Congress. Most recently, as you mentioned, Mr. Chairman, 
your committee, through the PREPARE Act and then the DHS 
Reauthorization Act, emphasized the importance of better 
assessing gaps and evaluating the impact of these funds.
    FEMA has taken some steps to do this, such as requiring 
States to complete preparedness reports and communities to 
self-assess their risks and needs. This makes a lot of sense. 
Communities are in the best position to assess what they need 
and how much of a risk they face.
    However, when it comes to grant allocation, we think that 
FEMA can do a little bit more across the country to assess the 
information that they get to better understand the total 
capabilities that they need and where we need to focus our 
money, and developing a more quantitative standard of 
preparedness. Without doing this, it is really difficult to 
ensure that the data from each jurisdiction are accurate and 
comparable across the country. It also makes it hard to 
understand which capabilities have been developed versus those 
that have been underfunded.
    We recommended that FEMA complete a more quantitative 
assessment of capability gaps and direct funding accordingly. 
In the past, FEMA has disagreed with this approach, but it 
seems that may be changing. For example, in their fiscal year 
2019 budget, they are proposing a new grant program that will 
require grantees to measure results in reducing capability 
gaps. This is a step in the right direction and likely reflects 
years of legislation on Congress' part and our past 
recommendations.
    I also want to talk about grant management. It is not an 
exciting topic to talk about, but managing more than 10 
fragmented preparedness grant programs and IT systems to go 
with it, some dating back to the 1990's, has been another major 
challenge at FEMA. These grants go to the same jurisdictions 
for many of the same purposes, at the same time. We have 
reported that the lack of a consolidated system to manage them 
makes them susceptible to overlap and potential duplication. It 
also makes it difficult to even track what investments we are 
making across all these programs over time.
    To its credit, FEMA has taken some action to better manage 
the grants, but the solution really hinges on a multi-million-
dollar IT system that is under development, so implementing 
this will be a huge challenge at the agency, and we have on-
going work assessing that as well.
    This concludes my statement. I look forward to the 
discussion.
    [The prepared statement of Mr. Currie follows:]
                 Prepared Statement of Chris P. Currie
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee: I appreciate the opportunity to participate in today's 
hearing to provide an update on the efforts of the Federal Emergency 
Management Agency (FEMA)--a component of the Department of Homeland 
Security (DHS)--to manage preparedness grants and measure and assess 
National preparedness capabilities. Our work over the last 7 years has 
focused on FEMA's efforts to coordinate Federal interagency 
preparedness and manage and assess the impact of FEMA's preparedness 
grants on State and local preparedness. As described in more detail 
below, our recommendations have identified additional steps FEMA can 
take to improve the efficiency and effectiveness of these efforts, 
including enhancing coordination and providing guidance on 
preparedness. FEMA has taken actions to address some of these 
recommendations, but more fully addressing all of them could lead to 
additional savings, better services to the public, improved program 
performance and accountability, and, ultimately, a better-prepared 
Nation.
    Following the Federal response to Hurricane Katrina in 2005, 
Congress enacted the Post-Katrina Emergency Management Reform Act of 
2006 (Post-Katrina Act).\1\ In response to the act, among other things, 
DHS centralized its preparedness grants under FEMA's Grant Programs 
Directorate (GPD) to better integrate and coordinate grant management. 
The act also requires that FEMA develop a National preparedness system 
and assess preparedness capabilities to determine the Nation's 
preparedness. GPD provides preparedness grants to State, local, Tribal, 
and territorial governments, as well as transportation authorities, 
nonprofit organizations, and the private sector, to improve the 
Nation's readiness in preventing, protecting against, responding to, 
recovering from and mitigating terrorist attacks, major disasters and 
other emergencies. In fiscal year 2017, DHS announced the availability 
of 10 preparedness grant programs totaling more than $1.6 billion for 
fiscal year 2017. According to DHS, from fiscal years 2002 through 2017 
the Department has awarded over $49 billion to a variety of DHS 
preparedness grant programs to enhance the capabilities of State, 
local, Tribal, and territorial grant recipients to carry out the above 
activities related to terrorist attacks and other disasters.
---------------------------------------------------------------------------
    \1\ The Post-Katrina Act was enacted as Title VI of the Department 
of Homeland Security Appropriations Act, 2007, Pub. L. No. 109-295, 120 
Stat. 1355 (2006).
---------------------------------------------------------------------------
    My testimony today covers our prior work on FEMA preparedness 
efforts from March 2011 through February 2016 and selected updates 
conducted in December 2017 and February 2018. This statement 
specifically addresses FEMA's efforts to manage preparedness grants and 
our prior recommendations.
    To conduct our prior work, we reviewed relevant Presidential 
directives, laws, regulations, policies, strategic plans, and key 
program documents; and interviewed Federal, State, and local officials, 
among others. More detailed information on our scope and methodology 
can be found in each of the reports cited throughout this statement. To 
update our work, we interviewed relevant FEMA officials to obtain 
updates on efforts to improve coordination among preparedness grant 
programs. The work upon which this testimony is based was conducted in 
accordance with generally accepted Government auditing standards. Those 
standards require that we plan and perform the audit to obtain 
sufficient, appropriate evidence to provide a reasonable basis for our 
findings and conclusions based on our audit objectives. We believe that 
the evidence obtained provides a reasonable basis for our findings and 
conclusions based on our audit objectives.
                               background
    Over the past decade, the Federal Government has expanded financial 
assistance to public and private stakeholders for preparedness 
activities through various grant programs administered by DHS through 
its component agency, FEMA. Through these grant programs, DHS has 
sought to enhance the capacity of States, localities, and other 
entities, such as ports or transit agencies, to prevent, respond to, 
and recover from a natural or man-made disaster, including terrorist 
incidents. Two of the largest preparedness grant programs are the State 
Homeland Security Program and the Urban Areas Security Initiative.
  <bullet> The State Homeland Security Program provides funding to 
        support States' implementation of homeland security strategies 
        to address the identified planning, organization, equipment, 
        training, and exercise needs at the State and local levels to 
        prevent, protect against, respond to, and recover from acts of 
        terrorism and other catastrophic events. FEMA allocated $402 
        million for the program in fiscal year 2017.
  <bullet> The Urban Areas Security Initiative provides Federal 
        assistance to address the unique needs of high-threat, high-
        density urban areas, and assists the areas in building an 
        enhanced and sustainable capacity to prevent, protect, respond 
        to, and recover from acts of terrorism. FEMA allocated $580 
        million for the program in fiscal year 2017.
    The State Homeland Security Program (SHSP), awarded to the Nation's 
56 States and territories, and the Urban Areas Security Initiative 
(UASI), awarded to urban areas based on DHS's risk assessment 
methodology, are the largest of the preparedness grant programs, 
accounting for about 60 percent of fiscal year 2017 grant funding. See 
figure 1 for a history of funding levels for these programs. Eligible 
candidates for the fiscal year UASI program are determined through an 
assessment of relative risk of terrorism faced by the 100 most populous 
metropolitan statistical areas in the United States, in accordance with 
the Homeland Security Act of 2002, as amended.
figure 1: state homeland security grant program and urban area security 
     initiative: annual allocations, fiscal years 2003 through 2017
     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Note: Amounts presented are actual funding amounts, not adjusted for 
inflation, and are rounded.
 fema has strengthened its coordination, oversight, and assessments of 
   grants but challenges remain in the effectiveness of fema's grant 
                               management
FEMA Has Taken Some Steps to Address Coordination Challenges Between 
        Headquarters and Regional Offices, But Some Challenges Still 
        Remain
    In February 2016, we reported that FEMA has taken some steps, but 
has not fully addressed long-standing preparedness grant management 
coordination challenges between its headquarters and regional 
offices.\2\ We found that for several preparedness grant programs, FEMA 
headquarters staff in GPD and regional staff share management and 
monitoring responsibilities. For example, we found that assessments by 
GPD and others since 2009 had recommended that regional offices, rather 
than headquarters offices, be responsible for managing and monitoring 
preparedness grants to avoid confusion and duplication, and to 
strengthen coordination with State and local grantees. Further, in July 
2011, we found that GPD had efforts under way to regionalize grant 
management responsibilities and improve coordination of preparedness 
grants, and that these efforts were consistent with internal control 
standards.\3\ However, GPD officials reported that in 2012 it changed 
course and decided to continue sharing grant management roles between 
headquarters and regions, referred to as a hybrid grant management 
structure. GPD officials told us that they changed course because, 
among other things, estimates that the costs of regionalization would 
be greater than the annual savings FEMA identified in an earlier study 
and concerns that inconsistent program implementation would occur 
across the regions, and outweighed the potential benefits. GPD 
officials at that time said they had taken steps to address 
coordination challenges associated with this hybrid grant management 
structure.
---------------------------------------------------------------------------
    \2\ GAO, Federal Emergency Management Agency: Strengthening 
Regional Coordination Could Enhance Preparedness Efforts, GAO-16-38 
(Washington, DC: Feb. 4, 2016).
    \3\ GAO, FEMA Has Made Progress in Managing Regionalization of 
Preparedness Grants, GAO-11-732R (Washington, DC: July 29, 2011). We 
reported, for example, that FEMA established a task force as an 
oversight and evaluation mechanism and developed an implementation 
plan, which includes a phased approach to piloting and delegating 
specific grants administration functions for preparedness grants to the 
regions and delineates an approach, including roles and 
responsibilities, for key implementation activities such as training 
and communications. On the basis of the results of our review of GPD's 
plans and efforts to regionalize grant management functions, we did not 
make recommendations at that time.
---------------------------------------------------------------------------
    However, we found in February 2016 that these challenges 
continue.\4\ For example, States and FEMA regional officials told us 
that GPD staffs in headquarters and regions did not always coordinate 
their monitoring visits, which can be disruptive to the State emergency 
management agency's day-to-day operations. FEMA regional officials also 
reported that GPD staffs in headquarters and regions sometimes provided 
inconsistent guidance to grantees. Further, while GPD officials 
identified some steps they plan to take to address the challenges, we 
found that GPD lacked a plan with time frames and goals for addressing 
them. We recommended that FEMA develop a plan with time frames, goals, 
metrics, and milestones detailing how GPD intends to resolve long-
standing challenges associated with its existing hybrid grants 
management model, which divides responsibilities between regional and 
headquarters staff. FEMA, however, did not concur with our 
recommendation, stating that it disagreed with our characterization of 
long-standing challenges in managing preparedness grants. As we stated 
in the report, multiple assessments dating back to 2009 have reported 
challenges with the hybrid model. As also noted in our report, 
officials from four FEMA regional offices and officials from three 
States within those regions provided various examples of a lack of 
coordination between headquarters and regional staff in managing 
preparedness grants, including instances that took place in 2014 and as 
recently as September 2015.
---------------------------------------------------------------------------
    \4\ Ibid, GAO-16-38.
---------------------------------------------------------------------------
    In October 2017, FEMA developed a plan--the Milestone Action Plan--
to track efforts aimed at improving coordination issues associated with 
its hybrid grants management model, as we recommended in February 2016. 
The plan divides responsibilities for the management of preparedness 
grants between regional and headquarters staff and describes completed, 
on-going, and planned efforts taken by FEMA to improve grants 
management coordination along with steps taken, goals, and time frames, 
among other things. For example, the plan shows that FEMA developed and 
finalized the Monitoring Actions Tracker in August 2016, a tool shared 
by GPD in FEMA headquarters and staff in regional offices. Through the 
tracker, GPD headquarters and regional staffs are able to view planned 
and completed monitoring activities related to grants management, as 
well as the status of any open corrective actions. In addition to 
developing the Milestone Action Plan, FEMA officials described other 
efforts taken to improve coordination issues. For example, FEMA 
officials told us they increased the use of an on-line collaboration 
tool, which allows for instant information sharing between GPD and the 
regions. By taking these steps, FEMA should be better-positioned to 
track and evaluate efforts to improve regional coordination, as we 
recommended in 2016.
FEMA Has Taken Steps to Increase Oversight Across Preparedness Grant 
        Programs
    FEMA has been delayed in addressing the need for improved 
coordination among grant programs identified in our prior work. 
Specifically, we found in February 2012 that multiple factors 
contribute to the risk of duplication among four FEMA preparedness 
grant programs--the State Homeland Security Program, Urban Areas 
Security Initiative, Port Security Grant Program, and Transit Security 
Grant Program--as these programs share similar goals, fund similar 
projects, and provide funds in the same geographic regions.\5\ Further, 
we found that DHS's ability to track grant funding, specific funding 
recipients, and funding purposes varies among the programs, giving FEMA 
less visibility over some grant programs. Also, DHS's award process for 
some programs-based allocation decisions on high-level, rather than 
specific, project information, which could further contribute to the 
risk of duplication. Although our February 2012 analysis identified no 
cases of duplication among a sample of grant projects, the above 
factors collectively put FEMA at risk of funding duplicative projects. 
As a result, in 2012, we included these challenges in our annual report 
on duplication, overlap, and fragmentation in Federal programs, 
agencies, offices, and initiatives. FEMA has not yet taken action to 
fully address our concerns.\6\
---------------------------------------------------------------------------
    \5\ GAO, Homeland Security: DHS Needs Better Project Information 
and Coordination Among Four Overlapping Grant Programs, GAO-12-303 
(Washington, DC: Feb. 28, 2012).
    \6\ GAO, 2012 Annual Report: Opportunities to Reduce Duplication, 
Overlap and Fragmentation, Achieve Savings, and Enhance Revenue, GAO-
12-342SP (Washington, DC: Feb. 28, 2012).
---------------------------------------------------------------------------
    We recommended in February 2012 that as FEMA developed its new 
grants management information system (the Non-Disaster Grants 
Management System, or ND Grants at that time), that the agency collect 
project information with the level of detail needed to better position 
the agency to identify any potential unnecessary duplication within and 
across the four grant programs. In December 2012, FEMA officials 
reported that the agency intended to start collecting and analyzing 
project-level data from grantees in fiscal year 2014. Further, in 
December 2017, FEMA took actions to identify potential unnecessary 
duplication across four preparedness grant programs, as we recommended 
in February 2012. Although the development of FEMA's grants management 
information system is on-going, FEMA issued guidance and adopted 
interim processes to help identify potential duplication across these 
preparedness grant programs until the system's capabilities are 
upgraded over the next several years. For example, in fiscal year 2014, 
FEMA modified a legacy grants data system to capture more robust 
project-level data--such as project budget data--for the Homeland 
Security Grant Program, which includes the State Homeland Security 
Grant Program and the Urban Areas Security Initiative.
    In addition, in fiscal year 2017, FEMA procured a software 
visualization tool and developed a set of standard operating procedures 
to assist staff in identifying potentially duplicative projects. 
Specifically, the visualization tool will use grants award data from 
the Port Security Grant Program, the Transit Security Grant Program, 
and compare the grant programs named above to highlight ZIP codes that 
contain multiple projects. These projects will then be analyzed by FEMA 
officials. According to the standard operating procedure, if 
duplication is suspected within a particular geographic area, further 
collaborative reviews should be conducted in coordination with the 
Office of Chief Counsel to determine appropriate remedies. Using an 
interim approach to collect more specific project-level data during the 
grant application process and utilizing the new software visualization 
tool should help FEMA strengthen the administration and oversight of 
its grant programs until FEMA implements its long-term solution for the 
agency's grants management information system.
FEMA Is Validating Grant Performance Data
    In the area of performance assessment, we reported in June 2013 on 
limitations in FEMA's ability to validate the performance data it 
collects.\7\ Specifically, we found that two of FEMA's preparedness 
grant programs--Emergency Management Performance Grants (EMPG) and 
Assistance to Firefighters Grants (AFG) programs--collect performance 
information through a variety of reporting mechanisms but face 
challenges in identifying verifiable program outcomes. These reporting 
mechanisms collect performance data used by FEMA regional offices and 
headquarters for different purposes. For example, headquarters focuses 
on the development of future program priorities and on reporting 
progress toward the National Preparedness Goal, while regions use 
program information to monitor primary grant recipients for compliance. 
DHS developed agency priority goals that reflect agency-wide, near-term 
priorities. According to FEMA officials, the EMPG and AFG programs have 
an indirect link to a DHS agency priority goal, as well as the National 
Preparedness Goal, because they support States' level of preparedness 
for disasters. According to FEMA officials, neither program has a 
standardized tool with which to validate the performance data that are 
self-reported by recipients; additionally, the regions are inconsistent 
in their approaches to verifying program performance data. We concluded 
that the absence of a formal established validation and verification 
procedure, as directed by the Office of Management and Budget's 
Circular No. A-11, could lead to the collection of erroneous 
performance data.
---------------------------------------------------------------------------
    \7\ GAO, Grants Performance: Justice and FEMA Collect Performance 
Data for Selected Grants, but Action Needed to Validate FEMA 
Performance Data, GAO-13-552 (Washington, DC: June 24, 2013).
---------------------------------------------------------------------------
    In our June 2013 report, we recommended that FEMA ensure that there 
are consistent procedures in place at the headquarters' office and 
regional level to ensure verification and validation of grant 
performance data that allow the agency to attest to the reliability of 
EMPG and AFG grant data used for reporting progress toward goals. DHS 
concurred with our recommendation and stated that FEMA would explore 
effective and affordable ways to verify and validate EMPG and AFG grant 
performance data. In April 2015, FEMA officials reported that FEMA was 
in the process of developing the data verification and validation 
checks of EMPG grantee performance reporting. For example, according to 
FEMA officials, they have revised reporting templates and uniform table 
definitions to make it easier for grantees to submit accurate, 
complete, and consistent information on programmatic activities such as 
the completion of training and exercise requirements. However, these 
processes have not yet been fully implemented, and FEMA officials have 
not yet provided similar tools and checklists for the AFG program. In 
March 2017, FEMA grants management staff provided us with documentation 
on the process FEMA uses to verify and validate grantee data from the 
EMPG and AFG grant programs, as we recommended. As a result of having a 
consistent approach to verifying data, FEMA's efforts should reduce the 
collection of erroneous performance data.
    In addition, as part of our September 2016 review of FEMA Fire 
Assistance Grant program, we reported that FEMA officials said they 
planned to develop and implement a consolidated grant management system 
to integrate data used to manage fire grant programs with the data 
gathered for FEMA's other preparedness grants, and ultimately better 
measure the impact of fire grants on National preparedness efforts.\8\ 
Specifically, as we reported in May 2016, FEMA plans to develop and 
implement a new Grants Management Modernization system to provide 
agency-wide management for all of FEMA's disaster and preparedness 
grants. Further, we are currently performing an on-going review of 
FEMA's consolidated grant management system and plan to report on this 
effort later this year.
---------------------------------------------------------------------------
    \8\ GAO, Fire Grants: FEMA Could Enhance Program Administration and 
Performance Assessment, GAO-16-744 (Washington, DC: Sep 15, 2016).
---------------------------------------------------------------------------
FEMA Has Made Progress Assessing Its Grant Preparedness Capabilities, 
        but Continues to Face Challenges Developing a National 
        Preparedness System
    We also reported in March 2011 that FEMA needed to improve its 
oversight of preparedness grants by establishing a framework with 
measurable performance objectives for assessing urban area, State, 
territory, and Tribal capabilities to identify gaps and prioritize 
investments.\9\ Specifically, we recommended that FEMA complete a 
National preparedness assessment of capability gaps at each level based 
on tiered, capability-specific performance objectives to enable 
prioritization of grant funding. With such an assessment, FEMA could 
identify the potential costs for establishing and maintaining 
capabilities at each level and determine what capabilities Federal 
agencies should provide. We reported in March 2013 that FEMA has made 
some progress in assessing its preparedness capabilities, but continued 
to face challenges developing a National preparedness system that could 
assist FEMA in prioritizing preparedness grant funding.\10\ For 
example, in March 2012, FEMA issued the first National Preparedness 
Report, which describes progress made to build, sustain, and deliver 
capabilities. In April 2012, FEMA issued guidance on developing Threat 
and Hazard Identification and Risk Assessments (THIRA) to facilitate 
the self-assessments of regional, State, and local capabilities. FEMA 
requires State, territory, Tribal, and urban area governments receiving 
homeland security funding to annually complete THIRAs and use the 
results to determine the resources required to achieve the capability 
targets they set for their jurisdiction. However, we found in March 
2013 that FEMA faced challenges that may reduce the usefulness of these 
efforts. For example, the National Preparedness Report noted that while 
many programs exist to build and sustain preparedness capabilities, 
challenges remain in measuring their progress over time. According to 
the report, in many cases, measures do not yet exist to gauge the 
performance of these programs, either quantitatively or qualitatively.
---------------------------------------------------------------------------
    \9\ GAO, Opportunities to Reduce Potential Duplication in 
Government Programs, Save Tax Dollars, and Enhance Revenue, GAO-11-
318SP (Washington, DC: Mar. 1, 2011).
    \10\ GAO, National Preparedness: FEMA Has Made Progress in 
Improving Grant Management and Assessing Capabilities, but Challenges 
Remain, GAO-13-456T (Washington, DC: Mar. 19, 2013).
---------------------------------------------------------------------------
    FEMA has taken some steps to address our recommendation. 
Specifically, FEMA reported in February 2018 that the agency has 
developed capability-specific performance objectives that will enable a 
National preparedness assessment of capability gaps, but no such report 
has been issued at this time. FEMA reported that it plans on 
implementing new methodology for some core capabilities in December 
2018 and for all core capabilities by December 2019, and will be able 
to provide complete results in 2020. In addition, FEMA reported that 
they are developing a new Threat and Hazard Identification and Risk 
Assessment (THIRA) methodology that will assist in measuring the 
effectiveness of State and urban areas' grant projects in reducing 
risk. According to FEMA, the new methodology will measure changes in 
State and urban area preparedness through the use of standardized 
capability targets and key indicators that will show how FEMA 
preparedness grants are being used to address gaps in capability 
targets. This should also lead to a better understanding of the 
Nation's overall preparedness. Regardless, as of February 2018, FEMA 
had taken steps to assess preparedness capabilities, but had not yet 
completed a National preparedness assessment with clear, objective, and 
quantifiable capability requirements against which to assess 
preparedness, as we recommended. Developing such an assessment would 
help FEMA to identify what capability gaps exist at the Federal level 
and what level of resources are needed to close such gaps.
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, this concludes my prepared statement. I would be happy to 
respond to any questions you may have.

    Mr. Donovan. Thank you, Mr. Currie.
    The Chair thanks all of our witnesses for their remarks.
    I will now recognize myself for 5 minutes for questions.
    I would like to ask Director Sweeney and Mr. Murphy, if you 
could just talk about the new threats. Since September 11, we 
have gotten very good, you have gotten very good, the first 
responders have gotten very good at protecting our hard 
targets. I tell people if you want to visit the Empire State 
Building, please go. If you want to come to the Capitol, please 
bring your family down to Washington to visit the Capitol. It 
is very safe.
    The evolving threats have come over recent times to soft 
targets, different methods. We spoke about computer attacks, 
cyber attacks. When we see these new, evolving threats, many 
times our Federal agencies will see them maybe before the 
locals, besides the task force, how do we drill down and get 
that information to those folks that are going to have to 
respond, or, in fact, may be able to prevent some of these 
attacks from occurring? When we are looking at these new, 
emerging attacks, your availability of having people overseas, 
I know our local responders have people assigned overseas as 
well, but a lot of these things occur and come on your radar 
screen before others' radar screens. Those new, emerging 
efforts by our enemies, how are we getting that down to our 
folks on the ground?
    Mr. Sweeney. So your premise is correct, the tactics have 
certainly shifted over time. I think you could easily argue 
that the soft target is the No. 1 threat now. The tactics are 
more simplified, so an individual looking to be part of a 
terrorist group or a terrorist ideology basically has 
everything at their fingertips now, a ton of messaging through 
social media, techniques that are available on-line that you 
can pull and resource yourself, and the simplicity of the 
technique and the cheapness of some of the means to do it.
    We do have an advantage, as you discussed, of having folks 
stationed overseas. We have officers, and I know the NYPD has 
folks overseas, and with our extra-territorial jurisdiction, 
this region gets to see a lot of things first. Those pieces of 
intel and the pieces of information are put into intelligence 
bulletins. So where that really has an impact is on those 
agencies that are not part of a JTTF and that don't have the 
resources to staff somebody into a Federal task force. Through 
the Fusion Centers around the country and this State, New York 
State, the CT regions, I think there are 14 regions, those 
bulletins are pushed to the Fusion Center and then to those 
regions run by the State police. Each of those regions has a 
chief that chairs it, and you will see those bulletins get 
pushed out to all those local agencies, sometimes on a weekly 
basis.
    Enhancements like that and the information sharing that 
occurs like that I think gives everybody an advantage to see 
some of those threats that they might not get to experience if 
they are not sitting on a JTTF and seeing the information 
firsthand in real time.
    Mr. Donovan. Mr. Murphy.
    Mr. Murphy. Yes, sir. So, in complement to that, the 
Department owns the Homeland Security Intelligence Network, or 
HSIN, which has undergone a lot of technical upgrades in the 
last couple of months and years. We are now driving all Federal 
intelligence reporting to that, in partnership with the FBI, 
ATF, as well as our own component, so that we have a one-stop 
shop where our State and local colleagues can find the relevant 
intelligence there.
    Its functionality as a search component has vastly 
increased, where one now has the capability to sort out 
intelligence products to better inform all of us, both at the 
Federal Government level as well as the State and local levels. 
So in terms of pushing the information out, we have tried to 
make strides in partnership with our colleagues in the State 
and local world.
    Then if I can shift gears to the Suspicious Activity 
Reporting Program, which has over the years, over the last more 
recent years trailed off a little bit, we are refreshing that 
program now. We are becoming a whole lot smarter and more agile 
to address the wide array of threats that are out there, from 
cyber transnational organized crime as well as terrorism.
    With that, sir, I will take any questions. Thank you.
    Mr. Donovan. Thank you.
    In the short period of time I have, Mr. DiNanno, Mr. 
Currie, both of you are so intricately involved with our grant 
programs that allow our locals to use Federal funding to 
protect the citizens of their municipalities. Are those grants 
flexible enough to address what Mr. Sweeney and Mr. Murphy 
spoke about? When they see something that is emerging, they 
push that information down to the police department, the fire 
department, OEM, but their grant parameters may not allow them 
to use funds for that new, emerging threat or that new piece of 
information. Are the grants flexible enough that they can 
divert funds to where they need them?
    Mr. DiNanno. Thank you for that question. I will take the 
first whack at it.
    Given the nature of the grant programs, they are an annual 
allocation, so in and of themselves, because it is once a year, 
they may not be flexible in that sense. However, once the 
dollars reach the stakeholder, I know that I personally have 
signed many requests from State and local jurisdictions to be 
able to move funds around, and every single person that works 
for me knows that they work for all the folks here in New York 
and out here in the audience and the country to try to do 
exactly that.
    That being said, it is, again, an annual process that we 
have to continue to try to make better and faster. But I have 
not turned down a request, nor would I see one to support any 
operational requirement.
    Mr. Donovan. Mr. Currie.
    Mr. Currie. Yes. This has been an issue for 15 years. I 
know in the early days, when we were buying lots and lots of 
equipment, the States and locals just didn't have the 
capability. Over time, equipment needs to be maintained, and 
you need to have someone to operate it, and that was a 
flexibility that was built in in the later years, that some of 
the funds could be used to actually maintain and operate that 
equipment, because it becomes a huge cost.
    But I think Congress plays a huge role in that, too, in 
making it clear what these grant funds can be used for year in 
and year out, and I don't think it is easy for them to be as 
flexible sometimes as they need to be without specific 
direction sometimes from Congress, which you all have provided 
in legislation recently for certain things, like cybersecurity, 
for example, and local election assistance. It has been a real 
grey area about what specific things can be actually purchased 
and used in those areas because they are emerging and evolving 
every day.
    So I think there could probably be some more flexibility 
built into them as well.
    Mr. Donovan. Thank you for that information.
    My time has expired.
    The Chair now recognizes the Ranking Member, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. DiNanno, the fiscal year 2018 and 2019 budget 
proposals, the President has proposed massive cuts to FEMA's 
preparedness grants by more than $900 million. Did FEMA engage 
stakeholders about the impacts of such cuts? What would they 
have for the planning, training, and execution of their 
missions?
    Mr. DiNanno. Thank you, Ranking Member Payne, for that 
question. I am unsure of the exact number that you are 
referring to. The fiscal year 2019 President's request is 
approximately $2.3 billion. That includes, as one of my 
colleagues on the panel referred to earlier, $522 million new 
grant program that would allow us the flexibility to try to 
meet the emerging threats that my colleagues in the 
intelligence community here have pointed out, and to also 
identify those National priorities that we may have seen 
emerge, for example, after this past storm season and terror 
season that would be able to focus on priority areas such as 
gaps in communication, emergency management, information 
sharing, and that would be in a competitive grant program.
    So we think the President's request does adequately reflect 
the need. Yes, sir, we do talk all the time with our 
stakeholders.
    Mr. Payne. They have elaborated on what these cuts would do 
in terms of their ability to be prepared?
    Mr. DiNanno. Well, sir, it is a constrained budget 
environment. I think we all know that. Again, I would reiterate 
to you that we think the President's request does provide the 
flexibility and the ability to target the priority areas that 
we would work with our State and local, again whether it is 
emergency management, police, fire, even cyber. We would be 
able to address those emerging gaps and put the resources into 
the hands of the operators as soon as possible.
    Mr. Payne. I get very concerned from time to time in 
reference to the cuts that are made to the grants and the 
funding for homeland preparedness when we always see the 
military budget escalated. I believe that the homeland budget 
is as important as the military budget because it defends us 
here in the homeland. So I tend to try to couple the two with 
respect to having administrations and people understand that it 
is just as important as the military budget to defend us here 
in the homeland.
    So I would just really try to keep that in perspective. I 
think the two are linked, I think the two are important, and we 
should address the homeland budget in the same manner as the 
administration looks at the Defense budget.
    The President's proposed budget recommended a 25 percent 
cost match for Urban Area Security Initiative, the State 
Homeland Security Grant Programs and Transit Security Grant 
Program, which were already slated for significant cuts. Did 
the administration consider whether the State and local 
governments could absorb this cost match?
    Mr. DiNanno. Thank you for that question, sir. Yes. I would 
point out as I answer this question that cost matches have been 
successfully implemented in other grant programs. I would point 
out the Emergency Management Performance Grant, the EMPG 
program, which is a one-to-one hard match, dollar for dollar, I 
think that has been very successfully implemented, and I think 
the success and the cost match comes from that emergency 
management community really feeling ownership of the program. 
We administer it. We run it, if you would.
    However, the EMPG program is very much a shared 
responsibility, and any changes that we make to that program 
have to be done in close consultation with those emergency 
managers, and part of that I believe comes from the cost match 
that is included.
    We also have implemented cost matches in the Fire Grant 
Program. Those are also what would be considered a hard match, 
dollar for dollar, as well as the Port Security Grant Program. 
Again, I think it gives the stakeholders a real sense of 
ownership in the program and very much a robust dialog with the 
folks that work for us, the grant managers, on what is being 
bought, how it meets the requirements.
    So it has been successfully implemented in the past. Any 
discussions that we have had about the homeland security 
program match has been in a soft match, not at dollar-for-
dollar.
    Mr. Payne. OK. Thank you.
    Mr. Chairman, I will yield back in the interest of time.
    Mr. Donovan. The gentleman yields.
    The Chair now recognizes Mr. King for questions.
    Mr. King. Thank you, Mr. Chairman.
    Mr. Sweeney, it has been no secret that years ago there was 
a breakdown in cooperation and coordination between the FBI and 
the NYPD in certain areas. Certainly there was a difference in 
personalities. Since you have come, and probably before that, 
it seems the situation has improved. Can you tell us what that 
level of cooperation is now?
    Mr. Sweeney. The level of cooperation, in my opinion, is 
awesome, seamless. There is zero daylight between the agencies. 
I think, obviously, a lot of that has to do with the 
leadership, but it is also the men and women who have come up 
through the organizations over time are now in different 
levels. So we all started at a much more junior level. I had 
the privilege of being on the Jersey task force first, and now 
on this one. It is seamless.
    The NYPD in particular has a command structure that comes 
with it embedded on the JTTF. So in addition to our special 
agent in charge, there is an NYPD chief, 4 lieutenants, 9 
sergeants, and 100-something detectives that are embedded in 
every squad. My personal belief is you should not be able to 
differentiate between the agent, the detective, the trooper, 
the analyst, the linguist, and when you walk into one of our 
squad areas, I don't think you would notice the difference. I 
joke sometimes that usually the NYPD detective has a tie on.
    [Laughter.]
    Mr. Sweeney. But other than that, in my opinion it is 
pretty seamless.
    Mr. King. Thank you. I appreciate that very much. It is 
encouraging to hear.
    Mr. DiNanno, at the outset let me thank you for the work 
you have done. I am fully aware of that, and I appreciate it.
    As far as overall, I look at the UASI budget, the last 
three budgets, the Obama budget and the two Trump budgets, and 
in both of them there is significantly less requested than is 
needed. For instance, going back to the last Obama request, 
there was $330 million requested in UASI funding. Congress 
ended up authorizing and appropriating $605 million. Under the 
first Trump budget, he requested $450 million, and Congress 
ended up appropriating $630 million. This year it is $448 
million requested.
    Now, obviously there is a breakdown between both 
administrations and the Congress as to what is needed, and I 
know you said that even as far as local contributions, it gave 
the locals more of a sense of ownership. Well, if you take the 
NYPD, they have well over 1,000 officers already. They 
certainly have an ownership over what is going on, and whatever 
they get from the Federal Government is not going to match 
their expenditures. It seems to me that the threats in many 
ways are greater than before 9/11. At least on 9/11, they were 
coming out of Afghanistan. Now we have a multiplicity of terror 
groups. They can be doing it from their basement. You have 
ISIS, you have al-Qaeda, you have al-Shabaab, you have Boko 
Haram, you have al-Qaeda in the Arabian Peninsula. So in many 
ways the threats are maybe not as great as 9/11, but they are 
more than 9/11.
    Yet, for me to even be talking about these types of cuts 
when the threats are increasing, and certainly the commitment 
in New York City, Nassau, Suffolk, Westchester, Rockland, which 
comprises this zone, this area, I don't know why one 
administration after another continues to propose these cuts. 
To me, it can actually be undermining the effort that we need.
    I am saying this in a bipartisan way. I agree with Don 
Payne as far as the Trump budgets, but I felt the same with the 
Obama budgets. They seem to be always short-changing us when 
the greatest local effort is being made right here where the 
greatest threats are.
    Mr. DiNanno. Thank you, Congressman King, for that 
question. Again, I would point out the $2.3 billion in the 
President's budget we think is a substantial commitment and 
very close to the enacted budget, fiscal year 2018 enacted. But 
I would also like to point out that specifically with New York 
and New Jersey, New York has consistently been No. 1, the 
highest-ranked risk in the country, New Jersey and Newark I 
think ranked as high as 6 this past year. I recall their draft 
risk assessment that has recently been sent out perhaps moved 
it up to 5th. I am unsure exactly. Any risk analysis that we 
do, ultimately the Secretary does have the discretion when it 
comes to resource allocations, and again this year we will 
defer to her when we make recommendations around risk.
    So again, specific to the budget, we think the President's 
request is robust this year at $2.3 billion, that we can 
continue to buy down risks Nationally and to build capabilities 
both locally here in New York and New Jersey, as well as 
throughout the rest of the Nation.
    Mr. King. I would just say, not that Mr. Payne needs any 
defending, but God forbid an attack does come, northern New 
Jersey and New York City are going to be working together. It 
is basically going to be one battle zone, one evacuation zone, 
and one response zone.
    I yield back.
    Mr. Donovan. Many of you came some great distances to be 
here, so if we could have a lightning round where we each ask 
just one more question.
    I would like to again ask Mr. Sweeney and Mr. Murphy, with 
these new emerging threats--drones, cybersecurity--do you see 
any obstacles in your capability as Federal law enforcement 
officers having capabilities that maybe NYPD and FD and OEM 
don't have? Are there things that prevent them from doing what 
they would be able to do better because of the position they 
are in? Are there clearance problems in disseminating 
information? A lot of the information we get is Classified, it 
is Secret, it is Top Secret, some of the stuff is over-
classified.
    What obstacles do you see in your dealing with our local 
first responders that you think maybe Congress can clear up? I 
am going to ask the same to both of you as far as grants and 
funding of their efforts. What obstacles do you see? Mr. Currie 
pointed out some of them already. What do you think we could do 
to help make this situation better?
    Mr. Sweeney. Sir, on the issue of clearances, everybody who 
is on the JTTF has a clearance through Top Secret, in most 
cases a sensitive compartmented side of that house as well.
    On the issue of passing information to State and local 
agencies that are not on those JTTFs or not part of the task 
force where there is a clearance, I don't know if it is 
something Congress can do. Certainly, the agencies could ensure 
that they write those products as intelligence products in such 
a manner that there is no issue with classification, you can 
push it as easily as possible, and a lot of that is done 
through analytical writing courses we now put people through 
that include Fusion Centers. So there are things that could be 
done that you can speed up that information sharing.
    On the threat side, I am not sure I can get into technical 
capability on some things, especially drones, but certainly the 
issue of drones is something we all need to look at and how we 
address those, especially if you are at a large-scale event, 
what authorities do you have or not have, and what capability 
do you have to disrupt that? But I don't think I want to get 
into techniques or tactics.
    Mr. Donovan. I certainly understand that. Thank you, sir.
    Mr. Murphy. Also with drones, in partnership with our State 
and locals, I have written a number of products on some of the 
challenges faced by drones. I will submit those for the record.
    Mr. Donovan. Thank you.
    Mr. Murphy. You will notice in the product line a couple of 
what we call FARs or Field Analytical Reports that our officers 
in the field help generate with our State and local partners 
and add value to the rest of us back in the District of 
Columbia and the other Federal partners throughout the country.
    So with drones, though--I will go back to that--there are a 
lot of challenges there with how we look at those and the 
authorities in place. DHS is a leader in the intelligence 
world, working with all of you to look at this from a 
protective standpoint as well. We certainly don't want to 
interfere with commerce, but at the same time there is a lot 
that can be done with respect to regulation and working through 
the threats we face. I will just touch on a couple to 
illustrate my point.
    The number of reports coming back substantially increases, 
whether it is from our State and locals or other Federal 
colleagues. We actually track that back in DHS. The 
interference with aviation, commercial aviation, military 
sites, et cetera, is laid out in some of these pieces, and it 
is on the rise and will continue to go in that direction.
    The last thing I will address, sir, is just with respect to 
information sharing. We, along with our other Federal 
colleagues, continue to strive in that direction. We thank you 
for lifting the cap on our field personnel that we can deploy. 
We think nothing replaces face-to-face engagement, so we have 
three people locally here, and we plan on exploring ways to 
increase that enhancement so we can bring a full range of DHS 
equities and intelligence that we for the Department sit on to 
aide in all these diverse threats to our State and locals and 
understanding these diverse threats that we all face. Thank 
you.
    Mr. Donovan. Thank you.
    On the grants side, is there anything that Congress could 
be doing to make your job easier and help those folks be more 
effective?
    Mr. DiNanno. I think you raised an important point. When I 
talked in my Statement about just letting the grants be able to 
evolve with the threat, I think it is just a huge challenge 
because the threat changes so much. It is one of the reasons we 
focus so much on trying to quantitatively assess capabilities, 
like what a jurisdiction has built versus what it hasn't built. 
I think you also mentioned the Federal Government having the 
information that sometimes the States and locals don't. I think 
injecting that into the grant justifications and the whole 
local risk assessment process to make sure they understand what 
their biggest risks are so they can allocate their grant 
funding to those places is the most important thing here.
    Mr. Donovan. Thank you.
    Mr. Currie. Mr. Chairman, thanks for that question. I would 
like to address the drone issue first.
    I have had several mayors and Governors raise this issue 
with both myself as well as our Secretary. There are, as I 
understand, some policy impediments that perhaps we could work 
on together to ensure that the people that our dollars hire and 
the equipment that our dollars buy, that the policy and the 
authorities are in place for them to use that effectively 
against an adversary. Our adversaries are not waiting. We are 
seeing that in the reporting, and this is, I think, precisely 
the type of flexibility we need in the program.
    Second, to your point on cyber, there is an emerging 
consensus again among mayors and Governors that that is an 
emerging threat, the events that I pointed out in my opening 
statement, in Atlanta and Baltimore, to highlight that, and we 
are going to try to address that in the grant programs, and it 
is all about capacity building, sharing information. I think 
this is where the Federal Government can and should lead, and I 
think our programs should be able to support that effort. So, 
thank you.
    Mr. Donovan. Thank you all.
    Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Mr. Sweeney and Mr. Murphy, quickly, if you can describe to 
the committee whether or not you think that the preparedness 
grant funding is keeping pace with the threats posed by bad 
actors, very quickly.
    Mr. Sweeney. Sir, I actually am not up to speed on how the 
grant funding dollars work, so I probably don't have the best 
answer for that.
    Mr. Murphy. Sir, as you probably know, we work with FEMA to 
assess the intelligence risk to the cities. That makes up about 
25 percent of the FEMA calculation. I think it has been talked 
about here that flexibility in terms of how that money is used 
at the local level is very important, and certainly in certain 
locations terrorism may not be the primary threat that they 
face, and having that specificity to be where they need to be 
with those dollars is important to continue to work on that 
risk with everybody.
    I will yield the rest of my time. Thank you.
    Mr. Payne. In terms of the flexibility, we know with the 
evolving threat it needs to be nimble. But sometimes what we 
find is members of the legislature, the House of 
Representatives, is that if there is not specificity in the 
language in the grant, then the money kind of goes wherever it 
will at the point in time that whoever is sitting in that seat 
decides where it will go. So that is the one issue with the 
matter of specificity, although we understand with an evolving 
threat that we need to be nimble. So we have to try to figure 
out a balance and how to make sure we really can do both, 
whichever is most important at the time.
    Mr. Currie, sometimes it is difficult to connect the dots 
on why something like preparedness grants management would be 
important to a program. Would you talk about the impact that 
unaddressed management challenges would have over the lifetime 
of a grants program as big as the preparedness grants and 
describe your findings if unaddressed could have long-term 
impacts?
    Mr. Currie. Sure. Well, there are two areas that we focused 
on that I talked about. One is assessing capabilities so we 
know where the grants are going, what they need to be used for. 
Then two is just internally how you are managing all those 
different grants.
    On the first, on assessing capabilities, not to sound 
academic about this but I think one of the reasons it is a 
quantitative assessment of what capabilities you are buying 
down year in and year out is so important for trying to make 
these decisions that you just talked about and helping Congress 
make these decisions. When FEMA and the administration go 
forward with their proposals, it is like, well, what 
capabilities have we bought down? What risk have we bought 
down? Why do we need this funding? What are we going to focus 
on next?
    I think it is critical. Without that, like you said, the 
money is going out and you are hoping it is being used for the 
highest risk.
    The second piece is just internal management. I talked 
about that a lot of these programs date back to before DHS 
existed. Old IT systems' inability to look across the grant 
programs at any given time and spit out how much money is going 
out to what jurisdiction, and what is it being used for, that 
has been pretty much impossible up to this point. So without 
doing that, how can you look across all the grant programs and 
figure out what you are buying?
    Mr. Payne. Thank you very much.
    Mr. Chairman, I will yield back.
    Mr. Donovan. The gentleman yields.
    The Chair recognizes Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I want to ask really one question for the panel, and it is 
more of a statement than a question because I wouldn't want you 
to give any specifics on the record.
    But I am very concerned about the whole issue of mass 
transit security, specifically rail. Just take New York City. 
They have millions of passengers every day, a thousand 
entrances and exits. The Long Island Railroad, Metro North, 
Amtrak, Penn Station, Grand Central--how much concern is there 
within the Homeland Security community, the Federal law 
enforcement community, as to what we can do to provide more 
protections for mass transit?
    Again, I am not looking for any specifics here, but is that 
an area of concern which you feel is being addressed?
    Mr. Sweeney. Absolutely I feel mass transit is an area of 
concern. People are obviously addressing it. My personal 
opinion is there is plenty to do, but definitely an area of 
concern, especially in this jurisdiction.
    Mr. King. Suppose you compare it, let's say, to an airport, 
where in many ways it is so easy to secure airplanes. Everyone 
has to go through certain entrances, leave through certain 
exits. They have the magnetometers at TSA. They have 
everything, and really none of that is practical when it comes 
to mass transit and rail.
    Mr. Murphy. Yes, sir. I mean, we would place it as a very 
high concern. What I can say in this context, in this 
environment, is the potential to weaponize such things as 
fentanyl has been well discussed, but that is just an example 
of how in an enclosed space environment you could cause a lot 
of damage.
    So from our perspective it remains a high-level concern. 
That is just one illustration where in a confined space an 
adversary could produce a lot of casualties very quickly.
    Mr. DiNanno. Congressman King, yes, it absolutely is a 
concern of mine. I actually had ridden Amtrak up here. Every 
time I go into a transportation system I am always doing my own 
personal red team of what you see and what you don't, a lot 
that you don't see. But in this threat environment, what you do 
see matters as well.
    I would point out that, particularly in the New York urban 
area, the way this jurisdiction manages their homeland security 
and urban area grants is like no other. They don't look at 
strictly the transit problem through the Transit Security Grant 
Program. They leverage all of their grant programs.
    The other point I would make to that is what Mr. Currie 
said, a couple of terms that he used, and that is about focus. 
If we don't focus and prioritize the limited dollars that we do 
have and we do need to work with, I think we absolutely have to 
do that so that we can drive down on these priorities that seem 
to be emerging as consensus from the intelligence community. 
Thank you.
    Mr. Currie. I agree with you. At GAO we have been raising 
this concern since you were Chairman of this committee. It is a 
huge concern. In many ways, mass transit passenger rail is the 
same issue as you have at a concert, huge numbers of people 
just in open spaces. So it is a huge issue to address.
    Frankly, over the years we have been a bit perplexed 
about--TSA handles a lot of this on the transportation security 
side--a little perplexed at the percentage of funding dedicated 
and programs dedicated to surface transportation versus 
aviation. It is dwarfed. So grants are a very important part, 
and they are used by those operators too. It is a huge issue.
    Mr. King. Thank you very much.
    Mr. Donovan. Well, I would like to thank our witnesses for 
your testimony, thank my colleagues for their questions. Some 
of our colleagues who couldn't come today or some of us who may 
have some other questions may request that you submit answers 
to those in writing.
    We are going to take about a 5-minute break to change over 
our panel, bring our second panel on. So we will take a 5-
minute recess.
    [Recess.]
    Mr. Donovan. We are pleased to welcome our second panel of 
witnesses.
    Our second panel includes NYPD deputy commissioner of 
counterterrorism and intelligence, John Miller. Thank you for 
coming today, John.
    Chief of FDNY counterterrorism and emergency preparedness, 
Joe Pfeifer. Thank you, Joe, for coming.
    Commissioner of New York City emergency management, Joe 
Esposito. Joe, welcome.
    Chief of security for the Port Authority of New York and 
New Jersey, John Bilich. Chief, thank you for coming.
    The director of New Jersey's Office of Homeland Security 
and Preparedness, Jared Maples. Jared, welcome.
    I want to thank you all for being here today.
    The witnesses' full written statements will be appearing in 
the record. A joint statement from some members of this panel 
will also be submitted for the record. Without objection, so 
ordered.
    [The joint prepared statement of Mr. Miller, Mr. Pfeifer, 
and Mr. Esposito follows:]
Joint Prepared Statement of John Miller, Joseph W. Pfeifer, and Joseph 
                              J. Esposito
                             April 23, 2018
    Good morning Chairman Donovan, Ranking Member Payne, Congressman 
King, and Members of the Subcommittee on Emergency Preparedness, 
Response, and Communications. We are pleased to testify before you 
today as representatives of the New York City Department of Emergency 
Management (NYCEM), the New York Police Department (NYPD), and the New 
York City Fire Department (FDNY) to discuss how essential Federal 
funding is to support efforts to secure New York City, the surrounding 
region and high-risk urban areas across the Nation.
    To begin, let us provide a sense of the scale and complexity of the 
mission in New York City. Homeland security in an urban setting is an 
immense challenge for first responders. With a population of over 8\1/
2\ million people, New York City has the highest population density of 
any major city in the country. Our region also includes a large number 
of high-profile locations. The most recent addition, the Trump Tower, 
aside from a Presidential residence was recently was the site of a 
fire. The greater Tri-State region faces an ever-evolving landscape of 
security and disaster threats.
    This post-9/11 environment has greatly expanded the role that the 
city's police, fire, and emergency management agencies do each day to 
keep people safe. For example, the mission of the FDNY is not only to 
respond to fires, but also respond to medical emergencies, public 
safety incidents, natural disasters, and acts of terrorism. For the 
NYPD, this means constant vigilance given that New York City remains in 
the crosshairs of violent terrorists, more so than any other place in 
the world. In 2017 alone, NYCEM activated the City's Emergency 
Operations Center 14 times for a total of 107 days. That includes five 
winter weather events, two building vacates due to fires, two flash 
floods, an active shooter at Bronx Lebanon Hospital, a heat emergency, 
the Port Authority explosion, and Hurricanes Jose and Maria.
    In the past 15 years, there have been approximately two dozen 
terrorist plots against New York City, with targets such as Times 
Square, the Brooklyn Bridge, John F. Kennedy Airport, the New York 
Stock Exchange, the subway system, as well as major synagogues and 
other sites. In most cases, they have been thwarted by the efforts of 
the NYPD and our local and Federal partners. Tragically, in the last 2 
years, 4 attacks have succeeded in striking our city; an explosion in 
Chelsea in which no one was killed; a white supremacist who murdered an 
African-American man with a sword as a ``practice run'' to a larger 
plot; a terrorist who drove a van into the West Side Highway Running 
Path which sadly killed 8 individuals; and an ISIS-inspired suicide 
bomber who set off a home-made explosive device at the Port Authority 
Bus Terminal subway station that injured 3 individuals and himself.
    Working with our Federal, State, and local partners, we meet these 
challenges through a matrix of specialized training, planning, 
equipping, preparedness programming, and information and intelligence 
sharing, all of which are made possible by Federal Homeland Security 
funding. We have worked diligently to build and execute a protective 
strategy that has kept this city safe while protecting and upholding 
the Constitutional rights and liberties accorded to those who live, 
work, and visit New York City.
    September 11 forever changed how NYCEM, NYPD, and FDNY view their 
missions and the world around us. Following that tragedy, NYPD 
recognized that we could not defer the responsibility of protecting 
this city from terrorist attacks to others, and we have continued to 
prioritize this ever-evolving peril. Soon after 2001, the NYPD became 
the first police department in the country to develop its own robust 
counterterrorism capacity. We have expanded our efforts to include 
international events, gathering intelligence far beyond our borders. 
Our work, however, cannot happen without the assistance and aid of the 
Federal Government.
    Following the recommendations of a 9/11 Commission Report, the Fire 
Department leveraged Homeland Security grant funds to create and staff 
a state-of-the-art Emergency Operations Center (EOC) at FDNY 
Headquarters. Today, this EOC serves as part of a network to manage 
complex emergencies and to share information by connecting with local 
partners like the NYPD and NYCEM, as well as the National Operations 
Center. Members of FDNY's Rescue operations train with fire departments 
and first responder agencies from around the country, passing along 
specialized knowledge that we've developed here in New York. Urban 
Search and Rescue Team Task Force-1 and FDNY's IMT have provided mutual 
aid after a number of natural disasters, including New Orleans after 
Hurricane Katrina, Broome County, New York after Hurricane Irene, 
Florida after Hurricane Irma, Texas after Hurricane Harvey, and Puerto 
Rico after Hurricane Maria.
    Federal grant funding represents roughly 50 percent of NYCEM's 
annual operating budget and is vital to our ability to run many of our 
finest initiatives, including the Ready New York public education 
program, CERT program, Continuity of Operations Program, Geographic 
Information Systems, Training and Exercises, Watch Command and 
Response, and City-wide Incident Management Systems planning. It also 
funds the Emergency Supply Stockpile, which provides supplies and 
services to support emergency sheltering for adults, people with 
special medical needs, people with disabilities and accessibility and 
functional needs, children, infants, and companion animals. During a 
coastal storm, the stockpile can meet the needs of 70,000 individuals 
in designated evacuation shelters across NYC for up to 7 days.
    Over the years, the caliber of people we have been able to attract 
has played a major role in our ability to protect New York. We have 
hired civilian analysts who are experts in intelligence and foreign 
affairs. They study terrorist groups, trends, and methods of attacks. 
One of our most important institutional strengths is the remarkable 
diversity in our ranks. The NYPD is fortunate to have a deep pool of 
foreign-speaking officers. This has allowed us to build a foreign 
linguist program with more than 1,200 registered speakers of 85 
different languages--Arabic, Dari, Farsi, Mandarin, Pashto, Russian, 
Spanish, and Urdu, to name just a few.
    Before concluding, we would like to briefly discuss potential 
Federal actions that would impact our emergency communications. As you 
know, the NYPD is the Nation's largest police agency with law 
enforcement responsibility across the five boroughs. The Department 
receives nearly 10 million 9-1-1 calls annually and patrols 
approximately 306 square miles--which accounts for some of the most 
densely-populated geography in the Nation.
    Since September 11, we have greatly improved our radio 
communications for our personnel, many of whom are responding to crimes 
in progress. Losing the T-band spectrum would require significant 
financial investments to replace our existing radio infrastructure. 
Moreover, alternative spectrum has not been identified to facilitate 
this relocation, and it is not clear as to whether there is enough 
spectrum available to accommodate the largest metropolitan areas. The 
continuity for interoperable and operable communications is essential, 
and changes to the T-band system will impact Department operations and 
the risk of disruption will endanger public safety.
    Additionally, while we certainly are encouraged by steps taken by 
the FCC to improve the Wireless Emergency Alert (WEA) system, we urge 
the FCC to adopt rules that better allow us to respond to the full 
range of 21st Century emergencies. When the city issued a wireless 
emergency alert regarding the Chelsea Bomber in 2016 to every phone in 
the five boroughs, the millions of New Yorkers who wanted to help were 
given several lines of text with no picture. In this age of instant 
access to visual information via social media applications, we need to 
enhance our country's ability to rapidly, efficiently, and securely 
deliver comprehensive emergency information, including images, to the 
public. Pictures provide instant recognition and speak a universal 
language. They enable rapid response from every potential witness who 
could save countless lives through fast action. The lack of photographs 
and other multimedia highlights a weakness in the system and, in the 
face of emerging threats, the city needs to remain on technology's 
cutting edge by using public information systems to their fullest 
capacity to advance its emergency services and capabilities.
    In closing, it cannot be emphasized enough how critically important 
Federal grants are to empowering cities across the Nation, New York 
City included, to evolve and stay ahead of emerging threats. 
Preparedness is a race against time to be ready for the next attack or 
extreme event. For context, understand that the events of 9/11 took 
place in 102 minutes, less time than this hearing. Every Federal dollar 
that flows to New York City improves our response so we can save the 
greatest number of people and pays dividends across the United States. 
We look forward to a continued partnership with Members of this 
committee and the Congress so that we are able to sustain existing 
capabilities and continue to adapt to new threats in order to protect 
the people of the New York City Urban Area.
    Our philosophy is simple: We have to develop the best intelligence 
available, expand our partnerships, take protective measures to defeat 
whatever our adversaries might be planning next, react to neutralize 
all threats and prevent the loss of life.
    New York enjoys the distinction of being the safest big city in 
America. It is also commercially vibrant, culturally diverse, and free. 
We can claim these successes are due, in no small measure, to the 
uniformed and civilian members of the New York City Department of 
Emergency Management (NYCEM), the New York Police Department (NYPD) and 
the New York City Fire Department (FDNY), and the assistance we have 
received from the Federal Government, which has been a vital partner in 
the face of an ever-present threat.
    We look forward to a continued partnership with Members of this 
committee and Congress so that we are able to sustain existing 
capabilities and continue to adapt to new threats in order to protect 
the people of the New York City Urban Area. Thank you again for this 
opportunity to testify today. We are happy to answer any questions you 
may have.

    I now recognize Commissioner Miller for his opening 
remarks.

STATEMENT OF JOHN MILLER, DEPUTY COMMISSIONER, INTELLIGENCE AND 
COUNTERTERRORISM, NEW YORK POLICE DEPARTMENT, CITY OF NEW YORK, 
                            NEW YORK

    Mr. Miller. Thank you, Representative Donovan, and to the 
committee. I am John Miller, deputy commissioner of 
intelligence and counterterrorism for the New York City Police 
Department. On behalf of Police Commissioner James P. O'Neill, 
I am pleased to testify before your subcommittee today to 
discuss Federal funding that has supported the NYPD's efforts 
to secure New York City.
    More than any other place in the world, New York City 
remains in the crosshairs of violent terrorists. It is not 
speculation; it is imperative data, the consensus of the global 
intelligence community as well. Since September 11, there have 
been approximately two dozen terrorist plots against New York 
City with targets such as Times Square, the Brooklyn Bridge, 
John F. Kennedy Airport, the New York Stock Exchange, the 
subway system, as well as major synagogues and other sites. In 
most cases, these plots have been thwarted by the efforts of 
the NYPD and the FBI-NYPD Joint Terrorism Task Force.
    Tragically, in the last 2 years, four attacks have 
succeeded in striking our city: An explosion in the Chelsea 
section of Manhattan in which dozens were injured; a white 
supremacist who murdered an African American man with a sword 
allegedly as a practice run to a larger plot; a terrorist who 
drove a pick-up truck down the West Side Highway which sadly 
killed 8 individuals and injured others; and an ISIS-inspired 
suicide bomber who set off a homemade explosive device at the 
Port Authority bus terminal in the subway station below that 
injured three individuals, as well as himself.
    We have worked long and diligently to build a deterrent 
that has kept this city safe while protecting and upholding the 
Constitutional rights and liberties accorded those who live, 
work, and visit New York City. But the specter of another 
terrorist attack is always present.
    September 11 has changed how the NYPD views its mission and 
the world around us forever. That work, however, cannot happen 
without the assistance and aid of the Federal Government. 
Following the tragedy, the NYPD recognized we could not defer 
the sole responsibility of protecting this city from terrorist 
attack to the Federal Government, and we have continued to 
prioritize this ever-evolving effort.
    Soon after 9/11, the NYPD became the first police 
department in the country to develop its own robust, 
sophisticated counterterrorism capability. We have expanded 
efforts to include international events, gathering intelligence 
far beyond our borders, with police officers staged in 14 posts 
around the world. Federal funding is critical to our efforts. 
Over the last 5 years, the NYPD has received an average of $156 
million a year in Federal funding. Notably, on average, $113 
million of that funding each year comes from the Department of 
Homeland Security, that in the form of DHS grants.
    Much credit and much thanks goes to you, Chairman Donovan, 
Representative King, Representative Payne, and the Members of 
this committee. The entire New York Congressional delegation, 
in fact, has helped us over the years to secure these funds.
    The NYPD relies on this funding to protect New Yorkers 
against terrorist attacks and to strengthen homeland 
preparedness, including the security of critical transportation 
and port infrastructure. Over the years, the caliber of people 
that we have been able to attract into the NYPD has played a 
major role in our ability to protect this city. We have hired 
civilian analysts who are experts in intelligence and foreign 
affairs. They study terrorist groups, terrorist trends, methods 
of attacks. One of our most important institutional strengths 
is the remarkable diversity of the ranks of the NYPD. The NYPD 
is fortunate to have a deep pool of foreign-speaking officers. 
This has allowed us to build a foreign linguist program with 
more than 1,200 registered speakers of 85 different languages--
Arabic, Dori'o, Farsi, Mandarin, Pashtu, Russian, Spanish, 
Urdu, just to name a few.
    Our personnel also includes trained vapor wake dogs. Not 
all talent comes on two legs. Our vapor wake dogs are deployed 
for large-scale events in the city. They are adept at sensing 
mobile threats and explosive particles. They are trained to 
avoid the distractions of large crowds and loud noises. They 
are an invaluable component in our policing strategy. But at 
$40,000 to $60,000 per animal, they are an expensive commodity. 
But imagine their ability to screen large crowds during an 
event like the Christmas tree lighting, New Year's Eve, 
Thanksgiving Day Parade, the New York City Marathon. They have 
become an integral and invaluable part of our ability to 
prevent terrorist attacks.
    The NYPD provides comprehensive training to our officers 
responding to explosive, chemical, biological, and radiological 
incidents. There are a multitude of possible forms that a 
terrorist attack could take. The Department has to be ready for 
any scenario at any time.
    Federal funds have been vital in training officers to 
respond to active-shooter scenarios, allowing them to engage 
and end a coordinated terrorist attack such as the Mumbai 
attack, or the attack on the Bataclan Theater in Paris. It also 
provides critical instruction to officers for life-saving 
techniques that can be implemented before it is safe enough for 
medical personnel to enter an active crime scene. In a few 
minutes you will hear from Chief Pfeifer about a lot of the 
direction we have been going in that vein so that we don't just 
stop the killing but also stop the dying.
    This all comes together in a carefully woven set of 
programs: 3,000 radiation detectors that our officers are armed 
with in the streets looking for a radiological threat before it 
presents itself; 10,000 cameras integrated into our 
informational systems that can be pushed to NYPD smart phones 
like this, where officers can access all forms of Department 
data holdings, and soon we will have, beyond the pilot program, 
the ability to push video to those phones so that at a crime 
scene an officer would literally have the ability to take his 
finger, rewind that camera backward, and see what actually 
occurred at the time the event was there if it is in an area 
covered by the camera, and as the network expands we hope that 
is more areas.
    These are growing programs. Take the active-shooter piece 
that is 11,606 officers who have been currently trained in 
active-shooter tactics. That is regular patrol officers in 
addition to the nearly 1,800 specialized officers we now have 
from the Strategic Response Group, the Critical Response 
Command, and the Emergency Service Unit with specialized long 
weapons and heavy vests and helmets for their protection. I 
daresay that no other municipality in the world, no municipal 
police department, has the ability to deploy that many 
specialized people with specialized training and equipment in 
that field anywhere else in the world.
    In the intelligence bureau, our motto is intelligence 
interdiction to stop the thing before it happens, and 
prevention. In the counterterrorism bureau, they pick up where 
intel left off with prevention, but preparedness and the 
ability to respond with the maximum of effectiveness if the 
event does occur. We treat every day as if that is the day when 
the attack that we are not expecting is going to happen, and 
that is a posture that in a police department where 85 percent 
of our expenses are personnel-related, the additional funds 
provided by the Department of Homeland Security and supported 
by the Members of this committee are essential.
    Thank you.
    [The prepared statement of Mr. Miller follows:]
                   Prepared Statement of John Miller
                             April 23, 2018
    Good morning Chairman Donovan, Ranking Member Payne, Congressman 
King, and Members of the subcommittee. I am John Miller, deputy 
commissioner of intelligence and counterterrorism for the New York 
Police Department (NYPD). On behalf of Police Commissioner James P. 
O'Neill, I am pleased to testify before your subcommittee today to 
discuss how Federal funding has supported the NYPD's efforts to secure 
New York City.
    More than any other place in the world, New York City remains in 
the crosshairs of violent terrorists. That is not speculation--it is 
the consensus of the global intelligence community. Since September 11, 
2001, there have been approximately 2 dozen terrorist plots against New 
York City, with targets such as Times Square, the Brooklyn Bridge, John 
F. Kennedy Airport, the New York Stock Exchange, the subway system as 
well as major synagogues and other sites. In most cases, they have been 
thwarted by the efforts of the NYPD and the FBI-NYPD Joint Terrorist 
Task Force. Tragically, in the last 2 years, four attacks have 
succeeded in striking our city; an explosion in Chelsea in which no one 
was killed; a white supremacist who murdered an African-American man 
with a sword as a ``practice run'' to a larger plot; a terrorist who 
drove a van into the West Side Highway Running Path which sadly killed 
8 individuals; and an ISIS-inspired suicide bomber who set off a 
homemade explosive device at the Port Authority Bus Terminal subway 
station that injured three individuals and himself.
    We have worked diligently to build a deterrent that has kept this 
city safe while protecting and upholding the Constitutional rights and 
liberties accorded to those who live, work, and visit New York city, 
but the specter of an attack is forever present.
    This work, however, cannot happen without the assistance and aid of 
the Federal Government.
    September 11 forever changed how the NYPD views its mission and the 
world around us. Following that tragedy, the Department recognized that 
we could not defer the sole responsibility of protecting this city from 
terrorist attacks to the Federal Government, and we have continued to 
prioritize this ever-evolving peril. Soon after 2001, the NYPD became 
the first police department in the country to develop its own robust 
counterterrorism capacity. We have expanded our efforts to include 
international events, gathering intelligence far beyond our borders.
    Federal funding is critical to our efforts. Over the last 5 years, 
the NYPD has received an average of $156 million a year in Federal 
funding. Notably, on average, $113 million of that funding each year 
comes from Department of Homeland Security (DHS) grants. Much credit 
and thanks goes to you, Chairman Donovan, and the entire New York 
Congressional delegation for their advocacy over the years to secure 
these funds. The NYPD relies on this funding to protect New Yorkers 
against terrorist attacks and strengthen homeland preparedness, 
including the security of critical transportation and port 
infrastructure.
    Over the years, the caliber of people we have been able to attract 
has played a major role in our ability to protect New York. We have 
hired civilian analysts who are experts in intelligence and foreign 
affairs. They study terrorist groups, trends, and methods of attacks. 
One of our most important institutional strengths is the remarkable 
diversity in our ranks. The NYPD is fortunate to have a deep pool of 
foreign-speaking officers. This has allowed us to build a foreign 
linguist program with more than 1,200 registered speakers of 85 
different languages--Arabic, Dari, Farsi, Mandarin, Pashto, Russian, 
Spanish, and Urdu, to name just a few.
    Our personnel also includes our trained vapor wake dogs. Our vapor 
wake dogs are often deployed at large-scale events in the city. They 
are adept at sensing mobile threats and explosive particles, and they 
are trained to avoid the distractions of large crowds and loud noises. 
They are an invaluable component to our policing strategy.
    The NYPD provides comprehensive training to our officers in 
responding to explosive, chemical, biological, and radiological 
incidents. There are a multitude of possible forms a terror attack 
could take, and the Department has to be ready for any scenario. 
Federal funds are vital in training officers to respond to active-
shooter scenarios, allowing them to engage and end a coordinated 
terrorist attack like the Mumbai attack. It also provides critical 
instruction to officers in life-saving techniques that can be 
implemented before it is safe enough for medical personnel to enter an 
active crime scene.
    In addition to staffing our counterterrorism and intelligence units 
and training our officers, this funding has helped the NYPD create the 
security infrastructure that has prevented potential attacks. For 
instance, in an initiative supported by DHS, we have installed 
radiation detection equipment in neighboring jurisdictions and at key 
points of entry into the five boroughs so that the city is virtually 
ringed with an alarm system. This program, called Securing the Cities, 
includes 150 law enforcement agencies in dozens of nearby cities and 
towns.
    Across the city, we have distributed approximately 3,000 radiation 
pagers to units throughout the department and nearly 4,000 radiological 
dosimeters to each Patrol Borough's counterterrorism post. We continue 
to invest heavily in acquiring and maintaining state-of-the-art 
equipment to identify, prevent, or disrupt threats. We have installed 
highly-sensitive detection equipment on the boats and helicopters we 
use to patrol New York Harbor, as well as vehicles we use to patrol our 
streets.
    Our Domain Awareness System (DAS), a centralized network of 
security cameras, license plate readers, and chemical and radiological 
detectors is only possible thanks to help from the Federal Government. 
DAS makes it possible to scan recorded footage for specific objects and 
behaviors; an unattended bag; a car driving against the flow of 
traffic, or a person walking through a restricted area. Using an 
advanced graphical interface and mapping capability, the DAS retrieves 
and displays information, providing real-time alerts and the means to 
quickly utilize relevant information to prevent incidents from 
occurring or guide our response once an attack has been complete, 
enabling the NYPD to quickly identify attackers and stop them before 
they can strike again. The program receives data from more than 14,000 
cameras, nearly 700 license plate readers, and strategically placed 
chemical and radiation detectors throughout the city, providing instant 
alerts on possible threats in the city. Since it is available as an 
application on their Department smart phone, the features of the DAS 
are available at the fingertips of all of our officers.
    We place particular emphasis on the subway system in light of its 
attractiveness as a target and because it is a vital artery that keeps 
this city running. In excess of 5 million New Yorkers use the subways 
every day. Protecting this system is one of our top priorities and 
greatest challenges. The strength of the system, open, 24 hours a day, 
every day of the year, makes it an appealing target for attackers. 
After the bombing of the London transit system in 2005, we began 
screening the bags and backpacks of subway passengers. We maintain 
posts at each of the 14 underwater subway tunnels. We have expanded 
uniformed patrols underground and regularly conduct security sweeps in 
subway cars.
    Federal funding also helps ensure that each officer responding to a 
terror incident has the proper equipment so that they can respond to 
active shooters or radiological attacks in as safe a manner as 
possible. The support we receive from the Federal Government in the 
form of funding and our relationships with our Federal law enforcement 
partners has been and continues to be invaluable. However, we continue 
to seek greater funding levels that are commensurate with the severity 
of the ever-present threat to our city, which unfortunately 
consistently finds itself atop the terror target list. With additional 
funding above and beyond the current levels, the NYPD would further 
increase deployments in critical areas of the city as well as continue 
to expand the DAS in order to retrieve critical information and elevate 
situational awareness.
    On the topic of Federal Government support of information sharing, 
I would like to note that the Department of Homeland Security Office of 
Intelligence and Analysis (``I&A'') certified a Sensitive Compartmented 
Information Facility (SCIF) at NYPD Headquarters which supports 
Classified information sharing integral to the NYPD mission. We also 
have three I&A personnel assigned to New York City to support NYPD in 
addition to a DHS Special Security Officer (SSO) assigned full time to 
manage SCIF operations. The DHS intelligence analyst assigned to NYPD 
sits with our Intelligence Division and he proactively shares DHS and 
intelligence community information with NYPD that has resulted in leads 
for existing investigations, new investigations being opened, and two 
joint finished intelligence products over the past year.
    We are also eager to engage with our Federal partners on possible 
legislation. Federal and local law prohibit the recreational use of 
drones, or unmanned aircraft systems (UAS), but most drone owners 
either do not know or do not abide by those restrictions. Consequently, 
there has been an increase in illegal drone usage in the city, 
especially at high-profile, mass gathering events. While hobbyists are 
often times using drones for photography and filming, more evidence is 
found daily that terrorist groups are encouraging active members and 
lone wolves to embrace drones as a mass casualty tool. Currently, 
Federal law prohibits State and local governments from purchasing, 
owning, or operating technology that would jam any form of authorized 
radio communications and provides no pathway for State or local 
governments to apply to the Federal Communications Commission (FCC) for 
an exception from this prohibition. Working with our partners in 
Congress, the Department recommends amending Title 47 of the Federal 
Code to allow State and local governments to purchase jamming 
technology to use against unmanned aircraft systems in select 
circumstances with proper oversight.
    Our philosophy is simple: We have to develop the best intelligence 
available, expand our partnerships, take protective measures to defeat 
whatever our adversaries might be planning next, react to neutralize 
all threats and prevent the loss of life.
    Before concluding, I would like to briefly discuss potential 
Federal actions that would impact our emergency communications. As you 
know, the NYPD is the Nation's largest police agency with law 
enforcement responsibility across the five boroughs. The Department 
receives nearly 10 million 9-1-1 calls annually and patrols 
approximately 306 square miles--which accounts for some of the most 
densely populated geography in the Nation.
    Since September 11, we have greatly improved our radio 
communications for our personnel, many of whom are responding to crimes 
in progress. I want to comment on the potential relocation of public 
safety land mobile radio systems from the ``T-band.'' Losing the T-band 
spectrum would require significant financial investments to replace our 
existing radio infrastructure. Moreover, alternative spectrum has not 
been identified to facilitate this relocation, and it is not clear as 
to whether there is enough spectrum available to accommodate the 
largest metropolitan areas. The continuity for interoperable and 
operable communications is essential, and changes to the T-band system 
will impact Department operations and the risk of disruption will 
endanger public safety.
    Additionally, while we certainly are encouraged by steps taken by 
the FCC to improve the Wireless Emergency Alert (WEA) system, we urge 
the FCC to adopt rules that better allow us to respond to the full 
range of 21st Century emergencies. When the city issued a wireless 
emergency alert regarding the Chelsea Bomber in 2016 to every phone in 
the five boroughs, the millions of New Yorkers who wanted to help were 
given several lines of text with no picture. In this age of instant 
access to visual information via social media applications, we need to 
enhance our country's ability to rapidly, efficiently, and securely 
deliver comprehensive emergency information, including images, to the 
public. Pictures provide instant recognition and speak a universal 
language. They enable rapid response from every potential witness who 
could save countless lives through fast action. The lack of photographs 
and other multimedia highlights a weakness in the system and, in the 
face of emerging threats, the city needs to remain on technology's 
cutting edge by using public information systems to their fullest 
capacity to advance its emergency services and capabilities.
    Over 16 years after 9/11, New York enjoys the distinction of being 
the safest big city in America. It is also commercially vibrant, 
culturally diverse, and free. We can claim these successes are due, in 
no small measure, to the 50,000+ uniformed and civilian members of the 
New York City Police Department, and the assistance we have received 
from the Federal Government, which has been a vital partner in the face 
of an ever present threat.
    Thank you again for this opportunity to testify today. I am happy 
to answer any questions you may have.

    Mr. Donovan. Thank you. Thank you, Commissioner.
    Chief.

  STATEMENT OF JOSEPH W. PFEIFER, CHIEF, COUNTERTERRORISM AND 
EMERGENCY PREPAREDNESS, NEW YORK CITY FIRE DEPARTMENT, CITY OF 
                       NEW YORK, NEW YORK

    Mr. Pfeifer. Good morning, Chairman Donovan, Ranking Member 
Payne, and Congressman King. Thank you for having me here 
today. I am the chief of counterterrorism and emergency 
preparedness for the New York City Fire Department.
    Homeland security in an urban setting is immensely 
challenging for our first responders. Our population of over 
8.5 million people, New York City has the highest density 
population of any city in the country. Expand that out to our 
region of New Jersey and the tri-State area, we have a 
tremendous amount of responsibility for a mega-city of 20 
million people. This includes the United Nations, Trump Tower 
where just recently there was a serious fire, but this 
landscape in the tri-State area of an evolving threat involving 
security and involving disaster management is what we are 
about.
    The post-9/11 environment has greatly expanded the role of 
the city's fire, police, emergency management agencies to save 
people, to make it safe for people that come to our area every 
day. The mission of the New York City Fire Department is not 
only about responding to fires, but it is also responding to 
medical emergencies, public safety incidents, natural disaster, 
and acts of terrorism.
    In the last 6 months alone we responded to two separate 
terrorist attacks, the first in lower Manhattan where the 
terrorist drove a pick-up truck down a bike lane and killed 8 
people, injuring 11; and the second took place in the subway 
near the Port Authority commuter bus terminal where a terrorist 
set off a pipe bomb strapped to his body during rush hour.
    Working with our Federal, State, and local partners, we 
need to meet this challenge through a matrix of specialized 
training, planning, equipping, preparing, information and 
intelligence sharing, all of which are made possible through 
Federal homeland security funding. I would like to highlight 
some of these programs.
    Following the recommendation of the 9/11 Commission, the 
Fire Department leveraged homeland security grant funds to 
create a state-of-the-art emergency operations center. Today, 
the emergency operation center at FDNY serves as part of a 
network of managing complex emergencies and to share 
information by connecting the local partners like NYPD and OEM, 
as well as the National Operations Center down in the District 
of Columbia. Let me give you an example.
    When U.S. Airways Flight 1549 had an emergency landing in 
the icy waters of the Hudson River, not only did we have to 
coordinate rescue operations from the operations center, but we 
had to share critical information, like comparing the manifest 
from LaGuardia Airport of the plane, of who was on the plane 
and comparing that to the people who had to go through our 
hospitals. We learned first that all 155 passengers and crew 
were alive and rescued. That information was placed on the 
Homeland Security Information Network and immediately provided 
this fact to all of government, including the President of the 
United States. Information is power if we share it, and if we 
share it in real time.
    In the aftermath of the World Trade Center attacks, we 
developed an instant management team to manage and coordinate 
complex emergencies. DHS grant funding paid for the extensive 
funding of the IMTs, as well as full-scale exercises which the 
teams participated in with partners within New York City and 
outside of the city. As a matter of fact, just last week the 
IMT ran a full-scale exercise in up-State New York in a 
training facility, partnering with NYPD New York State IMT, to 
practice simultaneous large-scale events involving building 
collapse and active shooters.
    We also created a Center for Terrorism and Disaster 
Preparedness to develop strategies, emergency response plans, 
intel products, educational programs, and scenario-based 
exercises to improve the Department's response to terrorist 
acts, to natural disasters, and to large-scale incidents.
    The work of CTDP has been on the front lines preparing the 
Department, the city, and the Nation for new and emerging 
threats. Working with NYPD, we developed multi-agency plans 
outlining the roles and responsibilities to respond to major 
incidents.
    The Center for Terrorism and Disaster Preparedness has been 
working with multiple agencies to address the growing threat of 
vertical terrorism. This is an event where terrorists attack 
high-rise buildings using semi-automatic weapons, explosives, 
and the use of fire and smoke as weapons. CTDP conducted a 
recent study on this topic which I have provided the committee.
    To prepare for such an attack, FDNY hosted a vertical 
terrorism preparedness workshop which we held on the 63rd floor 
of the new One World Trade Center, with NYPD, with NYSUM, with 
the Port Authority of New York and New Jersey, with the FBI, 
with DHS, FEMA, building managers, and trauma center doctors.
    As the threat environment changes, we must have first 
responders also change. This type of research that we are doing 
at FDNY at our center is preparing our first responders and 
agencies across not only the city but across the country. We 
learn together, and we share this information about vertical 
terrorism.
    We also use homeland security grant funding to make smart 
investments in the core competencies such as building collapse, 
CBRN, mass casualty incidents. These funds allow us to develop 
enhanced capabilities in search and rescue, hazardous material 
mitigation, rescue medic hospital skills, marine operations, 
and swift water rescues.
    A key innovation in the Department's response to mass 
casualty incidents was the formation of a rescue task force 
which is made up of first responders who receive specialized 
training for triage treatment and transport of victims during 
an active-shooter incident. They are part of the response 
matrix and are proactive in deploying in high-profile special 
events like Times Square New Year's Eve and the Thanksgiving 
Day Parade.
    The rescue task force is dependent upon our partners in 
NYPD for force protection so FDNY medical responders can go 
into these dangerous areas, go into a war zone to provide 
triage and to stop the bleeding. What John mentioned before is 
what we do. Law enforcement goes in to stop the killing, and 
FDNY goes in to stop the dying.
    To do that, each member has ballistic protection and has 
completed hands-on training in tourniquets and clotting agents. 
But what is so important for us are these joint exercises that 
we do between FDNY and NYPD and working with OEM. These things 
are important. If we don't practice it, it doesn't become real. 
Only by working together as a team will we be ready for the 
next extreme event.
    These resources were developed with homeland security 
funding, working in concert with one another to provide a fast 
and thorough response to mitigate these threats and incidents. 
I will give you an example.
    During the pipe bombing at the Port Authority, what we had 
to respond to that incident was a rescue task force. We had our 
medical resources. We brought in our breather units so that if 
things got bad we would be able to operate with self-contained 
breathing apparatus for a long period of time. Our rescue and 
squad companies drew from special training. We had a compressor 
unit if there was collapse, and mass casualty pods we brought 
into the scene. Our hazardous material units were dispatched so 
we could take radiological readings. Even our marine companies 
that were on the waterways stepped up patrol. The resources 
that we have developed and maintained using homeland security 
funding is critical in saving not only the people of New York 
but the population in the entire region.
    One of our marine units is a regional asset. We respond to 
incidents on the waterway both on the New York and the New 
Jersey side. We even have a pressurized cabin in case there was 
an attack with chlorine on the city or the area. We can 
disperse that cloud through using water because this 
pressurized cabin can go into an area of contamination.
    But working with our security partners, we are preparing 
for the next type of active-shooter attack, one which could 
occur on the many ferries that bring thousands of people to 
work each day. Our workshop focuses on not only stopping the 
killing by law enforcement and stopping the dying by our 
medical personnel, but also about stopping the drowning, 
because we know if there is an active shooter on a boat, on one 
of our ferries, that people will jump in the water to escape 
the shooting. Such a comprehensive approach of preparedness 
cannot be done without this grant funding.
    Members of our rescue operation are trained to these high 
levels, and we work with our urban search-and-rescue teams, our 
IMTs, not only to protect the city of New York and the region 
but also to be an asset for the rest of the country.
    During Hurricane Katrina, we sent our team down to New 
Orleans. During Hurricane Irene, we sent our teams up to Broome 
County in up-state New York. Just recently we sent our teams of 
urban search-and-rescue and management teams to Texas for 
Hurricane Harvey, Florida for Hurricane Irma, and Puerto Rico 
for Hurricane Marie.
    Preparedness is a race against time, to be ready for the 
next attack or the next extreme event. The events of 9/11 took 
place in 102 minutes, which is less time than this hearing 
today. Every Federal dollar that flows to the FDNY improves our 
response so we can serve the greatest number of people and pay 
dividends across the United States. We are looking forward to 
continuing to partner with this committee and with Congress, 
and to adapt to the newer threat environment so we can protect 
the urban area of New York City and the tri-State area.
    Thank you so much for allowing me to share the experiences 
of FDNY and for your support in high-risk urban areas.
    [The prepared statement of Mr. Pfeifer follows:]
                Prepared Statement of Joseph W. Pfeifer
                             April 23, 2018
    Good afternoon Chairman Donovan, Ranking Member Payne, Congressman 
King, and Members of the Subcommittee on Emergency Preparedness, 
Response, and Communications. My name is Joseph Pfeifer and I am the 
chief of counterterrorism and emergency preparedness for the New York 
City Fire Department. Thank you for the opportunity to discuss the 
importance of Federal support to High-Risk Urban Areas.
    Homeland security in an urban setting is an immense challenge for 
first responders. With a population of over 8\1/2\ million people, New 
York City has the highest population density of any major city in the 
country. Our region also includes a large number of high-profile 
locations, including the United Nations and Trump Tower, which was the 
site of a fire very recently. The greater Tri-State region faces an 
ever-evolving landscape of security and disaster threats. This post-9/
11 environment has greatly expanded the role that the city's police, 
fire, and emergency management agencies do each day to keep people 
safe. The mission of the New York City Fire Department (FDNY) is not 
only to respond to fires, but also respond to medical emergencies, 
public safety incidents, natural disasters, and acts of terrorism.
    In the last 6 months alone, we've had to respond to two separate 
terror attacks. The first occurred in Lower Manhattan when a terrorist 
drove a pickup truck down a bike path killing 8 people and injuring 11 
others, and the second took place at the subway near the Port Authority 
commuter bus terminal when a terrorist set off a pipe bomb strapped to 
his body during the morning rush hour.
    Working with our Federal, State, and local partners, we meet this 
challenge through a matrix of specialized training, planning, 
equipping, preparedness programming, and information and intelligence 
sharing, all of which are made possible by Federal Homeland Security 
funding. I'd like to highlight a few of the key programs today.
    Following the recommendations of a 9/11 Commission Report, the Fire 
Department leveraged Homeland Security grant funds to create and staff 
a state-of-the-art Emergency Operations Center (EOC) at FDNY 
Headquarters. Today, this EOC serves as part of a network to manage 
complex emergencies and to share information by connecting with local 
partners like the NYPD and NYCEM, as well as the National Operations 
Center.
    When US Airway Flight 1549 crashed in the icy waters of the Hudson 
River, not only did we coordinate rescue operations from the Operations 
Center, but we also shared critical information. By comparing the 
manifest we received from LaGuardia Airport with everyone taken off the 
plane going through our medical triage and hospitals, we were the first 
to learn that all 155 passengers and crew were alive and rescued. That 
information was placed on the Homeland Security Information Network and 
immediately provided this fact to all in government including the 
President of the United States. Information is power if it is shared 
and delivered in real time.
    In the aftermath of the World Trade Center attacks, we developed an 
Incident Management Team (IMT) to manage and coordinate complex 
emergencies. DHS grant funds pay for the extensive training of IMT 
members, as well as full-scale exercises, which the team participates 
in with partner agencies including NYPD and New York State Police. Last 
week, the IMT ran a Full-Scale Exercise at an up-State training 
facility, partnering with the NYPD and the NYS IMT to practice managing 
simultaneous large-scale incidents involving a building collapse and an 
Active Shooter.
    We also created the FDNY Center for Terrorism and Disaster 
Preparedness (CTDP) to develop strategies, emergency response plans, 
intelligence products, educational programs and scenario-based 
exercises to improve the Department's response to terrorist attacks, 
natural disasters, and other large-scale incidents. The work of CTDP 
has been on the front lines of preparing the department, the city, and 
the Nation for new and emerging threats. Working with the NYPD, we 
developed a multi-agency plan outlining roles and responsibilities to 
respond to an Active-Shooter Incident.
    CTDP has also been working with the NYPD to address the growing 
threat of Vertical Terrorism, where terrorists attack high-rise 
buildings with semi-automatic weapons, explosives, and the use of fire 
as a weapon. CTDP conducted a recent study on this topic, which I have 
provided to the committee. To prepare for such an attack, FDNY hosted a 
Vertical Terrorism Preparedness Workshop last year on the 63rd floor of 
the new 1 World Trade Center, with NYPD, NYCEM, the Port Authority of 
NY/NJ, the FBI, DHS, FEMA, building managers, and Trauma Center 
doctors. As the threat environment changes so must first responders. 
This is the type of research and preparation that other first responder 
agencies across the country can learn from and use to improve their own 
response to Vertical Terrorism Incidents.
    We also use Homeland Security grant funds to make smart investments 
in other core competencies such as building collapses, CBRN, and Mass 
Casualty Incidents. These funds have allowed us to develop and enhance 
our capabilities in search and rescue, hazardous material mitigation, 
Rescue Medic treatment skills, Marine Operations, and Swift Water 
rescues.
    A key innovation in the Department's response to mass casualty 
incidents was our formation of the Rescue Task Force, which is made up 
of first responders who have received specialized training to triage, 
treat, and transport victims during an Active-Shooter incident. They 
are part of our response matrix and are proactively deployed at high-
profile events such as New Year's in Times Square and the Macy's 
Thanksgiving Day Parade.
    The Rescue Task Force depends upon NYPD for force protection so 
that FDNY medical responders can triage and stop the bleeding in order 
to save lives in a warm zone. Each member of the team is outfitted with 
ballistic protective equipment for protection and has completed hands-
on training to apply tourniquets and clotting agents. But what are 
vital to this initiative are the joint full-scale exercises between 
FDNY and NYPD that are conducted by CTDP. Only by working together as a 
team will we be ready for the next extreme event.
    The resources that we've developed with Homeland Security funding 
work in concert with one another to provide a fast, thorough response 
and mitigation to threats and incidents. To give one example, when the 
pipe bomb went off at the Port Authority during rush hour, the Rescue 
Task Force was mobilized and responded to the scene. FDNY Re-breather 
units responded wearing a specialized Self-Contained Breather 
Apparatus, allowing them to operate underground for much longer than 
with standard issued equipment. FDNY Rescue and Squad Companies 
responded, drawing on their specialized training to respond to 
incidents underground and in confined spaces, and carry rescue 
equipment and tools. FDNY Compressor Unit and Mass Casualty Incident 
pods were staged at the scene. HazMat and Tech Engine Units responded 
to conduct atmospheric testing for radiation and HazMat/WMD materials 
at the scene. Marine Operations ran on-going stepped-up patrols of the 
harbor after the attack to conduct a survey of ships docked in the 
Port.
    The resources that we have developed and maintain using Homeland 
Security funding are critical in serving not only the people of New 
York City, but the population of the entire region. Our Marine Unit is 
a regional asset that works with the United States Coast Guard to 
responding to incidents in waterways in and around New York. They 
respond to incidents in other jurisdictions, such as responding to 
massive fires in New Jersey. They have a pressurized cabin that allows 
the fireboats to disburse a chlorine vapor cloud or respond to the 
nuclear power plant at Indian Point.
    Working with our Port Security Partners, we are preparing for a new 
type of active-shooter incident, one of which could occur on the many 
water ferries that bring thousands of people to work each day. Our 
workshops have focused on not only of ``Stopping the Killing'' by law 
enforcement and ``Stopping the Dying'' by our medical personnel, but 
also on ``Stopping the Drowning,'' because we know people will jump in 
the water to escape from being shot. Such a comprehensive approach 
prepares us for the unthinkable.
    Members of Rescue operations train with fire departments and first 
responder agencies from around the country, passing along specialized 
knowledge that we've developed here in New York. Urban Search and 
Rescue Team Task Force-1 and our IMT have provided mutual aid after a 
number of natural disasters, including New Orleans after Hurricane 
Katrina, Broome County, New York after Hurricane Irene, Florida after 
Hurricane Irma, Texas after Hurricane Harvey, and Puerto Rico after 
Hurricane Maria.
    Preparedness is a race against time to be ready for the next attack 
or the next extreme event. The events of 9/11 took place in 102 
minutes, less time than this hearing. Every Federal dollar that flows 
to the FDNY improves our response so we can save the greatest number of 
people and pays dividends across the United States.
    We look forward to a continued partnership with Members of this 
committee and the Congress so that we are able to sustain existing 
capabilities and continue to adapt to new threats in order to protect 
the people of the New York City Urban Area.
    Thank you for allowing me to share FDNY's experience on the topic 
of Federal Support to High-Risk Urban Areas and I am happy to answer 
any questions.

    Mr. Donovan. Thank you, Chief. For a community so dependent 
on ferry service, your testimony was compelling.
    John, not that yours wasn't compelling either.
    [Laughter.]
    Mr. Donovan. The Chair now recognizes my good friend, the 
commissioner of OEM, Joe Esposito.

 STATEMENT OF JOSEPH J. ESPOSITO, COMMISSIONER, NEW YORK CITY 
  EMERGENCY MANAGEMENT DEPARTMENT, CITY OF NEW YORK, NEW YORK

    Mr. Esposito. I am not going to be compelling.
    [Laughter.]
    Mr. Esposito. Good morning, Chairman Donovan, Ranking 
Member Payne, Congressman King, Members of the Subcommittee on 
Emergency Preparedness, Response, and Communications. I am Joe 
Esposito, the commissioner of New York City Department of 
Emergency Management. It is my honor to be here to talk about 
the importance of homeland security grant funding for our city.
    To begin, allow me to give you a sense of the scale of our 
work, the mission of emergency management in New York City. We 
had a busy year in 2017. We activated the city's Emergency 
Operations Center 14 times, for a total of 107 days. That 
includes five winter weather events, two building vacates 
through major fires, two flash floods, an active shooter at 
Bronx Lebanon Hospital, a heat emergency, the attack on the 
Port Authority, and Hurricanes Jose and Maria.
    We were activated for 73 days for Hurricane Maria, and 
during that time we helped coordinate the operations of a 
hurricane reception center at the Julia de Burgos Latino 
Cultural Center in Spanish Harlem that assisted over 2,000 
households. We deployed almost 300 city staff to Puerto Rico 
and the U.S. Virgin Islands to assist in recovery operations. 
In addition, the New York City Urban Search and Rescue team, 
which is managed by my shop, we deployed 190 members to Texas 
and Puerto Rico over the course of three hurricanes to assist 
in water rescue, evacuations, and wellness checks. The team 
brought in food, water, and medical supplies, as well as 
repairing generators for hospitals in isolated areas of Puerto 
Rico.
    In 2017, we monitored more than 3,000 incidents and sent 
our city-wide incident coordinators to 759 incidents such as 
water main breaks, fires, suspicious packages, and power 
outages. Our Notify NYC sent out more than 1,500 messages. In 
September we launched a Notify NYC mobile application that, in 
addition to growth in our traditional subscribership, now puts 
us at almost 725,000 registrants.
    We held and participated in 91 interagency exercises to 
make sure that plans are understood, and this is our protocols 
for these plans, ready to be implemented as needed.
    Our community outreach and engagement activities continue 
to grow as we participated in almost 1,000 Ready New York 
events, with more than 110,000 people attending, and we 
distributed more than 1 million emergency planning guides.
    We graduated 12 new classes from our Community Emergency 
Response Teams, our CERT teams. These are volunteers. They are 
taking our total to just about 1,300 volunteers throughout the 
city. We hosted the Disaster Volunteer Conference in June, and 
a Disabilities Access and Functional Needs Symposium in 
December.
    All of this is accomplished with the support of the Federal 
Government through various grants. We work with City Hall 
Office of Emergency Management and Budget, the city's 
Congressional delegation, and our partner agencies to push for 
full homeland security funding which supports our critical 
operations.
    In the past year New York City Emergency Management secured 
$25 million in Federal funding preliminarily from the Urban 
Area Security Initiative grant. That grant provided $139 
million in total to the city last year.
    I chair the New York City Urban Area Working Group made up 
of New York City, Nassau and Suffolk Counties on Long Island, 
Westchester County, Yonkers, and the Port Authority of New York 
and New Jersey. The working group is instrumental in linking 
and coordinating regional activities, including joint training 
and exercises, public education and outreach, and the 
development of response protocols. This summer, New York City 
will host the National Homeland Security Conference. This is an 
annual meeting of local homeland security and emergency manager 
professionals from the Nation's largest metropolitan areas. It 
has become the best-attended and most highly anticipated 
homeland security and emergency management conference of the 
year, and it focuses on emergency response principles at all 
levels of the government.
    We recommend the Members of the subcommittee consider 
coming, maybe addressing the conference. We have a number of 
different venues. We would love to see you come and be some of 
our keynote speakers.
    Federal grant funding represents 50 percent of the budget 
at Emergency Management. That is our annual operating budget of 
$50 million, and it is vital to our ability to run many of our 
finest initiatives, including the Ready New York public 
education program, our CERT, our volunteer program, our 
continuity of operations program, our geographic information 
system, our training and exercises which both gentlemen talked 
about, our watch command and response, and the city's incident 
management system planning.
    It also funds the emergency supply stockpile, which 
provides supplies and services to support our emergency 
sheltering for adults, people with special medical needs, 
people with disabilities and accessibility and functional 
needs, children, infants, and companion animals.
    During a coastal storm or any emergency, the stockpile can 
meet the needs of 70,000 individuals in designated evacuation 
shelters across the city, up to 7 days, and once that system 
goes in place, we have a back-up system where contractors will 
come in and resupply as the need arises.
    So thank you for the opportunity to testify today. I look 
forward to continue working with Congress on the issues 
pertaining to emergency preparedness and response, and I am 
happy to answer any questions.
    [The prepared statement of Mr. Esposito follows:]
                Prepared Statement of Joseph J. Esposito
                             April 23, 2018
    Good morning Chairman Donovan, Ranking Member Payne, Congressman 
King, and Members of the Emergency Preparedness, Response, and 
Communications Subcommittee. I am Joe Esposito, commissioner of the New 
York City Department of Emergency Management (NYCEM), and it is my 
honor to be here to talk about the importance of homeland security 
grant funding to our city.
    To begin, allow me to give you a sense of the scale of our work and 
mission in New York City. Our agency just had a busy year. In 2017, we 
activated the city's Emergency Operations Center 14 times for a total 
of 107 days. That includes five winter weather events, two building 
vacates due to fires, two flash floods, an active shooter at Bronx 
Lebanon Hospital, a heat emergency, the Port Authority explosion, and 
Hurricanes Jose and Maria.
    We were activated for 73 days for Hurricane Maria and, during that 
time, helped coordinate the operation of a Hurricane Reception Center 
at the Julia De Burgos Latino Cultural Center that assisted more than 
2,000 households. We deployed 299 city staff to Puerto Rico and the 
U.S. Virgin Islands to assist in recovery operations. In addition, the 
New York City Urban Search and Rescue Team, which is managed by NYCEM, 
deployed 190 members to Texas and Puerto Rico over the course of three 
hurricanes to assist in water rescues, evacuation, and wellness checks. 
The team brought in food, water, and medical supplies, as well as 
repaired generators for two hospitals in isolated areas of Puerto Rico.
    In 2017, we monitored more than 3,000 incidents and sent our city-
wide incident coordinators to 759 incidents, such as water main breaks, 
fires, suspicious packages, and power outages. Notify NYC sent out more 
than 1,500 messages. In September, we launched the Notify NYC mobile 
application that, in addition to growth in our traditional 
subscribership, now puts us at almost 725,000 registrants. We held or 
participated in 91 interagency exercises to make sure plans are 
understood and necessary protocols for plans are ready to be 
implemented as needed.
    Our community outreach and engagement activities continue to grow 
as we participated in almost 1,000 Ready NY events with more than 
110,000 people attending and distributed more than 1 million emergency 
planning guides. We graduated 12 new classes of Community Emergency 
Response Team (CERT) volunteers, taking our total to 1,300 volunteers 
throughout the city. We hosted a disaster volunteer conference in June 
and a Disabilities, Access, and Functional Needs Symposium in December.
    All of this is accomplished with the support of the Federal 
Government through various grants. We work with City Hall, OMB, the 
city's Congressional delegation and our partner agencies to push for 
full homeland security funding which supports critical operations. In 
the past year, NYCEM secured $25 million in Federal funding, primarily 
through the Urban Areas Security Initiative grant, which provided $139 
million in total to the city last year. I chair the New York City Urban 
Area Working Group, made up of New York City, Nassau and Suffolk 
counties in Long Island, Westchester County, Yonkers, and the Port 
Authority of New York and New Jersey. The Working Group is instrumental 
in linking and coordinating regional activities, including joint 
training and exercises, public education and outreach, and the 
development of response protocols. This summer, New York City will host 
the National Homeland Security Conference, an annual meeting of local 
homeland security and emergency management professionals from the 
Nation's largest metropolitan areas. It has become the best attended 
and most highly anticipated homeland security and emergency management 
conference of the year as it focuses on emergency response disciplines 
at all levels of government. We recommend the Members of this 
subcommittee consider attending and would be happy to discuss this more 
with you.
    Federal grant funding represents roughly 50 percent of NYCEM's 
annual operating budget of $50 million, and is vital to our ability to 
run many of our finest initiatives, including the Ready New York public 
education program, CERT program, Continuity of Operations Program, 
Geographic Information Systems, Training and Exercises, Watch Command 
and Response, and City-wide Incident Management Systems planning. It 
also funds the Emergency Supply Stockpile, which provides supplies and 
services to support emergency sheltering for adults, people with 
special medical needs, people with disabilities and accessibility and 
functional needs, children, infants, and companion animals. During a 
coastal storm, the stockpile can meet the needs of 70,000 individuals 
in designated evacuation shelters across NYC for up to 7 days.
    Thank you for the opportunity to testify today. I look forward to 
continue working with Congress on issues pertaining to emergency 
preparedness and response. I am happy to take your questions.

    Mr. Donovan. Thank you, Commissioner.
    The Chair now recognizes Chief Bilich.

  STATEMENT OF JOHN BILICH, CHIEF SECURITY OFFICER, THE PORT 
              AUTHORITY OF NEW YORK AND NEW JERSEY

    Mr. Bilich. Thank you and good morning, Chairman Donovan, 
Ranking Member Payne, and Congressman King. My name is John 
Bilich. I am the chief security officer of the Port Authority 
of New York and New Jersey. Thank you for inviting me to speak 
about this critical topic of securing our critical 
infrastructure assets and our strong partnership with State, 
local, and Federal stakeholders.
    The Port Authority of New York and New Jersey conceives, 
builds, operates, and maintains infrastructure critical to New 
York and New Jersey's transportation and trade network. The 
assets we protect include 5 airports, including JFK, Newark, 
and LaGuardia, the largest aviation system in the country; 2 
tunnels; 4 bridges, including the GWB, the world's busiest 
bridge; the Port Authority bus terminal, of which 8,000 buses 
pass through on a weekday Monday to Friday; the PATH rail 
system; the ports of New York and New Jersey; and, of course, 
the World Trade Center Complex.
    We utilize a robust, multi-layered security approach to 
protect the Port Authority's customers, the general public, 
employees, and critical infrastructure. The layers in this 
methodology include intelligence; measuring risk through a 
layer assessment process to drive investment in capital 
security and deployment; police prevention and interdiction 
methods; operational security measures to include contract 
security resources; the deployment of available and developing 
technologies; engineer-hardened solutions; Office of Emergency 
Management to include response and recovery; Federal, State, 
and regional partnerships; and, of course, we measure 
effectiveness off audit and revise; and training, training, and 
training. The multi-layered security approach is applied to all 
our facilities.
    Human assets. Our policing strategy is intelligence-led as 
the Port Authority Police Department has presence in 28 
Federal, State, and local law enforcement task forces to 
include the FBI, JTTF in both New York and New Jersey. We are 
confident that we are connected to receive important and 
actionable intelligence and information. Our PAPD is a highly 
competent, professional police agency. It has a police command 
assigned 24/7 at each Port Authority critical infrastructure 
facility. Our policing methods include patrols, high-visibility 
emergency service units, dedicated counterterrorism teams, as 
well as the assignment of explosive detection canine and 
radiation detection capabilities.
    Our police presence is supplemented by a contract security 
guard force of over 1,400 security officers who are trained in 
behavioral recognition techniques and counterterrorism 
awareness. These security officers are posted at critical 
locations throughout the system, and also staff a 24/7 security 
operation center.
    In addition to our human assets, we have made significant 
investments in our capital security projects as directed by our 
periodic program of risk assessments that inform our 
investments to further strengthen our facilities. Since 2002, 
the Port Authority has spent over $1.4 billion in hardening its 
critical infrastructure, and for the coming years we plan to 
spend nearly another $700 million to protect these assets.
    The use of technology is also of paramount importance. In 
addition to CCTV, we have robust control systems, intrusion 
detection systems, detection devices to help protect against 
CBRN threats and, of course, extensive background and criminal 
history checks of anyone having access to a Port Authority 
facility, including outside contractors. In addition, we have 
created a new cybersecurity program to better monitor and 
respond to suspicious activities occurring on our network, 
therefore strengthening our capability to protect our critical 
information and our important industrial control systems.
    The Port Authority operates a 24/7 cyber security operation 
center that can receive and respond to threats to our network 
and equipment at any time, day or night.
    The Port Authority has its own Office of Emergency 
Management that is vital to this multi-layered protection 
approach. They lead our agency's Business Continuity Program. 
They manage and administer agency-wide security grants.
    I know the very important role for OEM is to plan and 
execute agency-wide training and full-scale exercises. These 
remarkable training programs, exclusively funded by grants that 
we receive from the Federal Government, involve both agency 
personnel and our regional first responders. To date, over 
30,000 Port Authority staff and regional partners received 
emergency response training focused on active-shooter response, 
rail emergencies, aircraft emergencies, active terrorism, and 
other natural and man-made hazards.
    Grant funding. The Port Authority maintains as a top 
priority, as evidenced by our investments in resources to make 
that purpose. Currently agency-wide, 24 percent of all 
personnel and 22 percent of the operating budget are allocated 
to security.
    The Federal grant funding programs are vital to the 
continuation of our security programs, which can never remain 
static or, even worse, fall behind against the backdrop of an 
ever-evolving threat landscape. A critical resource in this 
fight against those who wish to do us harm is this grant 
program. The funding source is essential to help us continue 
the security mission. Grant programs including but not limited 
to the Transit Security Grant Program, the Urban Area Security 
Initiative, and the Port Security Grant Program have long 
supported Port Authority security initiatives, including our 
counterterrorism initiatives, our police training and 
equipment, our World Trade Center Transportation Hub Security 
Initiatives, our cybersecurity programs, protection of our PATH 
underwater tunnels, protection of columns at the Port Authority 
bus terminal, our bollard protection, our installation of CCTV, 
and our maritime resiliency planning.
    Reducing the funding levels for these programs will have a 
direct and negative impact on the Port Authority's financial 
ability to maintain security at the necessary levels to meet 
the threat. Additionally, an increase in the period of 
performance from grant awards from 3 years to 5 years would 
allow us to plan larger-scale and more effective security 
programs.
    Also, eliminating caps on the number of projects an agency 
can apply for would be extremely beneficial. Currently, the 
Port Security Grant Program only allows for the application of 
three to five projects.
    I would also like to highlight the importance of Federal 
funding for canine teams. By screening the traveling public for 
explosives and explosive residue, canine teams provide a 
necessary layer of protection and are a critical element to the 
Port Authority counterterrorism program. As funding for these 
teams was recently called into question, we ask that the 
Federal Government reconsider reducing funding.
    The importance of information sharing and collaboration 
with our Federal partners. We have a strong working 
relationship with various Federal agencies and programs to 
include DHS Office of Science and Technology, DHS Office of 
Health Affairs with the Biowatch Program, the TSA Office of 
Requirements and Capability, DOD, DARPA's Radiation Detection 
Program, the DHS Safety Act Office. These partnerships are 
critical to the information sharing regarding emergency 
security technology and have led to the development and 
piloting of a variety of programs at the Port Authority's vast 
array of multi-modal facilities.
    These research arms of the Federal Government also need 
adequate funding to support the development and testing of 
future technologies which aim to increase the efficiency and 
effectiveness of detection devices, screening devices, police 
personal safety devices, and so on. Additionally, the ability 
for Federal entities to provide guidance on product 
capabilities will greatly aid agency decision makers in their 
selection of effective and proven technologies and equipment 
that would best protect the public and the infrastructure they 
depend upon.
    In closing, I would like to thank the Members of the 
Subcommittee on Emergency Preparedness, Response, and 
Communications and our Congressional delegation for their 
continuing support that allows us to better serve our employees 
and customers, and better protect our regional critical 
transportation infrastructure. Thank you.
    [The prepared statement of Mr. Bilich follows:]
                   Prepared Statement of John Bilich
                             April 23, 2018
                        about the port authority
    The Port Authority of New York & New Jersey conceives, builds, 
operates, and maintains infrastructure critical to the New York/New 
Jersey region's transportation and trade network. These facilities 
include America's busiest airport system, including: John F. Kennedy 
International, LaGuardia, and Newark Liberty International airports, 
marine terminals and ports, the PATH rail transit system, six tunnels 
and bridges between New York and New Jersey, the Port Authority Bus 
Terminal in Manhattan, and the World Trade Center. For more than 90 
years, the Port Authority has worked to improve the quality of life for 
the more than 18 million people who live and work in New York and New 
Jersey metropolitan region.
      port authority new york and new jersey transportation assets
    The Port Authority builds, operates, and maintains critical 
transportation and trade assets that fall under our 5 lines of 
business:
  <bullet> Aviation
  <bullet> Rail
  <bullet> Tunnels, Bridges, and Terminals
  <bullet> Ports
  <bullet> Commercial Real Estate
    Our aviation assets include 5 airports: John F. Kennedy 
International Airport, LaGuardia Airport, Newark Liberty International 
Airport, Teterboro Airport, and Stewart International Airport. The Port 
Authority airports move an estimated 125 million passengers annually.
    Our rail and surface transportation assets include the: Trans-
Hudson Rail System (PATH), George Washington Bridge, Bayonne Bridge, 
Goethals Bridge, Outerbridge Crossing, the Port Authority Bus Terminal, 
George Washington Bridge Bus Station, Journal Square Transportation 
Center, Holland Tunnel and Lincoln Tunnel. Over 115 million vehicles 
travel over PA's bridges and tunnels annually.
    Port Authority also manages ports that transport vital cargo 
throughout the New York and New Jersey region. The Port of New York and 
New Jersey is the largest on the East Coast and the third-largest port 
in the United States and moves over 3.6 million cargo containers 
annually.
    The Port Authority also owns and manages the 16-acre World Trade 
Center site, home to the iconic One World Trade Center.
 our multi-layered approach to securing our assets and protecting the 
                                 public
    To protect the Port Authority's customers, the general public, 
employees, and critical and iconic infrastructure, the Office of the 
Chief Security Officer (OCSO) utilizes a robust multi-layered security 
approach which allows for the development, implementation, and 
management of programs that preserve life and property, increase safety 
and security, and support the agency's business objectives by 
strengthening our resilience and continuity of operations. With these 
measures in place--there is no single point of failure. Our multi-
layered approach is explained in detail below.
Intelligence-Led
    The Port Authority Police Department (PAPD) implements 
intelligence-led policing to ensure our resources are effectively 
deployed to prevent potential threats to our customers, employees, and 
facilities. The PAPD has presence in 28 Federal, State, and local law 
enforcement task forces, to include: The Federal Bureau of 
Investigation Joint Terrorism Task Force (FBI JTTF) in New York and New 
Jersey which allows for shared intelligence across many agencies; the 
New York and New Jersey High-Intensity Drug Trafficking Areas (HIDTA) 
task force and the New Jersey State Police Regional Operations 
Intelligence Center (ROIC) that allows for the immediate exchange of 
important, timely, and actionable intelligence for both sides of the 
Hudson.
    Additionally, we have a dedicated Intelligence Unit that is 
responsible for preparing and distributing intelligence bulletins 
related to transportation and security, producing daily reports 
specific to domestic and global transportation issues, and 
participating in the New York Police Department's Lower Manhattan 
Security Initiative, which is a key provider of day-to-day actionable 
intelligence relative to routine conditions like large events and 
demonstrations to current and emerging threats.
    These combined resources result in the agile, flexible, effective, 
and efficient deployment of security and law enforcement resources that 
are responsive to current and developing threats and conditions.
Risk Assessments
    The protection of critical infrastructure is driven by all-hazards 
risk assessments which are performed on a regular basis to better 
understand changes in threats and vulnerabilities related to our 
facilities. Our periodic multi-hazard assessments look across all 
agency assets and prioritize our risk so we can guide our security 
investments accordingly. This risk-based approach allows for efficient 
and effective allocation of human assets and financial resources.
Police Interdiction Activities
    The PAPD is comprised of over 1,900 uniformed police officers 
operating across 13 Port Authority facilities. The department also 
includes a Criminal Investigations Bureau, Special Operations Division, 
which includes an Emergency Services Unit and a Canine Unit (K-9), and 
an Aircraft Rescue and Firefighting component at the Port Authority 
airports.
    Through visible uniformed police presence and in partnership with 
other law enforcement agencies, the PAPD suppresses crime and utilizes 
counterterrorism measures to thwart potential adversaries seeking to 
cause harm or disruption by way of an attack. PAPD also deploys high 
visibility patrols (THREAT Teams) and specialized services to enhance 
basic patrol functions utilizing intelligence-led policing concepts.
Operational Security Measures and Security Agents
    The Port Authority implements civilian security programs to 
supplement our police department activities and increase the levels of 
protection at our facilities. These programs safeguard Port Authority 
facilities from threats to physical infrastructure, unauthorized access 
to restricted areas, cybersecurity attacks, and breaches of protected 
security information.
    Additionally, the Port Authority employs over 1,400 unarmed 
Uniformed Contract Security Agents to guard our facilities and keep our 
employees and customers safe.
Technology
    A critical element of a robust multi-layered approach is the 
development and maintenance of advanced technology systems to support 
both security and resiliency. Significant investments have been made in 
the areas of Closed Circuit Television (CCTV), access control systems, 
and our perimeter intrusion detection system (PIDS). We are engaged 
with several Federal agencies to develop and pilot new and emerging 
technologies that show promise in addressing the security challenges of 
today.
    In addition, we have created a new cybersecurity program to better 
monitor and respond to suspicious activities occurring on our network, 
therefore strengthening our capability to protect our critical 
information and industrial control systems. The Port Authority operates 
a 24/7 cybersecurity operations center that can receive and respond to 
threats to our network and equipment.
Engineered Hardening Solutions
    Since September 11, 2001, we have made over $1 billion in asset 
hardening investments. Although faced with the challenge of 
retrofitting security features into existing facilities, we have 
implemented a multitude of hardening solutions such as bollard 
placement, fencing installation, tunnel and guard post hardening, 
floating barriers, facade glazing, flood mitigation systems and no 
trespassing signage. Prospectively, these protective measures are built 
into new developments or the renovations of existing assets.
Office of Emergency Management
    The Port Authority enhances resiliency, response, and recovery 
through our Office of Emergency Management (OEM). The OEM champions 
programs that provide the Port Authority with the resources, support, 
and capabilities to prepare for, respond to, recover from, and mitigate 
against all-hazards. The OEM is organized into three core mission 
areas:
    Emergency Management.--Supports the Incident Command response 
structure at Port Authority during events or incidents. Additionally, 
responsible for all-hazard planning and training for agency personnel 
and regional partners who will support our response activities to 
emergencies at our facilities located in New York and New Jersey. 
Through the use of tabletop and full-scale exercise, over 30,000 Port 
Authority staff and regional partners have been trained on such topics 
as Active Shooter response, PATH rail emergencies, terror attacks and 
other hazards.
    Grant Management.--Administers and manages all Federal and State 
Homeland Security Grants that allows us to harden our assets, invest in 
technology, initiate new programs, and provide for enhanced police 
protective services.
    Risk Management and Resiliency.--Responsible for coordinating and 
implementing the agency-wide all-hazard risk assessment and oversees 
the Port Authority Business Continuity program.
    These programs are regularly adapted to meet the needs of the Port 
Authority with an impact range that stretches from individual employee 
preparedness to agency-wide, corporate-level resiliency.
                   terrorism remains in the forefront
    With battlefield victories abroad, it is easy to think the war on 
terrorism is over and yet, we are reminded by acts of violence every 
day in this country and abroad that the fight goes on. In just a 2-
month period in late 2017, New York City experienced 2 terrorist events 
that are emblematic of the changing nature of the threat--from large-
scale, organized attacks to lone-wolf, self-initiated ones often using 
crude and/or hand-made weapons.
    On October 31, 2017, a person drove a rented pickup truck into 
cyclists and runners for almost a mile of the Hudson River Park's bike 
path in Lower Manhattan, New York City. This vehicle-ramming attack 
killed 8 people and injured 11 others. After crashing the truck into a 
school bus, the driver exited, apparently wielding 2 guns (later found 
to be a paintball gun and a pellet gun). A flag and a document 
indicating allegiance to the terrorist group Islamic State of Iraq and 
Syria (ISIS) were found in the truck. The Federal Bureau of 
Investigation (FBI) charged 29-year-old Sayfullo Saipov, who had 
immigrated to the United States from Uzbekistan in 2010, with providing 
material support for a terrorist organization.
    Roughly 6 weeks later, on December 11, 2017, a pipe bomb partially 
detonated in the subway station adjoining the Port Authority Bus 
Terminal in Midtown Manhattan, New York City, injuring 4 people 
including the suspect. This event occurred in a passageway roughly 100 
feet from the Port Authority Bus Terminal, a building through which 
roughly 250,000 commuters traverse daily. It was the courageous acts of 
our Port Authority police officers who subdued the suspect, Akayed 
Ullah, preventing him from causing further harm to our city. We are all 
extremely proud of their courage and dedication.
    These acts are an ever-present reminder that we must always 
continue to maintain a strong security posture.
             the importance of federal grants and programs
    The Port Authority maintains security as a top priority as 
evidenced by the investments in resources it makes to that purpose. 
Currently, agency-wide, 24 percent of personnel and 22 percent of the 
operating budget are allocated to security. Additionally, since 2002, 
more than $1.4 billion dollars has been spent on capital security 
projects and another $700 million in capital security projects have 
been identified for the coming years.
    The Federal grant funding programs are vital to the continuation of 
our security programs, which can never remain static or, even worse, 
fall behind against the backdrop of the ever-evolving threat landscape 
just described.
    A critical resource in this fight against those who wish to do us 
harm is the Federal grant program. This funding source is essential to 
help us in continuing the security mission.
    Grant programs including but not limited to the Transit Security 
Grant Program (TSGP), Urban Area Security Initiative (UASI), and the 
Port Security Grant Program have long supported Port Authority security 
initiatives, including:
  <bullet> Counter Terrorism Initiatives
  <bullet> Police Training and Equipment
  <bullet> WTC Transportation Hub Security Initiatives
  <bullet> Cybersecurity Programs
  <bullet> Protection of the PATH Under-River Tunnels
  <bullet> Protection of Columns at the Port Authority Bus Terminal 
        (PABT)
  <bullet> Bollard Protection Initiatives
  <bullet> Installations of CCTV and Access Control Systems at PATH, 
        Ports, and the PABT
  <bullet> Maritime Resilience Planning
    Reducing the funding levels for these programs will have a direct 
and negative impact on the Port Authority's financial ability to 
maintain security at the necessary levels to meet the threat.
    Additionally, an increase in the period of performance for grant 
awards from 3 years to 5 years would allow us to plan larger-scale and 
more effective security projects.
    Also, eliminating caps on the number of projects an agency can 
apply for would be extremely beneficial. Currently, the Port Security 
Grant Program only allows for applications of 3 to 5 projects.
    I would also like to highlight the importance of Federal funding 
for canine teams. By screening the traveling public for explosives and 
explosive residue, canine teams provide a necessary layer of protection 
and are a critical element to the Port Authority counterterrorism 
program. As funding for these teams was recently called into question, 
we ask that the Federal Government reconsider reducing funding.
   the importance of information sharing and collaboration with our 
                            federal partners
    The Port Authority understands the importance of maintaining strong 
relationships with our Federal partners, to include:
  <bullet> DHS Office of Science and Technology (DHS S&T)
  <bullet> DHS Office of Health Affairs (BioWatch Program)
  <bullet> TSA Office of Requirements and Capabilities Analysis (TSA-
        ORCA)
  <bullet> DOD Defense Advanced Research Projects Agency (DARPA)
    These relationships are critical to information-sharing regarding 
emerging security technologies and have led to the development and 
pilot of a variety of programs at Port Authority's vast array of multi-
modal facilities.
    These research arms of the Federal Government also need adequate 
funding to support the development and testing of future technologies 
which aim to increase the efficiency and effectiveness of detection 
devices, screening devices, police personal safety devices, and so on.
    Additionally, the ability for Federal entities to provide guidance 
on product capabilities will greatly aid agency decision makers in 
their selection of effective and proven technologies and equipment that 
would best protect the public and the infrastructure they depend upon.
                            closing remarks
    In closing, I would like to thank the Members of the Emergency 
Preparedness, Response and Communications subcommittee for inviting me 
to testify on behalf of the Port Authority of New York and New Jersey 
regarding this critical topic of protecting our passengers.
    The Port Authority operates the busiest and most important 
transportation facilities in the region; as such, we take on the 
tremendous responsibility of maintaining safety and security. The Port 
Authority will continue to make enhancements to its policing and 
security programs and systems in an effort to stay current and adapt to 
the ever-changing threat landscape. I would like to thank our 
Congressional delegation for their continuing support that allows us to 
better serve our employees and customers and better protect our 
regional critical transportation infrastructure.

    Mr. Donovan. Thank you, Chief.
    The Chair now recognizes Director Maples.

  STATEMENT OF JARED M. MAPLES, DIRECTOR, OFFICE OF HOMELAND 
         SECURITY AND PREPAREDNESS, STATE OF NEW JERSEY

    Mr. Maples. Chairman Donovan, Ranking Member Payne, and 
Representative King, thank you for the opportunity to testify 
before you today. I am honored to speak on behalf of the 
dedicated professionals of the New Jersey Office of Homeland 
Security and Preparedness, who are working tirelessly to ensure 
the safety and security of the State of New Jersey, with 
responsibility to lead and coordinate New Jersey's 
counterterrorism, cybersecurity, and emergency preparedness 
efforts.
    Today my remarks will focus on the work we are doing in New 
Jersey under Governor Murphy's leadership to reflect national 
priorities while building local capabilities to address risk 
and protect our communities. I will also discuss the resources 
necessary to maintain our ability to meet a constantly-evolving 
threat landscape, our preparedness needs, and the importance of 
partnerships, vertical integration, and continuous improvement.
    DHS has prioritized identifying and mitigating National 
systemic risk. As we prioritize our efforts, we must look to 
the essential functions and systems that are vital to the 
safety and security of our communities. At all levels of 
government, we must work together in partnership and continue 
to evolve our focus. In doing so, we must ensure that resource 
investments reflect National trends and priorities and not rely 
on constrained methods of analysis and allocation.
    States continue to build capabilities that address their 
distinctive risk factors. Those factors contribute to the 
Nation's risk profile. In New Jersey, we have a number of risks 
inherent to the region that make its security important not 
only for its residents and visitors, but also to the entire 
country. Our geographic location, involvement in financial 
markets, transportation infrastructure, and population density 
are all characteristics vital to the State, region, and 
National profile.
    As threats evolve, so do tactics. Recently we have seen an 
evolution toward the use of unsophisticated methods to cause 
mass harm. This paradigm shift requires a move to rethink 
priorities at the strategic level to ensure the right 
capabilities are built to prevent, protect against, respond to, 
and recover from acts that are difficult to predict but easy to 
execute. Such ease of operation highlights a need for first 
preventers, as well as first responders.
    In New Jersey, we have established cyclical programs 
founded in risk management principles to identify missing 
capabilities, triage and build the capabilities we need, teach 
and test them with our partners, and evaluate the process to 
begin again. We do this in all 21 counties of New Jersey. These 
programs build relationships, a holistic understanding of 
interdependencies and common vulnerabilities, and an awareness 
of capabilities available to identify and mitigate risk. 
However, these programs can only go as far as the resources 
available to them.
    My office serves as the administrator of all Homeland 
Security Grant Program funding for the State of New Jersey, the 
principle purpose of which is to build, sustain, and deliver 
National preparedness capabilities essential to achieving the 
National Preparedness Goal at the local level. Aside from 
financial support to buy down risk, DHS and FEMA have provided 
support to our efforts through both technical assistance and 
piloted programs.
    Of course, the most tangible support to States from the 
Federal Government to buy down risk is funding. In Federal 
fiscal year 2017, New Jersey was allocated approximately $8 
million in State Homeland Security Grant Program funding and 
approximately $20 million in Urban Area Security Initiative 
funding for the Jersey City/Newark area. We understand that 
resources are finite; thus, we strive to leverage funding both 
efficiently and effectively, knowing that spending the funds we 
are provided in a strategic, prioritized way can substantially 
buy down risk.
    Looking toward the future, our efforts to enhance 
capabilities through strategic planning and proper stewardship 
of grant funds will continue to support our dynamic risk 
environment.
    The threats we face are not static, so the methods we use 
to evaluate them and allocate resources cannot be either. We 
must be forward-leaning to create cyclical programs that 
continuously improve upon our preparedness.
    Over the past 14 years, the stream of funding has created 
some reliance among the States. While initially designed to 
provide a capital infusion of funding for target capabilities 
after September 11, 2001, Federal Homeland Security Grant funds 
are now a resource on which many States and urban areas rely to 
sustain core capabilities. This reliance, combined with any 
downward variation in funding levels, creates a significant 
impact not only on a State's ability to pursue new 
capabilities, but simply the ability to maintain current ones.
    DHS and FEMA have prioritized strengthening grants 
management, increasing transparency, and improving data 
analytics. We welcome continued discussions on current funding 
allocation methods and innovative ways to incentivize further 
capability building among States.
    Chairman Donovan, Ranking Member Payne, and distinguished 
Members of the subcommittee, I thank you again for the 
opportunity to testify today. By acting together, and with the 
necessary resources available, we will continue to adapt to 
meet the current threat environment and effectively prepare for 
the future. I look forward to your questions and yield back to 
the Chairman.
    [The prepared statement of Mr. Maples follows:]
                 Prepared Statement of Jared M. Maples
                             April 23, 2018
                              introduction
    Chairman Donovan, Ranking Member Payne, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I am honored to speak on behalf of the dedicated professionals 
of the New Jersey Office of Homeland Security and Preparedness, who are 
working tirelessly to ensure the safety and security of the State of 
New Jersey.
    My office develops policies, analyzes trends, shares information, 
and enhances capabilities to prevent, protect against, respond to, and 
recover from natural and man-made incidents. Our strategic activities 
observe the tenets of the National Preparedness System, while our 
implementing activities strive to build capabilities identified in the 
National Preparedness Goal. We undertake our mission in steadfast 
cooperation with other State agencies, including the New Jersey State 
Police, and with our many local government partners, including those in 
the Jersey City-Newark Urban Area.
    Today, my remarks will focus on the work we are doing in New Jersey 
under Governor Murphy's leadership to reflect National priorities, 
while building local capabilities to address risk and protect our 
communities. I will also discuss the resources necessary to maintain 
those programs and continue to meet a constantly-evolving threat 
landscape, our preparedness needs, and the importance of partnerships, 
vertical integration, and continuous improvement.
                     reflecting national priorities
    The U.S. Department of Homeland Security (DHS) has prioritized 
identifying and mitigating National systemic risk. As we prioritize our 
efforts, we must look to the essential functions and systems that are 
vital to the safety and security of our communities.
    At all levels of Government, we must work together in partnership 
and continue to evolve our focus. In doing so, we must ensure that 
resource investments reflect National trends and priorities, and do not 
rely on constrained methods of analysis and allocation.
    Partnerships, both vertical and horizontal, are a foundational 
component of securing our communities, the essential functions 
contained within, and our collective infrastructure systems. They allow 
for formalized mechanisms of information sharing, coordination, and 
deconfliction of efforts. Our partnerships provide beneficial leverage 
for limited resources and ensure investment through coordination.
    DHS and the Federal Emergency Management Agency (FEMA) have 
prioritized building a culture of preparedness and readying the Nation 
for catastrophic incidents. In New Jersey, we have adopted several 
Federal initiatives, like the Hometown Security Initiative, to strive 
for these goals, empowering whole communities to build their own 
capabilities and strengthen resilience from the bottom up.
                         building capabilities
    States continue to build capabilities that address their 
distinctive risk factors. Those factors contribute to the Nation's risk 
profile. In New Jersey, we have a number of risks inherent to the 
region that make its security important not only for its residents and 
visitors, but also to the entire country. Our geographic location, 
involvement in financial markets, transportation infrastructure, and 
population density are all characteristics vital to the State, region, 
and National profile.
    As threats evolve, so do tactics. Recently, however, we have seen 
an evolution toward the use of unsophisticated methods to cause mass 
harm. This paradigm shift requires us to rethink priorities at the 
strategic level to ensure the right capabilities are built to prevent, 
protect against, respond to, and recover from acts that are difficult 
to predict, but easy to execute. Such ease of operation highlights a 
need for first preventers, as well as first responders.
    In New Jersey, we have established cyclical programs founded in 
risk management principles to identify missing capabilities, triage and 
build the capabilities we need, teach and test them with our partners, 
and evaluate to begin the process again. We do this in all 21 counties 
of New Jersey.
    Through New Jersey initiatives such as the Domestic Security 
Preparedness Task Force, we have created and manage programs that 
address risks, recognizing inherent risk factors that may cause 
cascading effects across the State, region, and Nation. The Task Force 
is a statutory body that was created after September 11, 2001 to 
coordinate emergency preparedness efforts across agencies, industries, 
and disciplines in New Jersey.
    These programs build relationships, a holistic understanding of 
interdependencies and common vulnerabilities, and an awareness of 
resources available to identify and mitigate risk. Together, these 
programs are designed to reach private and public-sector decision 
makers as well as local stakeholders.
    Since I began serving as director, we have created a number of new 
capabilities-based programs. We focus significant efforts toward 
helping the private sector build the capabilities it needs to 
contribute to the strength and resilience of the State. We recognize 
that common vulnerabilities exist across multiple sectors of the 
State's economy and infrastructure, and we strive to leverage resources 
to most efficiently increase capabilities to mitigate these common 
risks.
    Other capability efforts, like the supply chain resilience program, 
which was developed in partnership with FEMA to identify 
vulnerabilities in individual supply chains, single points of failure 
across supply chains, and the consequences of those systems failing, 
were developed to ensure vertical integration of New Jersey into 
National priority risk areas. This integration will help New Jersey 
mitigate risk to nodes vital to both local and National supply chains.
    Still others, like our mass gathering resilience program, address 
common vulnerabilities at locations where people gather, and recommend 
resource investment strategies to reduce risk. With shared, common 
vulnerabilities, mass gathering locations are often unfortunately the 
primary target for actors looking to cause as much harm as possible. 
Which is why we are looking for ways to demonstrably reduce the risk of 
successful attacks on soft targets, by taking a whole-of-Government 
approach to engage with the private sector and develop solutions.
    However, these programs can only go as far as the resources 
available to them.
                            buying down risk
    My office serves as the administrator of all Homeland Security 
Grant Program funding for the State of New Jersey. The principle 
purpose of which is to build, sustain, and deliver National 
preparedness capabilities essential to achieving the National 
Preparedness Goal established under Presidential Policy Directive 8.
    We also prepare the State's Threat and Hazard Identification and 
Risk Assessment (THIRA) and the State Preparedness Report (SPR), which 
are recurring requirements from FEMA. The THIRA/SPR process helps the 
State assess core capabilities and ensure that resources, such as 
trainings and exercises, are provided based on priorities and the areas 
of greatest need. This effort presents a unique opportunity for the 
State to identify, analyze, and manage the risks we face based upon the 
32 core capabilities, but also allows us to ensure vertical integration 
and awareness with Federal, State, and local partners.
    Aside from financial support to buy down risk, DHS and FEMA have 
provided support to our efforts through both technical assistance and 
piloted endeavors. For instance, FEMA's National Training and Education 
Division shared its National Training and Education System (NTES) tool 
with New Jersey, allowing us to replicate their systematic, data-driven 
methodology to measure and focus training programs. This tool helps 
analyze the training programs used to build identified capabilities, 
summarizing progress and highlighting capability areas that may need 
attention while validating what is reported in the SPR.
    Of course, the most tangible support to States from the Federal 
Government to buy down risk is funding. In Federal fiscal year 2017, 
New Jersey was allocated approximately $8 million in State Homeland 
Security Program funding and approximately $20 million in Urban Area 
Security Initiative for the Jersey City--Newark area. We understand 
that resources are finite; thus, we strive to leverage funding in the 
most efficient and effective ways, knowing that spending the funds we 
are provided in a strategic, prioritized way can substantially buy down 
risk.
    We use our grant funding in a variety of ways to support activities 
including the State's fusion center, equipment for first responders, 
cybersecurity, and planning personnel. When the opportunity arises, we 
pursue competitive initiatives such as the Complex Coordinated 
Terrorist Attacks program to build capabilities for these very focused 
and specific risk areas. Looking toward the future, our efforts to 
enhance capabilities through strategic planning and proper stewardship 
of grant funds will continue to support our dynamic risk environment.
                         continuing to innovate
    The threats we face are not static, so the methods we use to 
evaluate them and allocate resources cannot be either. We must be 
forward-leaning to create cyclical programs that continuously improve 
upon our preparedness.
    However, over the past 14 years, the stream of Federal funding has 
created some reliance among States. While initially designed to provide 
a capital infusion of funding for target capabilities after September 
11, 2001, Federal homeland security grant funds are now a resource on 
which many States, and urban areas, rely to sustain core capabilities. 
This reliance, combined with any downward variation in funding levels, 
creates a significant impact not on States' ability to pursue new 
capabilities, but simply the ability to maintain current ones.
    As we move forward in partnership, at all levels of government, 
toward the same goal of security, we in New Jersey are committed to 
continued innovation to build capabilities and reduce risk. DHS and 
FEMA have prioritized strengthening grants management, increasing 
transparency, and improving data analytics. We welcome continued 
discussions on current funding allocation methods and innovative ways 
to improve and incentivize further capability building among States.
                               conclusion
    Chairman Donovan, Ranking Member Payne, and distinguished Members 
of the subcommittee, I thank you again for the opportunity to testify 
today. By acting together, and with the necessary resources available, 
we will continue to adapt to meet the current threat environment and 
effectively prepare for the future. I look forward to your questions.

    Mr. Donovan. Thank you very much, Director.
    I say this at every hearing that we conduct, that we don't 
waste witnesses' time. This committee, every hearing that we 
have held, we have had a product come out of it from the 
testimony of all witnesses.
    Chief, Don hosted us in a field hearing back last year when 
we talked about transit grants, and one of the issues that came 
up was the ability to perform within the 3-year time period of 
the grant, and I passed legislation in the House that extends 
that now to 4 years, and we are waiting for the Senate to act 
on that. So your testimony is invaluable to us, and we will act 
on it.
    I would like to ask all of you--I have specific questions, 
but I would like to ask all of you how can we help better? What 
are the obstacles that you see in dealing with the Federal 
Government? What are the regulations, the things that are in 
place, that are obstructing you from doing your job better? 
What are the things that we don't have in place that you would 
like to see come to fruition to allow you to protect our city 
and, in turn, our entire Nation better than you already do? You 
do an incredible job already.
    Mr. Esposito. I will start. The cooperation that I see with 
the Federal Government, the State, the city, it has never been 
better, and keeping that funding going would be the most 
important thing. But the funding that we do get, again, it is 
50 percent of my operating budget, very important to maintain 
it. If we were to lose part of that, I would have to close some 
of my doors. I mean, as I said earlier, 70,000 people we can 
supply for 7 days. That is something directly related to the 
grants.
    Originally when those grants came out, a lot of the 
agencies bought a lot of new equipment, the maintenance of 
that. But there was a limit on the percentage of money to be 
spent on personnel. At this point in the grant process, I think 
it would be helpful, I know for my agency, if we could stretch 
that a little bit, instead of keeping it at 50 percent, be able 
to spend a little more on personnel. We do the maintenance of 
the equipment, so we would like to maybe hire some more people. 
We are doing more, and we need people to do some of those 
things. So if we could adjust that a bit, we would appreciate 
that.
    Also, maybe be able to put some of the money to capital 
projects. My agency, and I know their agencies, are always 
growing. We could use more space. A lot of times the city does 
not have the money to expand our buildings, our facilities. I 
maintain three warehouses, one in Long Island, one in Jersey, 
and one in Brooklyn. If we could use some of that money for 
capital projects, extending my building or some of these 
factories, that would be very helpful.
    Mr. Donovan. Thank you.
    Mr. Bilich. I would just like to add a little different 
than the funding stream, more of a formalized relationship with 
DHS science and technology and the TSA as it relates to 
emerging technology, what works. We go through a very time-
consuming process of looking to identify technology, and then 
we go through the very cumbersome process of procuring it, and 
then, of course, implementing it.
    As Congressman King had mentioned earlier, the whole notion 
that we have tremendous throughput through open transportation 
facilities, we have a multi-layered approach in looking to 
safeguard folks, but detection types of capabilities that are 
now being developed, while maybe not at light speed, is 
something that we would like to be in front of. Frankly, I 
think the vetting of that and the trial and error should be 
done at the Federal level and then identified to the locals to 
implement, rather than all of us individually looking at all 
the different types of things that are out there.
    Mr. Miller. I would like to pick up on the shoulders of 
both of my colleagues, which is I don't want to spend too much 
time on money because it always boils down to grant funding, 
but our grant funding has been reduced a little bit at a time 
every year, and our threat picture has not been reduced. It is 
actually more changed and increased in many measures.
    Aside from the funding, we are facing additional challenges 
that call for increased research, development, technology, all 
of which costs money, but also potentially legislation. One 
area which I do not need to introduce the committee Members in 
detail to is encryption. We are in a place where we are 
increasingly finding that we are going darker and darker, to 
the point where we are already dark on communications between 
terrorist groups, because communications providers and hardware 
manufacturers who make the telephones have designed them in 
such a way that no legal process, no order from a New York 
State Supreme Court justice, or a Supreme Court justice of the 
United States, can grant the access that for over 250 years in 
this country has been available to judicial process from an 
independent court with probable cause. This is an increasing 
factor in investigations where we have come, possibly as a 
victim of our own success, to be expected to prevent these 
terrorist acts before they happen.
    Another area is the area of drones. Increasingly, we are 
seeing terrorist groups overseas not only experiment with but 
execute deadly operations using drones or unmanned aerial 
vehicles. There are increased numbers of civilian sales across 
the country, and while in New York we have laws because of the 
type of air space we are in between three airports that govern 
the use of drones, we have few paltry tools to prevent the use 
of drones in a terrorist attack. Legislation that would allow 
for that has not been forthcoming.
    Right now, if we had the technology, say working with DHS 
science and technology, to develop ways to take over a drone--
disable it, land it, or otherwise control it--that would be 
considered air piracy under the current statutes, even if 
executed by a legitimate law enforcement agency like the New 
York City Police Department.
    So I think we need to take a hard look at these things. It 
will be easy to pass this law, to focus on this legislation, to 
develop this technology after an incident using a drone as a 
weapon occurs on U.S. soil. We have already seen it overseas. I 
think it would be worth all of our time to focus on this while 
it is still hard on the idea that, in the long run, that may be 
easier.
    Mr. Pfeifer. The value of grant money is that we can think 
about the next attack. Too often, when we think about grants, 
it is how do you maintain what you have, how do you do what 
everybody else is doing. But that is not enough. As John talked 
about, about drones, what does that next type of attack look 
like? By maintaining the grants, it allows us to think that way 
and share that information across other jurisdictions.
    One of the areas that we are thinking about at great length 
and working with the partners at this table is cyber attack. 
Too often we think of a cyber attack as just a bunch of people 
on a keyboard causing havoc. Well, what we are considering now 
is a cyber attack with physical consequences, physical effects. 
So as we move forward, that is our next challenge and why we 
need support from the Federal Government, that we are able to 
not only manage the cyber side of the attack but also the 
physical effects.
    I think, Congressman Payne, your comments earlier that 
homeland security is just as important as military budgets, I 
think that moving forward, as we think about the value of grant 
funding, it is protecting the homeland, and the budgets also 
protect our military folks overseas.
    Mr. Bilich. Just one other thing I wanted to add. The 
importance of the continuation of funding, many have spoken 
about the evolving threat. We have spent over $100 million on 
bollards, but it was all about the VBIT threat. Then, of 
course, after the most recent events have happened both abroad 
and just at the doorstep of the World Trade on the West Side 
Highway, we had to take another look and we initiated three 
additional projects, because it is the new threat, and that is 
going to continue to happen. So the continuation of what is 
available and the nimbleness in that money to be able to adjust 
is paramount.
    Mr. Maples. I would put a fine point on all these 
gentlemen's comments and just say I think providing incentives 
for innovation, which I mentioned in my comments, as far as 
ability to create and enhance those programs to get out ahead 
and prevent are going to be vital going forward. That is the 
flexibility in how grant guidance goes out, what we can do 
within the grant programs themselves with DHS and FEMA I think 
are going to be huge pieces, and I would echo that partnership 
from Jersey's perspective. It really is regional. Any of the 
attacks that have been referenced have had some nexus to New 
Jersey. Sayfullo Saipov, for example, rented the truck in New 
Jersey for the West Side Highway.
    So we want to make sure we have the ability to work within 
the region and coordinate directly. We have fantastic 
partnerships from the Federal to the local level. Commissioner 
Miller and I were together just a couple of days ago, actually, 
on Friday, and those partnerships get us through these issues. 
But we can do more to focus the funding innovation together on 
the front end to get out ahead of them.
    Mr. Donovan. Thank you, Director.
    The Chair now recognizes the Ranking Member, Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman.
    Just to piggyback on Mr. Maples' point just now, we are 
just linked by commonality between the two areas. It is just a 
fact of life. With the first attempt to take down the Towers 
from the bottom, the terrorists that perpetrated that were 
living in Maplewood, New Jersey, in my district, before they 
attempted that attack. So we are always going to be linked in 
this commonality around security.
    Let me ask you, Mr. Maples, the grants under the Urban Area 
Security Initiative and the State Homeland Security Grants 
Program are determined, in part or in whole, by FEMA's risk 
assessment. Do you believe that the risk assessment formula and 
the methodology provided an accurate assessment of the risk in 
New Jersey?
    Mr. Maples. I would say for the most part, yes, but there 
is definitely room for improvement. You mentioned the word 
``transparency,'' and when I look at the qualitative 
measurement of the risk inherent to the algorithm, I think 
there is probably some more room for transparency, and also 
inclusion of those regional issues we talked about.
    We really can go down the list of all these incidents that 
have happened, and there has been a nexus--whether they be 
planned, trained for, attacked from, rented, whatever the issue 
may be--in New Jersey, and I think it would definitely be more 
beneficial to have a little bit more transparency into that 
problem itself, the computation of those risks and how we 
actually approach them.
    So I think while our threat level has remained somewhat 
static--Tom DiNanno mentioned that we went from 7 to 6, or 6 to 
5 on that last draft--I would say I don't know that that is 
fully represented in what we are risking or what we are dealing 
with in New Jersey. We are members of the executive and also to 
the detective level of the JTTFs in Newark, New York, and 
Philadelphia. So we actually have this broad brush across this 
region that is a little bit different and very unique across 
the country, and I think it would be beneficial to show that 
regional approach in the funding allocation as tied to the risk 
assessment.
    Mr. Miller. Mr. Ranking Member, I think just to expand on 
that--and far be it from me as the representative from the NYPD 
to lobby for money for New Jersey----
    [Laughter.]
    Mr. Donovan. You are always welcome to.
    [Laughter.]
    Mr. Miller. Well, my real point is it is an important 
partnership, because the partnership between New Jersey's 
Office of Homeland Security and Emergency Preparedness, as well 
as the Newark JTTF, and New York City is seamless. As you point 
out, the 1993 World Trade Center bombers operated from New 
Jersey, built the bomb in New Jersey, lived in New Jersey, 
leveraged a New Jersey chemical company to buy the components 
to make that bomb.
    But if you look at the 9/11 attackers, a full cell of 9/11 
pilots and operators lived and trained in New Jersey, having 
apartments in Patterson. Mr. Almonte and Mr. Alessa, both of 
whom tried to join a designated foreign terrorist organization, 
al-Shabaab, were right across the river in New Jersey while 
discussing and plotting attacks there, and in New York City. 
The West Side attacker who drove that pick-up truck, Sayfullo 
Saipov, lived in Patterson, New Jersey as well. The Chelsea 
bomber, Ahmed Rahimi, came out of the Perth Amboy/Linden area, 
where he was captured in a shoot-out with Linden, New Jersey 
police officers who knew of his description.
    So I think when we factor the New Jersey piece in, in terms 
of targets, it may not be as rich a target environment as New 
York City in some ways, though it has public transportation and 
urban areas, but you cannot separate it within this UASI from 
the New York threat. History has told us that over and over 
again, which is the attack may be more likely in New York City, 
but it is also more likely that the plotting and the planning 
of that attack may not be.
    Mr. Payne. Thank you.
    I will yield in the interests of time and maybe come back.
    Mr. Donovan. Certainly. The gentleman yields.
    The Chair recognizes Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    Seeing Mr. Miller, Mr. Pfeifer, Mr. Esposito, it is like 
old home week, except that the threats are still there. They 
are different threats after all these years. Mr. Bilich, you 
are with the NYPD.
    So I guess I would ask how receptive you find the Federal 
Government to listening to what you have to say. The reason I 
ask that is every year, when we say $300 million cut from UASI 
and all these numbers, it seems like we are going through the 
same motions every year.
    Do you have an audience down there? Do you have people who 
are receptive? I am not saying they have to agree with you on 
everything, but do you have an on-going dialog as these threats 
are changing? I mean, the threats today, there is still al-
Qaeda, ISIS, those threats, but the nature of the threats are 
changing every month, every year certainly. Do you have an 
audience?
    If I could go to Mr. Miller, I will call him by his first 
name.
    Commissioner.
    [Laughter.]
    Mr. Miller. I am glad we are so informal.
    [Laughter.]
    Mr. Miller. We have always had a hotline to DHS under 
successive secretaries. We have been able to meet personally 
with the DHS Secretary. The DHS Secretary will be in New York 
this week at the Leadership and Counterterrorism Conference, 
where we will have a separate audience with her to pass on 
those concerns, although typically, as I am sure you are aware, 
our communications with DHS are crystal clear, and because of 
their intelligence and analysis function, they are read into 
the threat. It is not that they don't understand the threat.
    To us, the hazard can always be when that leaves DHS and 
goes into the Office of Management and Budget, sometimes it 
doesn't come out the same way it went in.
    Mr. King. If I could just interrupt you there, if I would, 
and I am not trying to create a feud. I already have one with 
Mulvaney. How much of this problem comes from Management and 
Budget as opposed to Homeland Security? I am not trying to put 
you on the spot with them. But, I mean, Mulvaney is out to 
screw New York whenever he can, and is this another 
manifestation of it?
    Mr. Miller. Well, this has always been a challenge for us, 
and it started with the first discussions about reimbursing New 
York City for the extraordinary efforts around the protection 
package for Trump Tower before the election and after the 
election.
    So, from where I sit, I do not fully understand the 
internecine battles or the strange machinations that occur 
between an Executive branch agency, the Office of Management 
and Budget, and our appropriators, but I do appreciate this 
committee's understanding of those and their voice for us in 
those discussions to fight to keep those appropriations where 
they should be, because you as well understand the dynamics of 
this threat environment, which are extreme.
    Mr. King. Since we are on a first-name basis, Chief?
    [Laughter.]
    Mr. Pfeifer. Just to follow up with John, the relationship 
with DHS, and particularly intelligence and analysis, we have 
this back and forth collaboration. We actually do a secure CVIT 
on a regular basis, and that is important.
    I think what you are seeing here is that, with the people 
at the table, with the people down in the District of Columbia, 
that we are creating this network fusion of information. It is 
no longer this one agency and they do all the work. It is this 
fusion that comes among the people at this table, some of the 
people from the last panel with the FBI. It is sharing 
information, sharing intelligence, and challenging each other 
to look at the problem from different perspectives.
    Now, when it comes to the Office of Management and Budget, 
that is a little different. That is more of a political fight 
or a political challenge between the city and the Federal 
Government which we are always looking to limit those cutbacks, 
because the work we have to do is tremendous, and it is not 
stopping.
    Mr. King. Mr. Esposito.
    Mr. Esposito. Look, I think we will see what comes out of 
this committee to see if we are heard or not. But I think we 
are being heard, for the most part. Just to give you an 
example, we use the wireless emergency alert system. It has 
only been in place since 2012, but we only used it in New York 
8 times. We used it during a couple of snowstorms, during 
Hurricane Sandy, but most recently during the Chelsea bombing, 
and it worked well, but we had some limitations to it. We 
brought those limitations to your attention, and we made some 
changes.
    So we are being heard. We think there are more changes that 
could be done with that. We are going to be a lot more 
effective. But I think the work of this committee goes a long 
way in having us being heard in the District of Columbia, so I 
want to thank you for that.
    Mr. King. I think last year the committee did almost double 
the amount of UASI funding that was requested by the 
administration.
    Mr. Bilich.
    Mr. Bilich. Yes, sir. I would say that the relationship 
with DHS is very strong, very receptive to our needs, 
particularly as it relates to our concerns with both the 
sharing of information related to security technology and so 
on. When it comes to the actual grants, the question that you 
posed, I am always a bit perplexed at how we don't get things. 
I mean, I think all our applications are data-driven. They are 
based on risk. I think we have the highest risk in the Nation 
in our area. So anytime we get less than what we ask for, I 
think that they are not using the same methodology that we are.
    Mr. King. Mr. Maples.
    Mr. Maples. First of all, my background, I came from CIA, 
spent most of my career there, and one of my mentors said to me 
when I first started that you should build relationships like 
your life depends on it, because it does. I would say in New 
Jersey, certainly, we are bringing that to the table, and that 
goes from the Federal down to the local level.
    In my experience over the last 9 months that I have been 
the director, our relationship with DHS has been good. We 
definitely don't always agree on everything, but I have noticed 
some reception. We are having the engagement and conversation, 
and that is a big start in addition to being able to appear 
before you distinguished gentlemen to have this conversation 
and let us voice our concerns, but then also open our arms and 
let us say we are here and want to make sure we participate in 
partnership as well.
    Mr. King. If I could just say in closing, I have been with 
the committee now the whole 15 or 16 years, whatever it is. I 
think Don and Dan would agree with me, that when you look at 
the rest of the country, nothing compares to New York and New 
Jersey. You take the whole New York region, the Jersey region, 
they are doing together probably more than the rest of the 
country combined as far as local and State efforts. So I want 
to thank all of you and your agencies and departments for the 
work you do. Thank you.
    Mr. Donovan. Maybe do a lightning round, one question each, 
and I think I know the answer to this, but I would love to get 
it on the record.
    In 2012, Congress created FirstNet, which would require 
emergency responders to get off the T-Band by 2020 so they 
could auction off the T-Band. I understand this is an 
incredible risk doing this, to our public safety. It is an 
incredible expense and effort that would have to be undertaken 
by our emergency responders.
    Can you just, in 30 seconds each, tell me how this 
requirement of your communications, getting off of T-Band and 
onto FirstNet, will affect the public safety?
    Mr. Miller. I think, first of all, getting off of T-Band, 
we have nowhere to go that offers that same capability. 
FirstNet isn't ready. FirstNet isn't capable of delivering what 
we have on T-Band now. It can deliver other things, but picture 
it as if somebody said your headquarters is decrepit and not up 
on technology and we are going to move you into a brand-new 
building, and then they said this will be the date you will 
move out, and the brand-new building wasn't there and it wasn't 
ready and it didn't have anything in it. That is the position 
we are being put in by the idea that there is this impending 
deadline coming up where we are going to have to leave this 
real estate within the radio band where there is no guarantee 
on the other side that there is anything capable for a major 
urban area like New York City, or even smaller major urban 
areas, that can handle the kinds and types and volume of radio 
traffic, push to talk, voice communications, and so on.
    The new system would rely on things like Wi-Fi, things like 
fiber, but things that have failed in multiple disasters. If 
you look at everything from 9/11 to the Northeast blackout, 
pick your disaster, the one thing that has always held up in 
New York City, when everything else broke down, was our radio 
system. Until we see something that has equal or greater 
capability, we need to stick with what we have.
    Mr. Donovan. Thank you.
    Chief, quickly.
    Mr. Pfeifer. I would second that, too. Our communications 
is critical. We need to be able to talk to each other, and to 
go to a system that is not proven is not only very difficult 
but it is a great risk. So we are skeptical on making that 
transition unless we can prove it out.
    Mr. Donovan. Mr. Esposito.
    Mr. Esposito. I mean, look, I was involved with this in my 
prior life with the FirstNet a long time ago, and not much was 
said about giving up T-Band back then. It was a great system. 
It is going to let us communicate Nation-wide, all the 
emergency responders. It is a terrific piece of equipment, but 
we just can't give up the T-Band. That is how we communicate 
now, especially with these folks, and they wouldn't be able to 
communicate properly if we give up the T-Band. So we just can't 
do that.
    Mr. Donovan. Effect on public safety, Chief?
    Mr. Bilich. Not much more I could add. We have the same 
concerns.
    Mr. Donovan. Thank you.
    Mr. Ranking Member.
    Mr. Payne. Thank you, Mr. Chairman.
    Really quickly, even with your organizations receiving 
grant funding, we know that there are still quite a few unmet 
needs. What are the security-related needs that currently go 
unmet, and what are the funding gaps in FEMA's preparedness 
grants? If you could quickly give one example.
    Mr. Miller.
    Mr. Miller. I think one of the critical areas we face has 
already been covered by the discussion today in the earlier 
panel and here, which is we have a massive transit system that 
carries 5.6 million people a day. If it were a major city, it 
would be a huge American urban area. Yet, it is extraordinarily 
safe in that we have about one index crime there a day, so very 
safe from crime, very well-policed.
    But mass transit has been a favorite target of terrorists. 
I don't need to enumerate the plots. I know you all know those 
from your work. It is a place where we are always looking to 
build capability. But because of the size and complexity of the 
system, it would require additional assistance.
    Mr. Payne. Thank you.
    Chief.
    Mr. Pfeifer. The concern that I have is mass transit 
because it is always a concern with such large amounts of 
people. But the concern that was brought up earlier is our 
high-rise buildings, because they hold massive amounts of 
people, and that is what we are really concerned about, that 
this could be the next 9/11 type of attack. So we need support 
from the Federal grants to look into it, develop procedures, 
and to share those procedures across the country.
    Mr. Payne. Thank you.
    Mr. Esposito. I said it earlier, just some of the 
restrictions that are on some of the spending of the money. We 
have the equipment. We can always use new equipment when new 
things come up, but a little bit of flexibility in how we can 
spend it with the personnel, and maybe some money to go to some 
capital improvements.
    Mr. Bilich. Our facilities are--we have this mix of both 
new and old, and the area itself is old, and there is a lot of 
aging infrastructure. The ability to sort of continually harden 
that, we have made a tremendous investment in doing that, but 
there is still a ways to go. As it relates to the new 
facilities that we are building, the capital security elements 
are baked into the design, and that also probably ups the cost 
by about 30 percent. So the recognition that we have these 
older types of facilities that we have to secure, and it is 
going to be--our region is an older region than other areas of 
the country. So I think that is an important part of it.
    Mr. Maples. I would just continue to emphasize the point of 
innovation. So we need to maintain the capabilities but then 
also the ability to innovate as threats emerge and evolve, 
cyber being a huge one that was mentioned in the last panel as 
well. There are emerging threats that are out there that we 
have to be able to invest in up-front to try to get ahead of 
those problems, items like mass gatherings, vehicles ramming 
soft targets, those kinds of issues. We want to make sure we 
hit head-on, up-front, and be able to innovate into those 
areas--training, exercise, awareness.
    I want to make sure we mention the Suspicious Activity 
Reporting System. It has been very effective in New Jersey. I 
want to do more. I want to innovate throughout that process.
    That is where I would finish up.
    Mr. Payne. Thank you.
    I will yield back.
    Mr. Donovan. Thank you, Mr. Payne.
    The Chair recognizes Mr. King.
    Mr. King. All of you heard enough from me over the years. I 
just want to thank you for your testimony today, thank you for 
the great work you do, and ask you to continue to do it. Thank 
you very much.
    Mr. Donovan. That is why he is the distinguished former 
Chair.
    [Laughter.]
    Mr. Donovan. I want to thank our witnesses for their 
testimony and the Members for their questions.
    The Members of the subcommittee may have some additional 
questions for our witnesses that we will ask you to respond to 
in writing.
    Pursuant to Committee Rule VII(D), the hearing record will 
be held open for 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 12:29 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

    Questions From Ranking Member Donald M. Payne for Thomas DiNanno
    Question 1a. In March, we saw two substantial cyber attacks on 
public infrastructure in major urban areas. Atlanta experienced a wide-
spread ransomware attack that impacted the Atlanta Police Department 
and even the wireless network of Atlanta International Airport. The 
second attack saw impacts to Baltimore's ability to dispatch emergency 
calls--this is especially alarming when you consider Baltimore's 9-1-1 
system receives more than 1 million calls each year.
    With these types of events occurring, are there new priorities that 
you are looking to fund?
    Question 1b. Particularly, are you looking at areas to help improve 
cyber capabilities to avoid what we saw in Baltimore and Atlanta?
    Answer. Cyber threats are a significant concern for our Nation's 
security and must be vigorously addressed. Beginning with the fiscal 
year 2018 preparedness grant cycle, FEMA will provide additional 
guidance in the Homeland Security Grant Program (HSGP) Notice of 
Funding Opportunity (NOFO) regarding cybersecurity and will require 
recipients under the State Homeland Security Grant Program (SHSP) and 
Urban Area Security Initiative (UASI) to submit one investment in 
support of the State, territory, or urban area cybersecurity efforts.
    Grant-funded cybersecurity investments must support or otherwise be 
associated with the systems and equipment that are considered allowable 
costs under HSGP.
    When requesting funds for cybersecurity, applicants are encouraged 
to propose projects that would aid in the implementation of all or part 
of the Framework for Improving Critical Infrastructure Cybersecurity 
(``The Framework'') developed by the National Institute of Standards 
and Technology (NIST). The Framework provides a common organizing 
structure to help organizations understand, communicate, and manage 
their cyber risks.
    Additionally in fiscal year 2018, SHSP and UASI recipients must 
include their chief information security officer (CISO) and chief 
information officer (CIO) on their senior advisory committee and urban 
area working group.
    Question 2. In the ``Budget in Brief'' document submitted along 
with the President's budget proposal, there was an all-hazards 
``Competitive Preparedness Grant Program'' described in fewer than 30 
words. The grant program would cost $522 million. My staff still has 
not seen details about the grant program, which is especially troubling 
given that the budget proposal included so many cuts to current grant 
programs. Please provide an in-depth explanation of the Competitive 
Preparedness Grant Program, including what the program would accomplish 
and the eligibility criteria.
    Answer. The new grant program which FEMA is now referring to as the 
Emerging Threat Competitive Grant Program is envisioned as an emerging 
threats/all-hazards preparedness grant program that would require 
grantees to measure results in reducing preparedness capability gaps 
and would also require robust evaluation. The Emerging Threat 
Competitive Grant Program legislative proposal is undergoing DHS and 
OMB review and will be shared with Congress once completed.
    The reasons underlying the need for the Emerging Threat Competitive 
Grant Program are based on the Nation's need to meet the challenges of 
a changing and evolving threat environment. The preparedness grant 
programs must evolve to meet new and evolving risks. The emerging 
threats facing the Nation today have significantly changed since the 
inception of the current preparedness grant programs. The proposed 
Fiscal Year 2019 Emerging Threat Competitive Grant Program would help 
address the dynamic risk environment by introducing an agile program 
informed by lessons learned from catastrophic disasters, terrorist 
incidents, and other incidents. The new program would allow applicants 
to competitively apply for funding that would reduce capability gaps 
and address emerging threats from acts of terrorism, natural disasters, 
and all other hazards.
    The key difference envisioned between the proposed program and 
current programs is that FEMA would create a set of National priorities 
to drive innovative solutions and investments that address emerging 
threats, while States continue to use traditional funding sources to 
maintain existing preparedness capabilities. In addition, this grant 
will address all hazards as opposed to current grant programs which 
require a terrorism nexus. Finally, since this program will be fully 
competitive, a robust evaluation process will be used to ensure that 
projects have effective outcomes. To ensure the program reflects the 
current risk landscape, FEMA will have the ability to shift the 
program's priorities to address emerging threats.

                                 <all>
</pre></body></html>
